<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2019 AND THE FUTURE YEARS DEFENSE PROGRAM</title>
<body><pre>[Senate Hearing 115-674, Part 3]
[From the U.S. Government Publishing Office]


                             
                                                S. Hrg. 115-674, Pt. 3

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2987

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2019 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE AND FOR MILITARY CONSTRUCTION, 
TO PRESCRIBE MILITARY PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR 
                             OTHER PURPOSES

                               ----------                              

                                 PART 3

                    READINESS AND MANAGEMENT SUPPORT

                               ----------                              

                      FEBRUARY 14; APRIL 11, 2018
                      
                      
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Printed for the use of the Committee on Armed Services
         
         
                   Available via http://www.govinfo.gov
                   
                               __________
                   
         
                   U.S. GOVERNMENT PUBLISHING OFFICE  
                   
37-588 PDF                WASHINGTON : 2019         
         







                      COMMITTEE ON ARMED SERVICES

  JOHN McCAIN, Arizona, Chairman
JAMES M. INHOFE, Oklahoma
ROGER F. WICKER, Mississippi
DEB FISCHER, Nebraska
TOM COTTON, Arkansas
MIKE ROUNDS, South Dakota
JONI ERNST, Iowa
THOM TILLIS, North Carolina
DAN SULLIVAN, Alaska
DAVID PERDUE, Georgia
TED CRUZ, Texas
LINDSEY GRAHAM, South Carolina
BEN SASSE, Nebraska
TIM SCOTT, South Carolina            JACK REED, Rhode Island
                                     BILL NELSON, Florida
                                     CLAIRE McCASKILL, Missouri
                                     JEANNE SHAHEEN, New Hampshire
                                     KIRSTEN E. GILLIBRAND, New York
                                     RICHARD BLUMENTHAL, Connecticut
                                     JOE DONNELLY, Indiana
                                     MAZIE K. HIRONO, Hawaii
                                     TIM KAINE, Virginia
                                     ANGUS S. KING, JR., Maine
                                     MARTIN HEINRICH, New Mexico
                                     ELIZABETH WARREN, Massachusetts
                                     GARY C. PETERS, Michigan
Christian D. Brose, Staff Director
Elizabeth L. King, Minority Staff Director

                              __________
                              
            Subcommittee on Readiness and Management Support

    JAMES M. INHOFE, Oklahoma, 
             Chairman
MIKE ROUNDS, South Dakota
JONI ERNST, Iowa
DAVID PERDUE, Georgia                TIM KAINE, Virginia
                                     JEANNE SHAHEEN, New Hampshire
                                     MAZIE K. HIRONO, Hawaii
                                     
                                     
                                     


                          C O N T E N T S

                              ________

                           February 14, 2018

                                                                   Page

Current Readiness of United States Forces........................     1

McConville, General James C., USA, Vice Chief of Staff, United        4
  States Army.
Moran, Admiral William F., USN, Vice Chief of Naval Operations,       7
  United States Navy.
Walters, General Glenn M., USMC, Assistant Commandant, United        10
  States Marine Corps.
Wilson, General Stephen W., USAF, Vice Chief of Staff, United        14
  States Air Force.

Questions for the Record.........................................    36

                             April 11, 2018

                                                                   Page

The Health of the Department of Defense Industrial Base and Its      59
  Role in Providing Readiness to the Warfighter.

Daly, Lieutenant General Edward M., USA, Deputy Commanding           61
  General, United States Army Materiel Command.
Grosklags, Vice Admiral Paul A., USN, Commander, United States       65
  Naval Air Systems Command.
Moore, Vice Admiral Thomas J., USN, Commander, United States         70
  Naval Sea Systems Command.
Levy. Lieutenant General Lee K., II, USAF, Commander, Air Force      71
  Sustainment Center, United States Air Force Materiel Command.
Crenshaw, Major General Craig C., USMC, Commanding General,          78
  Marine Corps Logistics Command.

Questions for the Record.........................................    98

APPENDIX A.......................................................   117

APPENDIX B.......................................................   118

APPENDIX C.......................................................   120

                                 (iii)




DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                      WEDNESDAY, FEBRUARY 14, 2018

                           U.S. Senate,    
                  Subcommittee on Readiness
                            and Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.

               CURRENT READINESS OF UNITED STATES FORCES

    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
Room SR-222, Russell Senate Office Building, Senator James 
Inhofe (chairman of the subcommittee) presiding.
    Subcommittee members present: Senators Inhofe, Ernst, 
Kaine, Shaheen, and Hirono.

           OPENING STATEMENT OF SENATOR JAMES INHOFE

    Senator Inhofe. We are going to go ahead and start without 
our ranking member. I am sure he is around here somewhere.
    The hearing today will come to order. We meet for the first 
time this year to receive testimony on readiness. We actually 
met once before with the same group that is here. Some people 
got a little upset with your honesty, but I appreciated it.
    I think it is one of the big ongoing debates we have right 
now, and you are aware of this, and that is that we have a 
serious problem that is--here he is, so we can start. We are 
just waiting.
    That is, the American people need to know the problems. And 
it was from this committee when we had our vices here before 
that it was compared to the late 1970s, the hollow force and 
all that. Well, we have problems now, and I like to talk about 
them. The reason I do is because the general public, if they 
are just lured into this euphoria that there are no big 
problems out there, then we cannot justify doing what we should 
do in rebuilding our military. So there is a difference of 
opinion in doing this.
    So anyway, I am going to go ahead and introduce the 
witnesses here. We have General James McConville, Vice Chief of 
Staff of the Army; Admiral Moran is the Vice Chief of Naval 
Operations; General Glenn Walters, Assistant Commandant of the 
Marines; General Stephen Wilson, Vice Chief of Staff of the Air 
Force. I thank all of you for your service and for being here 
today. I would like to remind our witnesses that while this is 
an open hearing, I ask that they do not hold any unclassified 
information back from this committee.
    Last month, Secretary Mattis wrote out the National Defense 
Strategy, which laid out a new strategic approach to addressing 
military challenges through building a more lethal force, 
strengthening alliances and attracting new partners, and 
reforming the Department for greater performance and 
affordability.
    I believe building a more lethal force begins with 
rebuilding and maintaining our readiness while we also look 
forward to modernizing our force structure. Maintaining the 
delicate balance between the sustained readiness gains while 
modernizing is more important than ever.
    For example, our Air Force continues to shrink. Since 
Desert Storm, there are 30 percent fewer airmen, and less than 
50 percent of the Air Force fighter squadrons are ready to 
fight in high-intensity combat. The Marine Corps has only 32 of 
its required 38 amphibious warships, severely impeding their 
ability to achieve unit training levels necessary to recover 
full-spectrum readiness. Repeated collisions in the Pacific 
highlighted the Navy's need for increased and more training of 
both enlisted sailors and officers. These are problems that we 
have that we will be addressing today.
    Ensuring the safety of the American people, that is really 
number one what we are supposed to be doing here. So it is up 
to you folks to join with this committee in trying to rebuild 
those areas that might have been relaxed a little bit in the 
last few years.
    Senator Kaine?

                 STATEMENT OF SENATOR TIM KAINE

    Senator Kaine. Thank you, Mr. Chairman.
    Thanks to all the witnesses for your service and for the 
opportunity to visit a bit before the hearing today.
    I want to thank the chairman, who I worked with in the past 
and look forward to more collaboration together in the 
bipartisan work that is the tradition of both the subcommittee 
and full committee.
    There is a limit to what we can discuss in open session 
today, but I echo my statement from last year's hearing and 
again urge all my colleagues to read the classified readiness 
reporting that is available to all members, because that will 
amplify some of what we will discuss. We may also discuss later 
whether we ought to do a closed briefing for any member that is 
interested in getting into some of the classified update 
material on current readiness status.
    An opening point would be I think we all took a step 
forward on the readiness issue by the passage of the Bipartisan 
Budget Act of 2018. Not a perfect budget, and there has never 
been one. We could find flaws. But to my way of thinking, the 
best part about it was it is forward-focused. Secretary Mattis 
has been warning us, as have all of you, about the problems of 
CRs [continuing resolutions] for years. And the ability to find 
a budget deal, which we will reduce to an appropriations deal 
that is forward-focused for a year and a half, I think it will 
be very, very positive in enabling you to plan and predict in a 
way that we have not been giving you the ability to do that in 
the past.
    I want to make sure, as we write the NDAA [National Defense 
Authorization Act] 2019, that we take advantage of that deal to 
really make sure that this authorizing act helps us restore the 
spectrum of readiness.
    We have heard all kinds of testimony and information from 
the various branches about readiness challenges.
    The Air Force has informed Congress that it needs 
additional support in the areas of personnel shortages, 
operational training. We see that at Langley in Virginia in 
support infrastructure. The Army needs assistance in tackling 
personnel challenges, improving critical kinetic modernization 
capacities, and also enhancing training in full-spectrum 
operations. The Navy continues to cycle through maintenance and 
modernization while trying to maintain readiness across its 
seven pillars. The Marine Corps is on a path to balance global 
demand through five pillars of institutional readiness.
    In discussions before this hearing with each of you, you 
kind of all talked about how you feel like we are on a path and 
we are making progress on the path. We have a long way to go, 
and giving you certainty on the budget will enable you to 
continue on the path.
    We have a need, and I want to hear, hopefully, from each 
witness today about how the services will track progress toward 
readiness through the Readiness Recovery Framework, R2F, to 
ensure that we meet readiness guidelines.
    I have said at these hearings before, readiness hearings 
always remind me of when I was Governor dealing with emergency 
preparation. Most things I dealt with as Governor, if I dealt 
with unemployment, I could ask what the unemployment rate is. 
If I dealt with education, I have to ask what the high school 
graduation rate is. When you are dealing with emergency 
preparation, it is different. How do you measure how you will 
do tomorrow? And readiness measures are kind of like that. How 
do you know how you will do tomorrow? And readiness measures, 
we need to know kind of how you set them and then how you are 
tracking toward them.
    I am also interested in, particularly, and I have stressed 
this before, an update from the Navy on the shipyard 
optimization plan, which is something that we included in the 
NDAA last year.
    Finally, just one concluding comment that is sort of 
Virginia-specific and personal to me, but it is not just 
Virginia-specific. In the written testimony that you submit, 
none of you address sort of climate- or weather-related 
challenges to our infrastructure. And this is a big deal in 
Virginia. The center of naval power in the world is in Hampton 
Roads, and we are seeing sea-level rise, for whatever cause, 
sea-level rise really affecting our installations, making roads 
into the naval base subject to flooding, requiring resilience 
investments to raise piers and make other adjustments. And I 
remember we had a hearing about this once down in Hampton Roads 
and had 500 people turn out to talk about it, and we were 
feeling like, is this just us? And one of our DOD [Department 
of Defense] witnesses said, hey, try running a military base 
where there are water shortages, try running a military base 
where there are fire risks.
    So it is not just us. We are dealing with increasing severe 
weather that then puts a cost burden in how you make a 
resiliency investment to maintain infrastructure. So I may ask 
some questions about that as well.
    But I appreciate all your service.
    I appreciate the tradition of this subcommittee and our 
work together with the chair. And with that, Mr. Chair, I will 
hand it back to you.
    Senator Inhofe. And I would say to Senator Kaine that I 
really appreciated the personal visit from you guys to be able 
to get into these things, because we are in a recovery mode 
right now, and it is going to take our interest to do it.
    Let's start with you, General McConville. Opening 
statements would be great.
    General McConville. Yes, sir.
    Senator Inhofe. Your statements will be made a part of the 
record, so you do not need to go beyond 5 minutes, unless you 
really want to.


 STATEMENT OF GENERAL JAMES C. McCONVILLE, USA, VICE CHIEF OF 
                   STAFF, UNITED STATES ARMY

    General McConville. Good afternoon, Chairman Inhofe, 
Ranking Member Kaine, and distinguished members of the 
subcommittee. Thank you for the invitation to testify on the 
readiness of our Army.
    In the face of an unpredictable, competitive, global 
environment, our Army stands ready to compete, to deter, and to 
win tonight. While there are challenges facing our Army, we 
remain poised to accomplish our essential mission, which is to 
fight and win our Nation's wars.
    We appreciate Congress' effort to end the drawdown and to 
increase Army's end-strength, and we are grateful for the 
bipartisan budget agreement, which will fund Army readiness 
recoveries through fiscal year 2019.
    The demand for Army forces remains high. The Army currently 
supports combatant commanders with more than 178,000 soldiers 
globally. Simultaneously recognizing we cannot fight tomorrow's 
wars with yesterday's weapons and equipment, we have enacted 
sweeping modernization reforms. The establishment of cross-
functional teams focusing on the Army's six modernization 
priorities and the introduction of the Army's Futures Command 
will increase unity of effort, agility, and accountability 
while building a more agile and lethal force.
    We request your continued assistance to provide timely, 
predictable, and sustained funding to ensure the Army maintains 
the competitive edge and remains the best trained, best 
equipped, and best fighting force in the world.
    Thank you for your time this afternoon. Thank you for your 
support to our men and women in uniform, and I look forward to 
your questions.
    [The prepared statement of General McConville follows:]

           Prepared Statement by General James C. McConville
                              introduction
    Chairman Inhofe, Ranking Member Kaine, distinguished Members of the 
Subcommittee, thank you for the opportunity to testify on the readiness 
of our Army. On behalf of our Secretary, the Honorable Mark Esper, and 
our Chief of Staff, General Mark Milley, thank you also for the support 
and commitment you continually demonstrate to our soldiers, Army 
civilians, families, and veterans.
    In the face of an unpredictable, competitive global environment, 
our Army stands ready to compete, deter, and win tonight. Our focus on 
readiness over the last several years has paid dividends: our soldiers 
are resilient, physically and mentally fit leaders of character. They 
are well trained, well led, and well equipped professionals who 
represent the diversity and strength of America. While there are 
challenges facing our Army, we remain poised to accomplish our 
essential mission: to fight and win our nation's wars.
    The single greatest challenge to maintaining and sustaining our 
Army's readiness is the lack of timely, predictable, sustained funding. 
For the past nine years, the Army began the fiscal year under a 
continuing resolution. The legacy of those consecutive continuing 
resolutions has been deferred readiness. Our inability to start new 
procurement programs and military construction projects, to enter into 
multi-year contracts, to increase production rates, or reprogram funds 
resulted in deferring investments in modernization to maintain support 
to the ongoing fight.
    Beyond current readiness concerns, we are at an inflection point 
where we can no longer afford to defer modernizing our capabilities and 
developing new ones without eroding competitive advantages of our 
technology and weapon systems. While we remain the most capable 
fighting force in the world, without immediate action, we may not be 
able to make that same statement in five years. With that challenge in 
mind, we have undertaken a sweeping reform of the Army acquisition 
process, and made modernization a top priority. In order to make these 
efforts successful, we need your support. We are grateful to be in a 
position where Army end strength is increasing, with the Fiscal Year 
2018 National Defense Authorization Act authorizing Total Army end 
strength growth above 1,018K. We also appreciate the enactment of the 
bipartisan budget agreement which will fully fund Army readiness 
through fiscal year 2019. Despite our positive near-term outlook, the 
potential future effects of Budget Control Act caps on Defense spending 
could undermine our previous readiness gains.
    readiness: manning, training, equipping/sustaining, and leader 
                              development
    Readiness remains our number one priority. In today's terms, 
readiness means the preservation of a lethal conventional force that 
can also conduct irregular warfare as a core competency, and ensuring 
the Army can project appropriate units at the time and place they are 
needed. We build unit readiness by ensuring our formations are fully 
manned, highly trained, well equipped and superbly led. In order to 
maximize unit readiness across the Army, we focus resources on those 
units likely to respond to a potential contingency, increase 
integration between the Regular Army and early deploying units of the 
Army National Guard and Army Reserve, and decrease our non-deployable 
population to ensure optimal manning in critical operational units.
                                manning
    Again, we appreciate Congress' efforts to grow the Army in 
accordance with the Fiscal Year 2018 NDAA prescribed end strength. As 
we grow, our first focus is on ensuring our formations are filled with 
deployable personnel. Initial increases in end strength were used to 
increase manning-levels within combat units and address gaps in air-
defense and long-range fires. To further mitigate risk, the Army 
adjusted the mix of brigade combat teams to increase armor capacity, 
reduce the number of infantry brigade combat teams, and balance Stryker 
brigade combat teams within the Regular Army and the Army National 
Guard. This increased armor capacity provided us with increased 
flexibility to meet threats around the world.
    Another way we are mitigating risk is with the introduction of 
Security Force Assistance Brigades. The first Security Force Assistance 
Brigade was activated in August 2017, and the second in January 2018. A 
total of six Security Force Assistance Brigades will be activated, with 
five in the Regular Army, and one in the Army National Guard. The 
mission of the Security Force Assistance Brigade is to provide well-
trained forces to partner, train, advise, assist, and accompany 
developing allied Armed Forces. In addition to their core mission, 
these veteran Security Force Assistance Brigades can also form the 
nucleus of brigade combat teams, which can be expanded by assigning 
entry-level Solders to rapidly produce additional brigade combat teams 
if urgently required.
    Recognizing that cyber threats will be an enduring part of modern 
warfare, the Army is rapidly training and fielding a total of sixty-two 
Cyber Mission Force Teams: forty-one in the regular Army, eleven in the 
Army National Guard, and ten in the Army Reserve. The Army continues to 
employ innovative solutions to increase the Cyber training pipeline and 
expand the cyber career path for the entire Army. This capability will 
support both Army and Joint operations, as well as protect our 
Homeland.
                                training
    The Fiscal Year 2017 National Defense Authorization Act and 
increased funding positioned the Army on a positive readiness recovery 
glide path. Today we have more units at the highest levels of readiness 
than we did at this time last year, and we will continue to build 
readiness the longer we stay on this glide path. However, our readiness 
recovery gains are perishable, and our readiness recovery plan depends 
on timely, predictable, sustained funding.
    The Army is implementing objective measures to assess training 
readiness and ensure standardization across the force. These standards 
include proficiency on Mission Essential Tasks; qualification on 
individual, crew, and platform weapons; unit live fire proficiency; and 
days required to be fully trained. Combat training center rotations 
continue to serve as culminating training events for our brigade combat 
teams. By fiscal year 2020, 90 percent of all Regular Army brigade 
combat teams will have completed three decisive action combat training 
center rotations during this decade. These iterative combat training 
center rotations build institutional readiness at echelon, reinforcing 
and refining our soldiers' experience. In addition to training on 
decisive action, combat training centers routinely challenge units with 
increased exposure to electronic warfare, enemy unmanned aerial 
systems, cyber-attacks, more lethal indirect fire, and enemy use of 
precision guided munitions. Such realistic and relevant training will 
ensure our Army maintains a lethal conventional force while retaining 
irregular warfare as a core competency.
                          equipping/sustaining
    In addition to training, we recognize that we must provide our 
soldiers with the equipment they need to fight and win. The Army 
Modernization Strategy will enable us to deliver advanced capabilities 
to our warfighters on a substantially decreased timeline. We identified 
six modernization priorities, stood up cross-functional teams in 
support of those priorities, and realigned science and technology funds 
accordingly. Institutional reforms will establish unity of command, 
effort and purpose by consolidating the modernization process under one 
new command, the Army Futures Command. The cross-functional teams are 
key to rapidly developing requirements, and ensuring that these future 
capabilities transition quickly from concept to prototyping to 
fielding.
                           leader development
    Soldiers remain our most valuable asset, and leader development 
remains the foundation of the Army's ability to rapidly respond to the 
changing nature of war. The Army is committed to accessing and 
retaining quality soldiers and leaders through improved talent 
management processes, incentives, and promotion opportunities. We 
remain a standards-based organization, and our leaders continue to 
enforce those high standards.
    The Army is committed to ensuring all soldiers are provided full 
career opportunities to reach their highest potential and enhance Army 
readiness. In the past year, we continued to execute a methodical 
approach to opening all positions and occupations for women. Currently, 
every infantry, armor, and field artillery battalion in a Regular Army 
brigade combat team has women assigned, and 10 female officers have 
graduated from Ranger School--our premier tactical small unit 
leadership course.
                                closing
    Our Army remains ready today to fight tonight. However, sustaining 
readiness while finally addressing long-deferred modernization requires 
timely, predictable, sustained funding. We need your continued 
assistance to ensure your Army remains the best-trained, best-equipped 
and best-led fighting force in the world. We thank Congress for its 
steadfast support of our exceptional soldiers.

    Senator Inhofe. Very good. Thank you.
    Admiral Moran?

STATEMENT OF ADMIRAL WILLIAM F. MORAN, USN, VICE CHIEF OF NAVAL 
                 OPERATIONS, UNITED STATES NAVY

    Admiral Moran. Thank you, Mr. Chairman, Ranking Member 
Kaine, and distinguished members of the subcommittee. I really 
appreciate you inviting us back again this year. And also, 
thank you for the bipartisan budget agreement, which goes a 
long way toward much needed financial stability and building a 
more lethal military force.
    Once President's Budget for Fiscal Year 2018 is enacted, we 
will aggressively and responsibly accelerate our readiness 
recovery plan to earn your trust. As capable as we are today, 
we will continue to invest in making us even more capable in 
the future.
    President's Budget for Fiscal Year 2019 is a strategy-
driven budget. It is tightly aligned with the National Defense 
Strategy, which provides clear strategic direction for the 
United States Navy. The program we have built is laser-focused 
on rebuilding readiness and making our teams more lethal. As 
Secretary Mattis has stated, it is a budget that restores our 
competitive advantage, and it is what we need to bring us back 
to a position of primacy.
    Last year, Members of Congress invested $1.7 billion in 
Navy readiness. We allocated every single penny of that 
critical investment to arrest the erosion we were seeing in 
fiscal year 2017 and previous years. And it put us on a path in 
fiscal year 2018 to restore our most pressing readiness needs.
    In the past few months, I have visited several units around 
the fleet, including many being maintained in our public and 
private shipyards.
    Last year, at this hearing, you may remember us discussing 
the USS Albany, an L.A.-class submarine which had been tied up 
for over 3 years due to inadequate resources. I am happy to 
report to you today that the crew is wrapping up their time 
after over 4 years in the yards and is excited about finally 
being able to get underway.
    On the aviation front, instead of shutting down flight 
operations for several fleet squadrons, we are able to continue 
operating and training our pilots and our aircrew. We are also 
able to begin addressing understocked spare parts, and we are 
able to build a more effective work force in our aviation 
depots.
    That extra money also helped us recover a number of 
deferred surface ship maintenance and modernization periods, 
and allowed us to restock our munitions.
    All of this started with your help. So when President's 
Budget for Fiscal Year 2018 is finally signed and President's 
Budget for Fiscal Year 2019 is enacted on time, we will be able 
to sustain the recovery you helped us jumpstart last year and 
grow and improve our lethality as a Navy. Together, these 
changes will expand the margin of victory in any future fight, 
and it will move us closer to the Navy the Nation needs.
    Finally, we should talk about our people today. This year, 
we are growing the Navy to close personnel gaps at sea, 
adopting innovative policy solutions to retain the very best 
talent we have, and we are committed to changing the way we 
train to be even more effective.
    As you well know, people are the foundation of our military 
advantage. And the growing economy will heighten the 
competition for all of that talent, which makes stable, 
predictable funding, as reflected in your budget agreement, all 
the more important to all of us sitting at this table. This 
will help keep us competitive and allow us to bring in even 
more young men and women from all across the country.
    It is on their behalf, and their families, that I thank you 
for your continued support, and I look forward to your 
questions.
    [The prepared statement of Admiral Moran follows:]

             Prepared Statement by Admiral William F. Moran
    Mr. Chairman, Ranking Member Kaine, and distinguished members of 
the Sub-Committee, I appreciate the opportunity to testify on the state 
of Navy readiness, the progress we have made over the past year, and 
the opportunities we have to continue this progress. While a ready 
Fleet is a lethal Fleet, capable of winning when called upon, it must 
also be a safe Fleet. It is our mission to maintain the readiness of 
our Navy in order to prevent it from degrading to the point where the 
very safety and well-being of our sailors is in question.
    Foremost I want to thank Congress for the additional $1.7 billion 
investment in readiness as part of the Fiscal Year 2017 Request for 
Additional Appropriations, which helped prevent additional backlog in 
surface maintenance requirements and aviation depots, and kept our 
airwings flying. This was an important injection of much needed 
funding.
    At the height of the Cold War, approximately one in six ships were 
deployed on any given day, today almost one in three are deployed on 
any given day. This ``math problem'' clearly demonstrates that national 
demands for your Navy far exceed its capacity, driving operational 
tempo to unsustainable levels. Compound those facts with Budget Control 
Act (BCA) funding caps over the past five years which challenged the 
ability of the Navy to adequately address the full range of needed 
investments while meeting near-term commitments. And, the world 
continues to grow more complex and competitive.
    During this time we prioritized funding for deployed naval forces 
first, and began accumulating risk to our surge forces, training 
forces, and our shore infrastructure. As a result, too many of our 
planes weren't ready to fly, too many ships were not training at sea, 
our ship and aircraft maintenance production was severely delayed, and 
our shore infrastructure had degraded to unacceptable levels.
    With the funds we requested and you appropriated, we reversed the 
most critical readiness problems by executing 13 more ship maintenance 
availabilities, restoring 35 additional air frames to flight, and 
providing 18,000 flying hours to train 900 pilots. In addition, we 
gained back two ship deployments and a combined one year of carrier 
operations and surge capability, and we began the process of buying 
back critical munitions. Ship and aircraft spare parts were funded 
along with 16 much needed shore infrastructure projects. These funds 
helped arrest our readiness decline, and put your Navy in a better 
readiness state to fight tonight if called upon.
    However, under the conditions imposed by another series of 
Continuing Resolutions, these improvements will not be sustainable 
without an appropriated budget in fiscal year 2018 and continued 
funding at levels that support the Navy's role in the National Defense 
Strategy. At the time of last year's testimony, the DOD had operated 
without an enacted appropriations bill for eight consecutive years. As 
this committee knows well, Continuing Resolutions force us to operate 
under previously enacted funding levels, damaging our ability to 
sustain our force into the future. These Continuing Resolutions have 
averaged 106 days per fiscal year, a total of almost three cumulative 
years, operating under previously enacted budget levels. This year 
makes nine. While the Navy fulfilled its commitment to execute the 
fiscal year 2017 RAA funds against the most critical readiness 
shortfalls, and submitted its budget for fiscal year 2018 to continue 
to fund readiness at historically high levels, the Congress has not 
fulfilled its commitment to provide the stable funding to achieve 
lasting results. Simply put, our gains from 2017 are at risk.
    Unpredictable budgets not only hamstring the Navy's ability to 
prepare and plan, they are a major disincentive to industrial base 
investments in ship repair and modernization capacity we need to grow 
readiness. No business organization, public or private, can withstand 
the fits and starts of our budget environment. The sporadic nature of 
how we are funded leads to significant workflow problems; even if fully 
funded, we cannot complete a net six months of work in thirty days. 
Continuing Resolutions, and the implication of Sequestration as a 
result of the Budget Control Act, severely hamper us from developing a 
lethal and ready Navy the nation needs.
    The readiness of Naval Forces is a function of three components; 
people, material and time. Buying all the people, ships and aircraft 
will not produce a ready Navy without the time to maintain hardware and 
time for our people to train and operate. Too much time operating and 
not maintaining degrades our material and equipment readiness. 
Conversely, too much time for maintenance has a negative impact on 
meeting planned training and operational schedules, and the 
corresponding negative impact on the readiness of our sailors to fight. 
This is a vicious cycle that Continuing Resolutions and insufficient 
funding create by disrupting the balance we need to maintain readiness, 
and our ability to grow capability and capacity.
    On recent visits to the USS Leyte Gulf, USS Seawolf and USS Maine, 
crews described the impacts of unreliable or insufficient funding while 
in maintenance periods. On each ship, shipyard workforce hiring, 
training and retention are directly impacted by unpredictable funding, 
causing delays as a result of workflow problems. On each ship, fits and 
starts in production schedules overwhelm crews to get work done when 
funding is finally made available. On each ship, maintenance runs late 
and as a result time to train is irreversibly lost.
    Similarly, these sailors and officers will tell you, naval 
readiness and lethality are cultivated at sea, operating forward. 
Sailors that can't get out of maintenance periods to operate at sea 
find it hard to qualify in their jobs, and are forced to transfer to 
their next assignment without requisite operational experience levels 
and in some cases without the qualifications their peers have earned. 
This will have long term career and retention implications. The USS 
Albany, a submarine which I spoke to you about last year, is almost 
ready to dive again. However, Albany no longer has anyone onboard who 
has taken that particular ship to sea--another victim of years-long 
delays due to unpredictable funding from Continuing Resolutions. I also 
testified about the USS Boise last year, tied to the pier with no clear 
path ahead for maintenance and unable to dive. With funding from 
Congress this year we were able to ensure that the Boise would get into 
the yards, and when I visited the crew a few weeks ago they wanted 
assurances that they would not become another Albany now that she's 
pier side.
    I am confident that our officers and sailors will continue to find 
innovative ways to compensate for these shortcomings--on Albany one 
sailor who has spent the past four years and eight months on board 
pier-side looked me in the eye and said, ``I'm sticking around because 
I want to deploy. We are getting after any problem we might have 
because we are building a strong crew.'' I am proud that we have the 
talent that can innovate to get the job done, but it is our 
responsibility to ensure ship and aircraft crews have what they need in 
order to deliver the lethality that the Navy is called upon to deliver.
    For the Navy, operating forward contributes directly to readiness. 
Operations forward, including missions and exercises with allies, build 
the muscle memory and institutional knowledge of the area in which we 
expect to fight. Operating forward allows us to identify, develop and 
test new technologies, and design improvements for existing 
technologies. Operating forward ensures that we stay one step ahead of 
the adversary, aligned hand in hand with our allies, sharp and ready to 
fight. The best way to know the environment is to be in the 
environment--the adage all politics is local applies to the maritime 
environment, as well. When ships and sailors are stuck in the yards, we 
cannot operate forward.
    We are acutely aware of the stresses placed on our Navy. The most 
efficient way for us to relieve those stresses is to provide a reliable 
and consistent funding flow. The Navy is grateful for the injection of 
money we received last year at the last minute, however, a Hail Mary 
cannot be our only play. A steady balanced running game of consistent 
funding for maintenance and operations, along with support for our 
fiscal year 2019 budget request to grow capabilities and capacity to 
outpace our adversaries, will put us in position to win. We win by 
keeping the offense on the field; ships, aircraft and sailors at sea, 
trained and ready.
    A full appropriations, as requested in fiscal year 2018, increases 
end-strength by approximately 4000 more sailors and maintains 
reasonable notification time to reduce stress on our families when 
changing duty stations. Our fiscal year 2018 request fully funds the 
Navy to operate, and continues procurement of capacity and capability 
needed in the future, including munitions, Columbia-class SSBN, nine 
new-construction ships, first year of full funding of CVN-80 and the 
balance of funding of LHA-8, and requests multi-year procurement 
authority for 10 DDG 51-class ships.
    In contrast, a Continuing Resolution brings a $600 million 
shortfall over six months and a $1.2 billion shortfall from our fiscal 
year 2018 request. In a six month Continuing Resolution, we will delay 
up to six ship maintenance periods, suffer delays in aircraft 
maintenance and repair parts, delay our munitions contracts, and we 
will not award three ship contracts.
    Beyond six months the Navy will have regressed to conditions 
familiar in early 2017. A full year CR will require us to cancel two 
ship deployments, cause one full carrier air wing to stop flying, choke 
off training flights, cancel 19 ship maintenance periods, cancel 19 
Blue Angels shows, cancel the Rim of the Pacific exercise, prevent 
awarding two DDG multi-year procurements, prevent funding for Columbia, 
and halt Virginia-class submarine procurement to name a few examples. 
And while the results of a Continuing Resolution hurt readiness 
recovery, a sequestration stops readiness gains in their tracks.
                                summary
    It is essential that we do not reverse the gains made last year 
with fiscal year 2017 funds. The fiscal year 2018 budget submission 
assures that we can build upon the readiness gains we have made over 
the past year. A predictable budget, one that we proposed for fiscal 
year 2018, will ensure our sailors and shipyard employees have the time 
required to complete maintenance availabilities in accordance with 
carefully planned timelines. It also ensures that our ships, aircraft, 
sailors and aviators get out to sea where they can build upon material 
readiness, at-sea training and operational experience. This is how to 
build the safest Navy for our sailors, the most lethal for our 
adversaries and the most reliable partner for our allies. We ask that 
Congress end the Continuing Resolution and provide the funds requested 
in our fiscal year 2018 submission.

    Senator Inhofe. Very good. Thank you.
    General Walters?

    STATEMENT OF GENERAL GLENN M. WALTERS, USMC, ASSISTANT 
             COMMANDANT, UNITED STATES MARINE CORPS

    General Walters. Chairman Inhofe, Ranking Member Kaine, and 
distinguished members of this subcommittee, thank you for the 
opportunity to appear today and report on the readiness of your 
Marine Corps.
    The Congress and the people of our great Nation expect the 
Marine Corps to be forward-deployed and forward-postured, ready 
and capable of rapid action to win our Nation's battles. Our 
readiness is essential to fulfilling this responsibility.
    Previous strategies focused our investments on readiness to 
defeat violent extremist organizations and meet steady-state 
combatant commander requirements. After years of prioritizing 
readiness to meet these requirements, our defense strategy now 
defines readiness as our ability to compete, deter, and win 
against the rising peer threats we face.
    We must modernize to achieve this definition of readiness. 
Your support in passing the fiscal year 2017 request for 
additional appropriations provide a welcome step toward 
correcting our readiness challenges.
    We thank the Congress for efforts in reaching the recent 
bipartisan budget agreement. Predictable, on-time, and 
sustained budgets remain the essential requirement for the 
Marine Corps to meet our obligations as the Nation's force in 
readiness. With your commitment and continued support, we will 
move forward with our responsibility to ensure your Marine 
Corps is organized, manned, trained, and equipped, and postured 
to protect our fellow Americans, assure our allies, and deter 
and defeat any adversary.
    Thank you and I look forward to your questions.
    [The prepared statement of General Walters follows:]

              Prepared Statement by General Glenn Walters
                              introduction
    Chairman Inhofe, Ranking Member Kaine, and distinguished members of 
the Senate Armed Services Subcommittee on Readiness, I appreciate the 
opportunity to testify on the current state of Marine Corps readiness. 
As set forth by the 82nd Congress and reaffirmed by the 114th Congress, 
the United States Marine Corps is our Nation's maritime combined arms 
air-ground ``force in readiness.'' As outlined in the National Defense 
Strategy (NDS), our forward deployed marines, as part of the Navy-
Marine Corps team, operate within the contact and blunt layer to deter 
our adversaries and prevent conflict from escalating into wars that 
require larger Joint Force intervention. As part of the blunt layer, 
our forward stationed Marine forces must stand ready to delay, degrade 
or deny enemy aggression. Our marines training and preparing for war 
from their home installations must be ready to rapidly aggregate with 
forward postured marines to blunt adversary aggression or, if required, 
surge as part of a war-winning Joint Force.
    Your marines continue to support a high operational tempo. In the 
past year, they provided accurate and sustained artillery fire support 
to coalition-enabled Syrian Democratic Forces as they fought to clear 
the Islamic State from Raqqa, Syria. Marines aboard amphibious shipping 
projected power ashore with offensive strikes and air support. Our 
marines continue to build partner capacity across the globe, to include 
in Iraq and Afghanistan. Land and sea-based marines provided immediate 
disaster response in the aftermath of four hurricanes. They deterred 
provocations with forward postured 5th generation aircraft in the 
Pacific, and your marines enabled full-spectrum cyberspace operations 
supporting Joint and Coalition Forces.
    These sustained operations and requirements continue to consume 
much of the useful life of many of our legacy systems. The NDS directs 
us to modernize our capabilities to achieve increased lethality and 
resilience. The Marine Corps must adapt its organization, training, 
equipping and posture to meet the challenges of today's environment of 
strategic inter-state competition. We must prioritize our readiness for 
war and gain the competitive advantage required to deter and defeat the 
pacing threats that face our Nation.
    The support of Congress in passing the Fiscal Year 2017 (FY17) 
Request for Additional Appropriations (RAA) provided a welcomed step 
toward correcting our readiness challenges. Your Marine Corps requires 
continued support from Congress with predictable budgets over a 
sustained period to fully mitigate the readiness challenges we face. 
Fiscal instability, resulting from persistent continuing resolutions 
(CRs) and looming and actual government shutdowns, produce the most 
significant risk to our readiness. We are concerned that the 
instability that CRs cause are shrinking our industrial base, 
negatively affecting the lines that produce our spare parts and the new 
modern capabilities we require. We require continued near-term actions 
to improve warfighting readiness and achieve program balance as well as 
longer term efforts in the Future Years Defense Program (FYDP) to 
modernize the force through increased lethality and resilience. With 
the support of the 115th Congress, we can continue to improve our 
readiness to meet the requirements outlined in the NDS and deter and 
defeat the growing threats we face.
                      modernization and readiness
    Readiness is essential to our ethos. The Congress expects the 
Marine Corps to be forward deployed and forward postured, ready and 
capable of rapid action to win our Nation's battles. Those surge layer 
units not forward postured need to be prepared to rapidly aggregate and 
project power from home stations and bases to the point of crisis. We 
should be resourced accordingly to honor this commitment. We cannot 
afford to build readiness after a crisis occurs. We must be ready to 
respond immediately.
    Previous strategies focused our investment on readiness to defeat 
violent extremist organizations and meet steady-state geographic 
combatant commander (GCC) requirements. After years of prioritizing 
readiness to meet steady-state requirements, our strategy now defines 
readiness as our ability to compete, deter and win against the rising 
peer threats we face. We define readiness by whether we possess the 
required capabilities and capacity we need to face the threats outlined 
in the NDS.
    Modernization is a vital component of our readiness--our ability to 
deter and counter growing threats. Investing in relevant modernization 
and innovation directly correlates to improved readiness. Previous 
decrements to our modernization efforts deferred our critical future 
capabilities and infrastructure, forcing us to continue investing in 
aging legacy systems that lack the capabilities required for the 21st 
Century. Over time, legacy systems continue to cost more to repair and 
sustain. Simultaneously, delayed modernization incurs the opportunity 
costs associated with the delayed fielding of replacement systems and 
the increased capabilities they will provide. Prioritizing 
modernization can reduce average unit procurement costs, achieve 
efficiencies and save taxpayer money. As the operating environment 
changes, our investment approach will align with the NDS, increasing 
modernization investments and innovation in capability areas required 
to counter modern threats, such as: information warfare (IW), long 
range precision fires, air defense, command and control in a degraded 
environment, and protected mobility/enhanced maneuver.
Information Domain
    The current and Next Generation Marine Corps must dominate within 
the information domain. We must enable and protect our ability to 
command and control (C2) units distributed across an area of 
operations. This requires transforming Marine Air-Ground Task Force 
(MAGTF) C2 capabilities through a unified network environment that is 
ready, responsive and resilient. Our Common Aviation Command & Control 
System (CAC2S) will provide the MAGTF with the capabilities required to 
effectively command, control and coordinate air operations integrated 
with the Naval and Joint Force. The Ground/Air Task Oriented Radar (G/
ATOR) will replace five legacy systems with one expeditionary radar, 
providing the MAGTF the ability to monitor the battlespace and threats 
like never before. These modern capabilities will facilitate improved 
battlefield awareness to and from small, dispersed tactical units. As 
warfare evolves into a battle of signatures and detection, improvements 
such as these are vital to maximize our marines' protection and 
effectiveness.
Amphibious, Maritime, Expeditionary Capability and Capacity
    We require increased attention to and investment in our amphibious 
shipping capability and capacity. Resilient and lethal amphibious 
platforms provide the strategic mobility, logistical support, 
operational reach, and forcible entry capability required to deter and 
defeat our Nation's adversaries. Our amphibious capability is a 
centerpiece to the operational success of the Navy-Marine Corps team 
and remains the preferred and most effective method to deploy and 
employ Marine forces. The availability of amphibious shipping and 
modern ship-to-shore connectors remains paramount to our readiness, 
responsiveness and the execution of the NDS. In coordination with the 
Navy, we are looking at alternative maritime basing platforms as 
additional seabasing options. These ships may add depth and flexibility 
in support of lower threat contingencies. Ultimately, supporting the 
Navy's 30 year shipbuilding plan and accelerating the lethality and 
resiliency of our L-class ships can provide our Nation with the 
credible and decisive amphibious capabilities it requires.
Aviation Modernization and Readiness
    Your support in the fiscal year 2017 enacted budget funded critical 
aviation shortfalls. Your Navy-Marine Corps team received $144 million 
for aviation depot operations, which funded 35 additional airframe 
inductions for the Navy and Marine Corps. We received $61 million for 
aviation logistics funding that supported over 3,000 flight hours for 
the F-35 and MV-22. The appropriations enabled us to invest in spare 
parts required to support future F-35B deployments. Perhaps most 
notably, the average flight hours per crew per month increased by 1.9 
hours compared to fiscal year 2016--an increase of 14 percent. Your 
investment produced direct, quantifiable readiness gains. While we are 
increasing flight hours for our aviators, they still need additional 
flight hours to reach the proficiency we require.
    We ask for your continued support to sustain and build upon these 
improvements. CRs impact aviation readiness by inhibiting our ability 
to execute a year-long funding strategy, specifically investments in 
spares and repair parts. Without regular appropriations, costs are 
driven higher as we are unable to put contracts in place with primary 
suppliers, or are forced to purchase parts below the optimal 
quantities. Through predictable budgets and on-time appropriations, we 
can achieve our comprehensive aviation recovery plan.
    Unpredictable funding and CRs have delayed the Marine Corps' 
aviation modernization plan and readiness recovery by preventing 
execution of a long-term investment strategy. Shallow acquisition ramps 
for the F-35B/C and CH-53K require us to continue sustaining and 
operating legacy aircraft that are rapidly approaching the end of their 
service lives. Every dollar spent on aviation modernization has a 
direct positive effect on current and future aviation readiness. The 
most effective means to meet our NDS responsibilities, improve aviation 
readiness and gain the competitive advantage required for combat 
against pacing threats, is through your support to complete procurement 
of our modern aviation platforms. Last year, our first operational F-35 
squadron relocated to Iwakuni, Japan. This move enhanced the 
capabilities of the Navy-Marine Corps team, reassured our allies of our 
commitments in the Western Pacific, and improved overall Tactical 
Aircraft (TACAIR) readiness. This year we look forward to the first F-
35B deployment as part of a Marine Expeditionary Unit (MEU) in the 
Western Pacific. The CH-53K Heavy Lift Replacement remains critical to 
maintain and improve the battlefield mobility our amphibious force 
requires. The CH-53K will nearly triple the lift capacity of the CH-53E 
it will replace. The fiscal year 2017 enacted appropriation funded a 
counter-unmanned aircraft systems (CUAS) capability, and some of these 
systems are currently supporting our forward deployed forces. We must 
continue to refine and develop these capabilities to win on the 
battlefields of today and tomorrow. The Marine Corps requires your 
continued support to acquire modern capabilities that can widen our 
competitive advantage.
Ground Modernization and Readiness
    Our ground equipment readiness continues to improve. Our depot 
production plants at Albany and Barstow remain an essential component 
to our ground equipment readiness strategy. The enacted fiscal year 
2017 appropriations provided additional funding that yielded near-term 
readiness gains. The increased funding addressed intermediate and 
organizational maintenance challenges, increased availability of 
secondary repairable parts, and focused on critical combat capabilities 
within specific units: engineer, communications, ordnance and motor 
transportation. It also funded additional munitions that mitigated risk 
in support of an emerging crisis. Our execution of these funds produced 
quantifiable ground readiness improvements; however, predictable, long-
term budgets remain necessary to capitalize on and sustain these 
readiness recovery efforts.
    While this is welcome news, our most important legacy capabilities 
continue to age as modernization efforts fail to keep pace with our 
requirements. CRs risk delaying contract award for the Amphibious 
Combat Vehicle (ACV) 1.1, scheduled for June 2018, directly impacting 
our ability to invest in the critical lethality and protected mobility 
upgrades inherent in the ACV. To modernize our ground combat element 
and ensure success against increasingly capable 21st Century threats, 
we need to accelerate investments in our ground systems.
Logistics Modernization
    The Next Generation Logistics Combat Element will optimize tactical 
distribution with unmanned platforms, flatten the supply chain through 
additive manufacturing (AM), and enhance preventive and predictive 
supply and maintenance with sense and respond logistics. Further, 
state-of-the-art logistics command and control information technology, 
enabled by artificial intelligence, will extend the operational reach 
of the MAGTF. Our Marine Corps Warfighting Laboratory (MCWL) and Next 
Generation Logistics (NexLog) organizations continue to stay at the 
cutting edge of military innovation.
Installation Infrastructure
    Our installations serve as national defense assets that enable our 
forces to hone their combat readiness before they deploy and operate 
within the contact layer force our Nation requires to deter potential 
adversaries. Our bases and stations are strategic power projection 
platforms from which our blunt and surge layer forces fight and win. 
They are where we house and care for our Marines and their families. In 
past years, we took risk in our installation portfolio to support near-
term operational readiness. Continued underfunding of our long-term 
infrastructure needs will create increasingly disproportionate long-
term costs, inconsistent with disciplined fiscal principles and 
business reforms prioritized by the Secretary of Defense. As outlined 
in the NDS, our installations must prove resilient in the face of the 
threats we face. We must modernize our installations to protect our 
blunt and surge layer forces and reassure our partners and allies. Our 
operational capabilities are adapting to meet these changes, and we 
need to invest in a next generation installation infrastructure to 
match the growing MAGTF capability. Your support is crucial as we begin 
to develop installation infrastructure to support our Next Generation 
MAGTF.
High Quality People
    Ultimately, our readiness and the success of our Marine Corps 
relies upon the high quality, character, and capabilities of our 
individual Marines and civilians; they are the foundation of our 
readiness. We successfully recruit and retain high caliber women and 
men; over 99 percent of our newest Marines and recruits are high school 
graduates. This speaks to the quality of the Marines that make up our 
force. We closely track our ability to recruit and retain our most 
talented and highly qualified and skilled Marines. As the Talent 
Management Officer of the Marine Corps, I am personally focused on 
these efforts. Now more than ever, we need Marines with the mental 
acuity and cognitive skills necessary to be effective in chaotic 
environments and complex terrain. We design our training and education 
continuum to produce men and women who are resilient, adaptive, 
innovative, and imbued with the creativity and moral values required to 
make sound tactical and ethical decisions. Our Marines remain the 
bedrock of our operational effectiveness.
                               conclusion
    On behalf of all of our marines, sailors--many deployed and in 
harm's way today--and their families and the civilian Marines that 
support their service, we thank you for the opportunity to discuss the 
readiness challenges we face. Along with your authorizations as 
outlined in the 2018 NDAA, we require your support through the required 
appropriations to adapt your Marine Corps to compete, deter and win 
against the threats we face together. CRs and the looming threat of 
sequestration continue to disrupt our planning and directly threaten 
our readiness. Predictable and sustained budgets remain the essential 
requirement for the Marine Corps to meet our obligation as the Nation's 
``force in readiness.'' Our readiness relies upon modernization to 
provide increased lethality and resilience and to allow us to off ramp 
the continued funding for sustaining increasingly expensive legacy 
systems. Modernization will provide the competitive advantage required 
to deter and defeat the pacing threats we face today and into the 
future; this is the cornerstone of our National Defense Strategy. With 
the support of the 115th Congress, we will move forward with our 
responsibility to ensure your Marine Corps is organized, manned, 
trained, equipped and postured to protect our fellow Americans, assure 
our allies, and deter and, when necessary, defeat our adversaries.

    Senator Inhofe. Very good.
    General Wilson?

  STATEMENT OF GENERAL STEPHEN W. WILSON, USAF, VICE CHIEF OF 
                 STAFF, UNITED STATES AIR FORCE

    General Wilson. Chairman Inhofe, Ranking Member Kaine, 
members of this committee, thank you for allowing me to testify 
before you today. On behalf of the Secretary, the chief, and 
the 670,000 airmen, many in harm's way as I speak, it is a 
privilege to be here with my distinguished vice chiefs.
    As an Air Force, we defend the Homeland. We own the high 
ground of air and space. We project decisive combat power 
forward with our joint team to defend America's interests and 
our allies worldwide.
    Since the hearing last year on readiness, we have continued 
the longest period of combat in our Nation's history, 27 years. 
We have exacerbated this period of combat with a decade of 
fiscal disorder while our forces shrank, our equipment aged and 
our equipment atrophied, leading to erosion of full-spectrum 
readiness.
    In parallel, as the new National Defense Strategy makes 
clear, great power competition has reemerged. Today, our 
strategic competitors, China and Russia, are moving at a speed 
and scale unseen in recent history. We must counter that with 
sustained, urgent action.
    With your help, we can accelerate the building of a more 
lethal force ready to compete, to deter, and to win any fight 
anywhere.
    Aided by your funding in 2017, we have arrested the 
readiness decline. We began to do so with a keen focus on our 
number one resource, our people. Thanks to your help, we will 
be adding 3,300 airmen a year over the next 5 years.
    We are also funding more flying hours and munitions, more 
equipment and parts, depots, training, and our training 
infrastructure. But we must get away from the CR this year in 
time to turn the corner, so that our resources can be used 
against space superiority, deterrence, training, air 
superiority, and cyber, amongst others. We will then leverage 
2019 to accelerate a multiyear climb toward full-spectrum 
readiness.
    To move at the speed of relevance, we need your continued 
help in the following areas: first and foremost, budget 
stability and return to physical order; second, competitive 
personnel policies that allow us to attract and retain 
America's best talent; we also need continued support for risk-
taking innovation to outpace the competition; and, finally, 
national research efforts in science and technology to expand 
America's competitive space. Collectively, these efforts will 
help build a more lethal and ready force.
    Let me close with an example of the alternative and what 
can happen if we don't act with urgency. And I will go back to 
the 1950s when a retired Army senior officer, a West Point 
graduate of 1924, a Bataan Death March survivor who spent 3 and 
a half years in captivity in prison camps like Cabanatuan, said 
the following in a speech at a conference. ``Appearing before 
you is an expert in failure, an authority on disaster. I am one 
of the few Americans who has lost a war, who has seen an 
American Army overrun and defeated by a combination of 
starvation, sickness, unpreparedness, with superior enemy 
forces and the nearest reinforcements 7,000 miles of enemy-
controlled ocean away. I have seen veteran officers change 
overnight into tired, beaten, unshaven old men just trying to 
walk to the next waterhole.
    ``We used to say if what is happening could happen to 
everyone in United State of America for just 1 week, I believe 
the security of the country would never be again endangered by 
complacency, by red tape, or by fear of expenditure for its 
insurance.''
    He went on to say, ``As a Nation, we must be prepared. We 
must be ready, because time is now reckoned in minutes and 
hours instead of months and years. And in a future war, that 
time will not be available.''
    Those comments were made by my grandfather, Colonel Ovid 
Wilson, and I would say his profound insights about the loss of 
readiness offer wisdom that cannot be ignored today.
    So make no mistake, we are again in a great power 
competition, and margins of victory and defeat are 
extraordinarily narrow. Time to ready is scarce. Speed wins in 
preparation as in battle. We must throw off the yoke of the red 
tape and risk-aversion to empower airmen for sustained, urgent 
action.
    Thank you for helping arrest the readiness decline. We have 
turned the corner. Now we must accelerate, gain speed, and 
climb to ensure America's airmen are more ready, more lethal to 
fight any adversary anywhere on the planet.
    I look forward to your questions.
    [The prepared statement of General Wilson follows:]

            Prepared Statement by General Stephen W. Wilson
                              introduction
    Chairman Inhofe, Ranking Member Kaine, members of this committee, 
thank you for allowing me to testify before you today. Moreover, thank 
you for your leadership to begin the return to regular fiscal order.
    It is our top priority to restore readiness to win any fight at any 
time. Nearly three decades of non-peer, non-traditional conflict has 
consumed our readiness attention. Today's world requires an Air Force 
ready for great power competition.
    As conveyed by the National Defense Strategy (NDS), our nation's 
competitors are moving at a speed and scale unseen in recent periods. 
Air Force advantages are at risk. We must act with urgency. Speed will 
win in preparation, just as in battle.
    We will remain relentless in our pursuit of readiness, and by 
extension lethality. The selfless efforts of America's sons and 
daughters will benefit from your continued help with added speed ``left 
of the fight'' in five key areas:

    <bullet>  Budget stability to halt the primary cause of readiness 
erosion.
    <bullet>  The continued delegation of program authorities to enable 
modernization speed.
    <bullet>  Competitive personnel policies to attract and retain 
America's best talent.
    <bullet>  Continued support for risk-taking innovation to outpace 
the competition.
    <bullet>  National research efforts in science and technology to 
sharpen America's edge.

    For our part, as we arrest the decline, we are working to turn the 
corner, and accelerate the climb to full-spectrum readiness.
                           arrest the decline
    Thank you for your decision to pass the Fiscal Year 2017 Request 
for Additional Appropriations (RAA). With the additional funds we began 
to arrest our readiness decline. This was done with targeted efforts to 
address shortfalls across people, equipment, and training. Notably, 
your appropriation of the $5.6 Billion RAA led to the following 
improvements:

    <bullet>  People--The fiscal year 2017 RAA funded 4,000 additional 
Active Duty airmen. While it will take another 5-7 years to develop 
these airmen into seasoned professionals, this began the turn back to 
full-spectrum readiness. We also executed our multi-year Remotely 
Piloted Aircraft (RPA) Get-Well Plan to achieve sustainable, agile 
capability in this critical mission area.
    <bullet>  Equipment--We secured new, integrated digital targeting 
systems for our Battle Field Airmen, reducing the risk of fratricide, 
increasing lethality, and lowering the weight our airmen carry in the 
fight against violent extremists by 30 percent. Additional funding went 
to new vehicles to support weapons loading, maintenance, emergency 
services, cargo movement, and aircraft fueling. Furthermore, we 
replenished a mix of BLU-117 MK-84 (``mark 84'') bombs, due to 
significant increase in expenditures for current operations.
    <bullet>  Training--We made investments in pilot production and F-
16 Formal Training Unit bed down to address pilot shortfalls. 
Additional training and weapon systems sustainment funding will 
increase readiness by establishing a strong foundation for improved 
aircraft availability and higher flying hour execution rates. Further, 
the space enterprise began executing the Space Mission Force construct, 
expanding space operator training and lethality toward an increased 
focus on contested space domain operations.

    Despite diverting critical resources to arrest the decline, your 
Air Force still maintained enough readiness to project power across the 
globe. Airmen conducted more than 172,000 sorties and 98,000 precision 
air strikes to support Iraqi and partner forces in Syria and Iraq in 
2017. These teams were ready and lethal. They would not have been 
successful without your additional support. However, these same airmen 
are not as lethal nor as ready as they could be for pacing threats--the 
scenarios with the least margins for error and greatest risks to lives 
and our nation's security.
                            turn the corner
    Readiness and lethality are derived from stable funding and we are 
heartened by the recent progress in budgetary matters. Unfortunately, 
fiscal year 2017 gains are eroding under the continuing resolution 
(CR). This self-imposed penalty grants competitors a cumulative head 
start, year after year. We must get back to, and maintain, regular 
fiscal order.
    Notably, a year-long CR would bring lasting consequences. We may be 
forced to scale back the engineering and development phase of the B-21 
bomber. In addition to out-year delivery impacts, this would slow 
contractor staffing, engineering design, and supply chain development 
in ways that are only recoverable in years. Scenarios like this are 
prevalent throughout our force. Airmen are required to redirect scarce 
time and energy from readiness to navigate the pitfalls of each 
budgetary delay. This takes our attention away from the competition, 
while they remain laser focused on us.
    Should we receive a Defense Appropriation for fiscal year 2018 in 
time to execute within this fiscal year, we will pursue the following 
readiness improvements to turn the corner:

    <bullet>  People--We will add 2,300 Active Duty airmen in fiscal 
year 2018 to get to a total of 325,100. In addition, we will add 1,000 
reservists and 900 guardsmen. We are focused on quality of life 
improvements for our airmen and their families; as soon as the fiscal 
year 2018 budget is signed it will include a 2.4 percent increase in 
military pay, a 2.2 percent increase in basic allowance for housing, 
and a 3.4 percent increase in subsistence. Growing our end strength to 
fill existing manpower requirements is the most important step to turn 
the corner and accelerate the climb.
    <bullet>  Nuclear Deterrence--We are steadfast in providing the 
nation a safe, secure, and effective nuclear deterrent including the 
air and ground-legs of the triad along with 75 percent of the command, 
control, and communications capability. We prioritize sustainment of 
the ICBM force and Air Launched Cruise Missile, as well as integrated 
design and development of their replacements--the Ground Based 
Strategic Deterrent (GBSD) and Long-Range Stand-Off cruise missile 
(LRSO). To the maximum extent possible under the CR, we've continued 
bomber modernization efforts to include additional investment for the 
B-52 Radar Modernization Program and B-2 Defensive System Modernization 
programs.
    <bullet>  Space Superiority--The fiscal year 2018 budget represents 
a 27 percent increase in research, development, testing and evaluation 
(RDT&E) for space systems and a 12 percent increase in space 
procurement. The budget concludes incremental funding of the Space 
Based Infrared Systems (SBIRS) 5 and 6 satellites block buy. We are 
proceeding with the purchase of terminals, control systems, and 
communications security for satellites. We will also procure additional 
launch services as part of the Evolved Expendable Launch Vehicle (EELV) 
program.
    <bullet>  Air Superiority--Training to confront pacing threats has 
suffered in exchange for flying hours in current operations. We are at 
the beginning of this climb. Through the fiscal year 2018 budget we 
will leverage $6.2 billion to fully fund executable peacetime flying 
hours. That will pair with $12 billion for key enabling weapons system 
sustainment (parts, maintenance and logistics) near maximum executable 
levels.
    <bullet>  Cyber--We will fund all of our offensive and defensive 
cyber teams to full operational levels. This includes training and 
equipping 1,700 additional cyber operators. In parallel, we will 
increase our reliance on contractors for basic information technology 
and cloud services. This will enable our military members to focus on 
their readiness for advanced threats as part of the joint force.
    <bullet>  Intelligence, Surveillance and Reconnaissance (ISR)--We 
continue to modernize the medium-altitude ISR Remotely Piloted Aircraft 
(RPA) fleet and rebalance the ISR portfolio to meet the challenges we 
will face in future contested environments. Specifically, we will 
remain committed to our RPA Get Well Plan with increased training, 
leadership opportunities, and basing options including a new RPA wing 
and two operational squadrons across the five year plan.
    <bullet>  Infrastructure--We have roughly $2 billion set aside this 
year for military construction. Priorities include the bed down of new 
missions, combatant command requirements, and strengthening the nuclear 
security enterprise. We will also improve ranges at the Utah Test and 
Training Range and Red Flag in Nevada so combat airpower can train with 
full F-35A capabilities. Additionally, we continue to pursue virtual 
Operational Training Infrastructure (OTI), to test and train against 
advanced threats at reduced cost.
    <bullet>  Munitions--Our use of munitions continues to out-pace 
assembly. Working with industry, we are maximizing production of 
critical types, including the Advanced Precision Kill Weapon System, 
Joint Direct Attack Munition, Hellfire missile, and Small Diameter 
Bomb. This effort to regain munitions readiness is no small feat and 
represents a whole-of America example to reclaim the competitive edge.
                          accelerate the climb
    The Fiscal Year 2019 President's Budget, informed by, and 
synchronized with, the new National Defense Strategy, will accelerate 
our multi-year climb to full-spectrum readiness. That climb begins with 
people.
    The requirements for national defense are out of balance with the 
number of airmen we have to meet them. In fiscal year 2019 we will 
address imbalances in critical fields like aviation, maintenance, ISR, 
cyber, and RPA while also expanding training capacity. Further, we will 
support Air Force families with a military pay raise, increased housing 
and subsistence allowances, and bolstered family support programs.
    It is also critical that we increase aviator production and 
seasoning through expanded flying hour and weapons system sustainment 
programs. By extension, operational training infrastructure is needed 
to provide relevant and realistic training for multi-domain, full-
spectrum readiness. Those trained airmen will need munitions on hand. 
To support current operations and prepare for future requirements, we 
must fund armament delivery at industry capacity.
    Further, recapitalization of our aging nuclear capability is vital 
to deterrence. Development of the Ground-Based Strategic Deterrent and 
Long Range Stand-Off Missile, while modernizing bomber fleets, are key 
steps. We also aim to invest in nuclear command, control, and 
communications (NC3) systems. This will ensure resilient and survivable 
connectivity between the President, national command leadership, and 
nuclear forces.
    Additionally, our fiscal year 2019 budget continues funding 
priority modernization initiatives with the purchase of jam-resistant 
satellites, F-35As, KC-46As, and the development of the B-21. We also 
begin transformative initiatives to expand lethality. Examples include 
our light attack aircraft experiment and emphasis on multi-domain 
command and control.
    Programs for innovation and talent management will find footing. 
Executing in the spirit of General Hap Arnold and Dr. Von Karman 70 
years ago, our year-long science and technology review seeks 
partnerships across academia and defense. Findings will inform decades 
of Air Force investments, and where helpful, national investments.
    Likewise, new mechanisms to incubate innovation--such as AFWERX--
will enable teamwork with America's strong entrepreneurial base. This 
will pair well with our new methods of rapid capability development to 
drive modernization at the speed of relevance. Finally, we will seek 
pliable talent policies to grant today's airmen more career control 
while harnessing their patriotic commitment to service.
    Today's modernization is tomorrow's readiness. These iterative 
efforts in fiscal year 2019 and beyond will accelerate the climb to 
full-spectrum readiness and provide a force that is ready, lethal, and 
efficient in this era of great power competition. Each year--truly each 
month--of progress builds on the previous. Conversely, delays compound 
exponentially in their lasting impacts.
                               conclusion
    Readiness is not static. It is inherently in decline or on the 
rise. Our military advantages and readiness shrunk due to the longest 
continuous stretch of combat in our nation's history, coupled with 
years of inconsistent and insufficient funding. At the same time, our 
strategic competitors, notably China and Russia, have closed gaps in 
capability and capacity. The result is an overstretched and under 
resourced United States Air Force.
    As the Secretary of Defense has made clear, America can afford 
survival. Prolonged budgetary stability is the most reliable way to 
ensure yesterday's winning force does not become irrelevant tomorrow. 
To that end, we are deeply appreciative of recent efforts to begin the 
return of fiscal order and look forward to classified dialogue to fully 
enable your stewardship while frustrating the surveilling efforts of 
our competitors.
    On behalf of 670,000 American Active, Guard, Reserve, and civilian 
airmen and their selfless families, thank you for your continued 
leadership and partnership in defense of this great nation.

    Senator Inhofe. General Wilson, you just said you needed 
3,300 airmen. Are you talking about new airmen coming in? In 
the next what period of time?
    General Wilson. Mr. Chairman, that is 3,300 per year over 
the next 5 years.
    Senator Inhofe. Per year over the next 5 years. Of them, 
how many are actually pilots?
    General Wilson. I can give you a breakdown.
    Senator Inhofe. We know the topline figures of those, but 
are you making any headway from the last time you and I talked? 
We had this committee hearing, which you attended, and that was 
one of the serious problems that the Air Force has.
    General Wilson. Our pilot production is certainly a serious 
challenge going forward. We are still about 2,000 pilots short. 
We have an aircrew crisis task force underway led by a general 
officer who shows up to work every day with nothing on his mind 
but how we fix this problem.
    Senator Inhofe. Okay. We have all talked about this. We did 
dodge a bullet, in terms of CRs. I think with what we have 
done, we are going to be in pretty good shape in terms of 
fiscal year 2018 and 2019, but then we go back to fiscal year 
2020, which we really need to be trying to figure out a way to 
do these things more in advance.
    I want to ask one question of all of you, the same 
question. We know what has happened to us with our 17 years of 
sustained fighting. We know the problems that we have. That 
seems to be all we talk about. But I would like to have you, 
from your perspective, give us the cost of not addressing these 
readiness issues. This is a readiness committee. Readiness is 
what is important. That relates to risk in lives.
    Starting with you.
    General McConville. As far as the risks, readiness, I 
equate it to pushing a boulder up a hill, and when you stop 
pushing, the boulder rolls down.
    For a while there, we weren't getting the appropriate 
funding to properly maintain our units at the proper level. We 
are getting that funding right now, but it needs to sustain, 
because we need to kind of fill in the holes in readiness that 
we let develop over the last couple of years when we were not 
getting the timely, predictable, and sustained funding that we 
needed.
    Senator Inhofe. Yes.
    Admiral Moran, what would you say to that?
    Admiral Moran. Yes, sir. There are so many components to 
readiness. You could pick at any one of them and find areas we 
need to work harder on and where the lack of resources, 
especially the last several years, has really been a difficult 
challenge for all of us.
    But I think about it as a capital-intensive service, and 
the amount of maintenance and upgrades and modernization to 
pace the threat or get out in front of the threat is an 
enormous cost, and that is part of our readiness component.
    If you can't get the ships underway, the submarines 
underway, or the airplanes flying, then you are going to have 
readiness problems across-the-board. I think that is obvious.
    What always pays for those big capital investments in our 
business are people and munitions. And we have taken risk in 
those areas over the last 10 years because the resources 
haven't been there. Now we are starting to buy that back.
    But when I think about the people, it is also the readiness 
component, which talks to experience and building intuition on 
a battlefield, at sea, in the air. And those things, you cannot 
buy back. Once you pass by a year or 2 of that kind of 
proficiency and that kind of training, it is very difficult to 
buy it back, unless you get it in situ, at the time when the 
person going through that training needs it the most.
    Senator Inhofe. Yes. Thank you.
    General Walters, we hear more, at least I hear more, about 
the readiness and what it is taking in both the Marines and the 
Army than I do in some of the other services. How do you come 
out on this?
    General Walters. Sir, readiness, if you view it as a 
commodity, you build it, and it has a shelf-life, because it is 
all about the people.
    So combine unstable funding and a drawdown, then you lose 
people, and you really lose opportunity.
    So the opportunity cost of not training over time to build 
back up, it might be that sergeant that you let out who has had 
8 years of experience, now I have to start over with a private 
and make him a sergeant. So that is the condition we find 
ourselves in right now with squad leaders, and that is where 
our tension is.
    But truly, lost opportunity and lost time are something 
that is not a one-for-one recovery. So I will echo my mates 
here that stable funding over time at the right amount, with 
paying attention to our people, will get us out of the hole. 
And we have the plan for that, sir.
    Senator Inhofe. Okay. I appreciate that.
    General Wilson, you already answered that question in your 
opening statement.
    Let me get back to the budget thing and the problem that we 
are looking at as we move forward. With the recent budget deal 
and the pending passage of the appropriations act for fiscal 
year 2018, we are already 5 months into the fiscal year, and I 
am concerned that the services will be unable to execute 12 
months of money in 6 months remaining, and yet the need is 
there.
    Why don't each one of you address that timing problem that 
is there that you are going to have to be facing?
    General McConville. Yes. Thank you, Mr. Chairman.
    Sir, we appreciate the authorizations for the money that we 
need for readiness. Now we need to get it into the hands of our 
units, so they can spend it. The sooner we can do that, the 
better off we are going to be. If we are spending 55 percent of 
funds in the last 4 months, some of the things we would like to 
do as far as predictable funding and long-term lead items and 
contracting, we do not get the same rigor that we would like to 
get if we had it sooner.
    Senator Inhofe. Admiral?
    Admiral Moran. I guess the good news, Mr. Chairman, is that 
we have had 10 years at this, to learn how to operate on less 
than a full year's authorization or appropriation. So we are 
ready----
    Senator Inhofe. Not that you are enjoying it.
    Admiral Moran. No, no, sir, we are not enjoying it at all. 
But not to make light of it, it is an important question that 
we are spending a lot of time developing plans.
    But I think we are going to need some help with the 
appropriators on how we spend that money. It is not going to go 
across evenly. The add is so significant that we are going to 
have to look at having the ability to transfer some of that 
money from account to account.
    Senator Inhofe. Do you foresee a problem in that respect?
    Admiral Moran. Well, I am saying as we go, as we start to 
make those plans come to fruition, we may find that we can 
execute more in one area than another faster. And we would like 
to have some authorities to be able to move the money around as 
we go and be able to inform Congress as we are doing it.
    Senator Inhofe. General Walters?
    General Walters. Yes, sir. As you noted, we have a year's 
worth of money adds in 2018 and 5 months to spend it. It might 
help if the appropriators can give us some flexibility, so we 
can spend 2018 money in 2019 and feather in the plan and give 
us some authorities to, as Admiral Moran said, move money 
around when we are executing.
    So there are lots of things we can do with a little more 
authority to match the responsibilities that the Service Chiefs 
have.
    Senator Inhofe. They are aware of that, and they have the 
authority to make those changes.
    General Walters. Yes, sir.
    Senator Inhofe. Any comments, General Wilson?
    General Wilson. Chairman, I have nothing to add. We are 
going to do our best to spend it in that time frame.
    Senator Inhofe. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair. And it is interesting, 
preparing for this hearing today after having gotten the budget 
deal, it made me think about questions in a little bit 
different way. I am always asking readiness questions about 
budgetary uncertainty and the effect on readiness, and we have 
been doing this for years. But assuming that our budget deal is 
a solid one and holds through the appropriations process, let 
me ask how each of your branches approach a different readiness 
issue, which is, the more the combatant commander requirements, 
the higher the op tempo, the harder it is to find time to build 
readiness. So that is a balancing issue, too.
    So assuming that the budgetary issues are now in a little 
bit better place and you can work on your recovery path, how 
does each service branch approach this issue of balancing out 
combatant commander requirements with the need to have time to 
build back to readiness?
    General McConville. Senator, for the United States Army, 
over the last 16, 17 years, our forces have been in high 
demand. We have a goal of 1 year deployed and 2 years back, and 
we still have not been able to meet that. We are running a 
little over 1 year deployed, maybe 1 year and 2 or 3 months 
back.
    But even during that time frame, we create the readiness. 
As we do the analysis on what the soldiers are doing while they 
are back, they are really getting ready for the next 
deployment. So they are getting the training and the readiness 
they need to have, so when they go into a combat situation, 
they are ready to do their job.
    We appreciate increasing the size of the force, which is 
going to help. We are also talking to the Joint Staff on some 
of the missions that we may not have to do in the future to 
reduce that demand.
    Senator Kaine. Admiral Moran?
    Admiral Moran. Yes, Senator. Thank you for the question.
    As you know, we are desperately trying to drive down the 
backlog in our maintenance account or our maintenance backlog 
for our surface ships, submarines, aviation, and so the budget 
agreement certainly helps get after that.
    But to your point, the operational demand for our forces 
remains high, like every other service here. But I think that 
the global force management process through the Joint Staff, 
which is done routinely, the RFF, request for forces process, 
everybody, combatant commanders included, are certainly paying 
attention to the stresses on the force, to allow us to be able 
to have time to train and to do the maintenance. We are 
definitely feeling that appreciation from the COCOMs [combatant 
commands] this time around, even though the demands still 
remain very high.
    Senator Kaine. Thanks, Admiral.
    General Walters?
    General Walters. Yes, sir, the NDS [National Defense 
Strategy] addresses this to some degree, sir. The chairman is 
going to set the globe now and allocate the forces that way, 
with a dynamic force employment methodology.
    We are looking forward to seeing the results of that. We 
are seeing a little bit of it so far where we have garnered 
some relief for a portion of our forces, and that will help us 
build the ROMO [range of military operations] readiness back in 
the United States, sir.
    Senator Kaine. General Wilson?
    General Wilson. I would agree with everything that has been 
said. We talk about being strategically predictable and 
operationally unpredictable, and how we do that on a responsive 
force.
    I was just at Shaw Air Force Base and talked to the F-16 
unit there. They are the suppression of enemy air defenses 
unit. They are the only stateside unit that does that. So they 
are the ones that support Korea. At the same time, they have 
units that go out to the Middle East and support operations 
there.
    Because they are the only stateside unit, they are also 
doing training at things like Red Flag or the Weapons School 
support, as well doing Noble Eagle. So they are as stretched as 
they can be, and we need to be able to balance those demands.
    To the point earlier, the first thing that is going to help 
our readiness is getting more people--the operators, the 
maintainers, the intel folks, the space operators, the cyber 
folks--to help build up that capacity going forward.
    Senator Kaine. Thank you.
    Let me ask a question to Admiral Moran. I think there are 
reports that there is a congressionally mandated study about 
the naval shipyard optimization plan, and that may be 
forthcoming later in the month. We hear that it may include 
over $10 billion of investments over a lengthy period of time, 
20 years or more. Then there is a companion plan regarding 
private shipyards that is also in the works.
    What can you share about the shipyard optimization plans 
and how the Navy can better assist both our public and private 
shipyards in completing maintenance in a more timely fashion?
    Admiral Moran. Yes, sir. That plan, I believe, has been 
recently signed out as of yesterday, the optimization plan.
    Senator Kaine. I cannot believe my staff hasn't had me read 
it already.
    Admiral Moran. I am shocked. It is pretty thick.
    It is very comprehensive. We looked at a lot of aspects of 
the shipyards and how we can optimize both the level load 
across our yards, both public and private, and being able to 
invest in them in a way we know we are going to have to do. The 
youngest yard we have is Pearl Harbor, which was built in 1908, 
I believe, so it is a long haul.
    A lot of those yards need to be upgraded. They need to be 
modernized to be more efficient, to put the work on the pier 
and reduce the idle time or the busy time that people have, 
just going from one shop to the next.
    So that is all laid out pretty comprehensively. It is a 
significant investment in the out-years, over a 20-year period.
    To get after a Navy that the Nation needs that is in that 
350, 355 level, we are going to need to be a lot smarter about 
how we optimize our shipyards.
    Senator Kaine. I asked for that reason. Last year, the NDAA 
provision going to 355, it is one thing to say there is a 
number of ships, but it is repair, it is the manpower for the 
ships, it is, do you have air assets on the ships? I mean, 
there are so many downstream consequences from setting a goal 
like that, and I have a feeling we will be talking about a 
number of those this year as we work on the NDAA.
    Let me ask General McConville a question, and it is a 
question that was based on an Army study, but I think it is 
actually relevant to everybody. Maybe you can address it first.
    There were some troubling statistics presented last year 
about the qualified military available population of the 17- to 
24-year-olds. There was an Army study that showed that nearly 
two out of three in that age range are disqualified because of 
any number of factors. It could be medical, physical, mental 
health, aptitude, or substance abuse challenge.
    Talk about this challenge, if you would start, and if 
others would want to weigh in. I am not asking about the 
retention side. I am about the attracting of the young side. 
With this much of our population sort of in a position where 
they can't currently qualify, what do we need to do to build 
that availability in a more robust way?
    General McConville. Yes, Senator. The Army is people, so it 
is very, very important to us as we grow the Army.
    Right now, we see about 27 percent of American youth in 
that age group are not qualified to come to the Army. And what 
we are looking for is young men and women that are resilient; 
they are physically and mentally fit; and they have the 
appropriate character, so they can serve in the Army.
    We have put some things in place. We did not used to do any 
type of physical assessment before we brought the young men and 
women into the Army. We do that right now at the recruiting 
stations. Before they can ship off for initial military 
training, they have to meet a certain standard on an 
Occupational Physical Assessment Test. In order to do that, 
they have to actually get in shape before they can do that.
    Right now, we have recruiters working with the young men 
and women. We have only been doing it for a little less than a 
year, but we are starting to see some effects where we are 
having less musculoskeletal-type injuries.
    The other thing we are doing, as we bring them through the 
Army, when they go to initial military training, we are 
screening them when they get there, and if they are not 
physically ready to go through, we are getting them in shape. 
When they go, actually, to the units, we are treating them 
almost as professional athletes.
    We are putting physical trainers, we are putting 
dieticians, we are putting strength coaches inside the units. 
We are doing that in the 82nd Airborne Division right now, and 
we are getting much less on the musculoskeletal-type injuries.
    The return on investment is much greater than having a 
young man or woman hurt and then them having to leave early or 
paying them disability for a long period of time.
    Senator Kaine. I am over time, and I may submit that 
question to the record for others, but I will yield back, Mr. 
Chair.
    Senator Inhofe. Okay, good.
    Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you all for your service and being here.
    Admiral Moran, I am encouraged to see from the President's 
budget request that ship depot maintenance and, as you 
mentioned, as one of you mentioned, that Pearl Harbor is a 
pretty mature shipyard, to say the least. So depot maintenance 
is a top priority for the Navy to recover readiness and 
building the shipyard work force capacity is a component of 
that readiness plan.
    At our meeting last week, you described the effort it has 
taken to begin to climb out of the readiness shortfall faced by 
the Navy, and I look forward to additional details and 
priorities for shipyard modernization and increases in work 
force capacity. So I am glad that that is going ahead.
    So after ship maintenance and aviation readiness, what are 
the next priorities for Navy readiness recovery, Admiral?
    Admiral Moran. On the personnel front, we are bringing in 
4,000 new sailors this year, and we are going to continue to 
bring in new sailors throughout the FYDP [Future Years Defense 
Plan] to address shortfalls in the fleet, gaps at sea, in 
particular, that we know we have. And we have been under quite 
a bit of pressure the last 2 or 3 years to fill those billets. 
So we are adding people to it, and we are doing a lot to try to 
change the way we train our young men and women as they come, 
as we call it, street-to-fleet through the boot camp and into 
the fleet.
    That training has often been long, too long with too much 
information and a lot of waiting around, waiting for the next 
school to start, because we do not have a steady throughput for 
a variety of reasons that have occurred over the years, and 
also to deliver that training at the right time at the right 
place for the sailors as they are progressing through their 
careers, even in the fleet. We are bringing in more simulation, 
more capabilities to the waterfront and our flight lines, so we 
do not have to rotate sailors back to schoolhouses as often we 
have in the past.
    Those efforts alone on the people front will do a great 
deal to help us on the readiness side.
    Senator Hirono. So do you have similar concerns that only 
about 30 percent of high schoolers can even qualify to join the 
military, any of the services? Do you have particular issues 
with regard to the Navy?
    Admiral Moran. Yes, Senator. I think we are all facing that 
same challenge. I think one of the key components of that is 
the fact that the vast majority, at least on the Navy side, the 
vast majority of volunteers that come in are predisposed by the 
fact that they have a family member with some background that 
know what we do for a living, so we have to reach out to more 
of the rest of America and have them participate in national 
defense.
    Senator Hirono. Does it help to have ROTC [Reserve Officer 
Training Corps] programs in our colleges as a place where 
people become very interested in joining?
    Admiral Moran. Fully one-third of our new officers every 
year come from the ROTC program, and we couldn't do it without 
them.
    Senator Hirono. We do not have a Navy ROTC in Hawaii.
    Admiral Moran. I know. I was waiting for that.
    Senator Hirono. I know. You have read my mind.
    Admiral Moran. You stay on me, yes, ma'am.
    Senator Hirono. We have to work on that, you know? After 
all, if part of the goal is diversity, what could be a more 
diverse pool than people from the State of Hawaii?
    Now that the Navy is on its way to recovering from a 
readiness decline, how will you ensure that the Navy is able to 
maintain readiness at acceptable levels? And what changes in 
business practices and what level of investment will be needed 
to smooth out the peaks and valleys of previous readiness 
efforts in a more steady and predictable level?
    Admiral Moran. Great question.
    The last 2 years in our program builds, in our POM [Program 
Objectives Memorandum] cycles. We started at the front-end 
talking about readiness as a starting point, as opposed to the 
very end, we try to balance with it. And I think that sets a 
mindset. It changes the culture of how you invest in readiness 
when you try to lock in what is needed by the fleet to produce 
the readiness they need to do at the waterfront before we put 
all the other programs in place and then try to figure out how 
to pay the rest off.
    Senator Hirono. I hope that we can provide whatever 
assistance we can to make sure that we do not fall back in 
readiness for any of the services. I think that a 2-year budget 
deal will help. And I hope that is the way that we will proceed 
from now on, without these continual CRs.
    I have a question about China and the challenges we face. 
This is for the whole panel.
    China has invested heavily over the past several years to 
upgrade their military technology and systems. Whether it is a 
fifth-generation fighter, long-range missiles, or anti-
satellite weapons, the Chinese have used a whole-of-nation 
approach to quickly advance many of their capabilities.
    I would like to ask you, while we all agree that readiness 
is very important, how do you balance the need to modernize our 
weapons systems with readiness requirements and other needs to 
be able to effectively counter Chinese influence in the Asia 
Pacific arena?
    Let's start with you.
    General McConville. Yes, Senator. One of the reasons that 
we have stood up our cross-functional teams and our Futures 
Command is we are at an inflection point for the Army. We have 
been pretty much fighting a counterinsurgency, counterterrorism 
fight for the last 16 years. And now as we follow the National 
Defense Strategy, which goes into a great power competition 
between adversaries like China and Russia, we are going after 
those systems that are going to deter any of those types of 
things they want to do.
    I was just looking at history. It was April 15, 1953, the 
last time an American soldier was killed by enemy air on a 
battlefield, 1953, the great Air Forces that are here. So we 
have gotten rid of most of our air defense elements that 
protect our units.
    As we go into the future and we are into this more 
contested domain warfare that we see in the future, we need to 
develop those types of systems. And we are developing a whole 
bunch of systems that are going to make us very capable against 
future adversaries like that.
    Senator Hirono. Admiral?
    Admiral Moran. I wanted to give my friends here a little 
bit of time.
    Senator Hirono. Okay.
    Would you like to respond, General Walters?
    General Walters. Yes, ma'am.
    So the new National Defense Strategy focuses on 
adversaries, potential adversaries like China. For the Marine 
Corps, it is enhanced command and control. It is IW 
[information warfare]. It is cyber. It is long-range fire. It 
is ground-based air defense. It is ground-based counter-UAS 
[unmanned aerial system], because they have UASes. All those 
things are now in our plan and our budget.
    I think you are asking a question about giving up readiness 
to get capabilities and how you balance that.
    Senator Hirono. How do you balance?
    General Walters. How do you balance that? I would say it 
this way. Buying those systems, that is future readiness, 
because you do not want to fight a conflict with the old 
equipment, because you are, by definition, not ready.
    Senator Hirono. That is a good answer.
    General Walters. Thank you.
    Senator Hirono. Would you like to add something, General?
    General Wilson. I will just add the same tagline. I would 
say today's modernization is tomorrow's readiness, and we have 
to look at how we do that faster, because we see what China is 
doing.
    So as we develop capabilities, the whole how we do that, 
everything from our requirements, to acquisition, to 
contracting, to testing, we have to be able to do that faster. 
All of us are doing that. We have efforts underway to be able 
to speed capabilities to the field faster.
    For example, we are building this light attack airplane. By 
the authorities that you all gave us, the Congress, you told us 
how to do this differently. How do you experiment and prototype 
rapidly? So we are doing that.
    This is a coalition of the core airplane. It is economical. 
It will help our readiness. It will help build capacity.
    It will be not just an airplane, though. It is an airplane. 
It is a sensor. It is weapons. It is a network that we will 
share with coalition partners so that we can do this smarter 
going forward.
    From go to now, it has been 11 months. We have done the 
first experiment. We will do the next experiment this summer. 
We will start buying airplanes before 2019-2020, so in a 2-year 
time frame. Again, thanks to your help to be able to do that, 
to give us the authorities to do this differently, because that 
is what we are going to need to be able to do to compete.
    But it is not just there. If I could go to another area, 
that same thing happens in space. We have to think how we do 
this differently in space, because today, that is the one thing 
that every one of our joint team members use is space, and 
space is going to be a contested domain in the future. It is 
today.
    So how do we build situational awareness? How do we build 
the resilient communication, the resilient missile warning? How 
do you build antijam capabilities for GPS [global positioning 
system] to be able to defend in space, if the war fight goes 
there? And we have a lot of efforts underway in our space arena 
to do that.
    Senator Hirono. So I think as we think about how to contend 
with adversaries like China and Russia, it is long-term 
planning that this requires.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Hirono, I am glad you have brought up the China 
thing. I remember so well, actually, back during the Clinton 
administration, we had this euphoric attitude out there that 
somehow the Cold War is over, we do not need the military that 
strong. I remember all the bonuses they talked about at that 
time.
    All the time that we were cutting down, about 40 percent at 
that time, but not China and not Russia. At the same time we 
were cutting back, they were increasing.
    I remember talking about this on the floor. What if we are 
wrong on this? And sure enough, we were wrong.
    So I would like just to address from each of the services 
the force structure question. As we know, the Army, Marine 
Corps, and the Air Force have all undergone strength reductions 
over the last 5 years.
    Now these force structure reductions occurred at the same 
time of increasing requirements, which we did not anticipate 
would be the case with the Russian aggression and the rise of 
the Islamic State and other problems. So in the DOD, they 
intended to allow the time for forces to reconstitute and reset 
after lengthy campaigns in Iraq and Afghanistan. But as it 
turned out, we weren't able to do that. So we have corrected 
the trajectory and are increasing the end-strength numbers in 
fiscal years 2018 and 2019.
    But I would ask each one of you, do you believe that the 
force structure of your service is appropriate and adequate 
with the changes that we have made to meet the requirements of 
the defense strategy that we are looking at now?
    General McConville. Senator, I believe so. As you and I 
discussed, we were in a very rapid drawdown and that drawdown 
has stopped in the Army. We are growing the Army. I think we 
are on the right pace to do that.
    The way you deter great powers is with tanks, artillery, 
and attack helicopters, and that is where our modernization 
effort is, and that is included in the budget as we go forward. 
And we think these are the right steps forward with timely, 
predictable, and sustainable funding.
    Senator Inhofe. Where are you--and each service, I could 
ask the same thing--on the 1-to-2 time that you are in combat 
to when you are back? I think you have already said that it is 
not a rest period for 2 years. You are back in training and all 
that.
    Where are you on that?
    General McConville. That is correct, Senator. Our units are 
less than the 1-to-2 kind of dwell time that we expect, and 
they are probably at 1-to-1.5, which is really not where we 
want them to be.
    Senator Inhofe. That combined with the fact that they are 
working during that 1.5, during that time also.
    General McConville. Yes, they are going to combat training 
centers. They are doing home station training, because when 
they go off to their deployments, we want to make sure they are 
ready.
    Senator Inhofe. How about the Navy?
    Admiral Moran. Sir, to your original question, do we have 
enough to support the strategy? The answer is yes. But every 
strategy has some degree of risk to it, so the bigger we get, 
the better we get, the less risk there is to that strategy. So 
we really appreciate where the budget agreement is going to 
allow us to go through the FYDP and beyond, hopefully.
    In terms of the dwell, our forces, they are not all 
consistent. We deploy in different types, in different groups, 
but the vast majority on the optimize fleet response plan are 
trying to be at a 1-to-2 dwell.
    Senator Inhofe. Yes.
    And where do you think you are?
    Admiral Moran. It depends on which moment in time, and it 
depends on what the world has to say about it. It fluctuates. 
But our operational dwell time is 1-to-2. Our personnel dwell 
time is something less than that because of the rotation.
    Senator Inhofe. I understand that, yes. Very good.
    General Walters?
    General Walters. Yes, sir, much like the other services, we 
are an aggregate of 1-to-2 dep-to-dwell. But I will say this, 
as we go through this set to globe and where we deploy, I would 
just offer this for consideration, that not all deployments are 
created equal, although they all count on dep-to-dwell.
    But for example, the Marines we now have training in 
Norway, they are actually gaining readiness there. They are 
gaining readiness to the designed mission. So the only place 
you lose readiness when you are deployed, generally, is you are 
deployed to a region you are not doing your designed mission.
    So for counterterrorism, and you are supposed to be the 
blunt force or the surge force, then you are losing that 
readiness. But if you deploy for a training deployment, say, in 
the Pacific, you will probably come back more ready because you 
have operated in the environment that you might be employed in.
    I do not know if that makes sense.
    Senator Inhofe. Okay. It does.
    General Wilson?
    General Wilson. Chairman, the majority of our folks are on 
a 1-to-2 dwell or better than that. But as mentioned and just 
like the rest of them, their pers tempo back home, they are not 
spending that time at home. There is what I call an ``are you 
sleeping in your bed at night?'' metric, and we need to measure 
that, because that has impacts on the retention of the force 
going forward.
    In terms of your question about people, we think we will be 
growing through this FYDP, as I mentioned, about 3,300 a year. 
If we do that, we get to about 95 percent of our units being 
filled, and that is a step in the right direction, and we need 
to continue that long term.
    Senator Inhofe. What I want to do is I am going to go ahead 
and shift over to you, and then come back, and I want to 
specifically talk about, each branch represented here, about 
the unique problems that you have. So you go ahead and take 
over now, and I will do that.
    Senator Kaine. Thanks, Mr. Chair.
    I have a question for Admiral Moran, and it deals with the 
action that the Navy is undertaking to learn from and then make 
improvements following the collisions of the USS Fitzgerald and 
then also the USS John McCain.
    We have had testimony about this in the large committee. 
But after those tragic collisions, the Navy conducted the 
strategic readiness review [SRR], and that found several, the 
quote was ``institutional deficiencies.'' The Navy has taken 
some significant steps, personnel steps and otherwise, to deal 
with those.
    The SRR made numerous recommendations to address the root 
causes of the incidents. A separate study by the GAO 
[Government Accountability Office] also had at least 14 
readiness recommendations to the Navy coming out of this.
    Talk about the status of implementing--I am not talking 
about the personnel side now. I am talking about just the 
recommended changes. Talk about the status of implementing 
those recommendations from both the SRR and the GAO's work. And 
then how will you kind of monitor and evaluate progress on 
these going forward?
    Admiral Moran. Yes, sir. Thanks for the question.
    We stood up an oversight board that is co-chaired by myself 
and the Under Secretary of the Navy to pull all of those 
reviews together, to include the GAO reviews, previously 
completed investigations of other mishaps, not just the ones we 
saw but everything else, we are pulling all that information 
together at once. Then seeing how the 58 recommendations from 
the CR, the 27 recommendations from the SRR, the 14 from the 
GAO, all of them, where do they overlap and where can we make 
sense of them? And then really rely on the fleet to tell us 
what prioritization needs to occur. What are the things that 
they believe need to be done immediately for safety? Those 
things are completed. Most of them were not a financial burden. 
They were more or less policy.
    But we have now gone into how we are programming to address 
things like common configuration for radars, bridge 
configurations----
    Senator Kaine. The bridge configuration, because in these 
instances, some of the personnel involved were cross-decked 
from one platform to another, and there wasn't an identical 
configuration, and that may have been part of the problem.
    Admiral Moran. That is correct. Yes, sir.
    So all of that is being monitored by a series of working 
groups overseen by the Under and myself. We meet monthly. Those 
working groups are meeting weekly. And then we feed that up to 
the Secretary and the CNO [Chief of Naval Operations], and they 
are required to deliver a report quarterly to the Congress. We 
are approaching the first quarterly report for that, which will 
lay out all those things.
    I am not willing to call things complete until I not only 
see the programming but the arrival of the fixes in the fleet, 
so we are going to track these all the way to delivery in the 
fleet.
    The outcome has to be that we have a safer and more 
effective fleet at the end of the day. That is the overarching 
goal.
    Senator Kaine. One of the particular areas I was interested 
in, based on some of the early hearings we had, was whether 
there are recommendations for any changes to training 
curriculum at Surface Warfare Officers School [SWOS]. Is that a 
part of some of these recommendations? And is that under 
implementation?
    Admiral Moran. Yes, sir. The new leadership at SURFOR 
[surface force] out in San Diego, Admiral Brown, has only been 
on board a month or so. We are giving him a little bit of time 
to figure out how he wants to take this forward. He just came 
from our Personnel Command. He was the COO [Chief Operating 
Officer] of SWOS. He understands this very, very well.
    So he is coming forward through the fleet commanders to the 
oversight board with his recommendations on how to implement 
career path changes, manning changes, and the training at SWOS.
    Senator Kaine. All right, thank you.
    Thanks, Mr. Chair.
    Senator Inhofe. I am just going to do it one at a time, 
starting with you, General McConville.
    The Army priorities are--and you do not have to write them 
down, because you know them--long-range precision fire, next-
generation combat vehicle--you and I talked about that at some 
length--future vertical lift, network, air and missile defense, 
and soldier lethality.
    With the priorities identified, do you have a plan to 
address all six of these? Or would you like to give us some 
kind of a priority? And where do you stand in these priorities?
    General McConville. Senator, we plan and we have plans to 
address every single one of those. What we are really doing is, 
in those priorities, long-range precision fire is the number 
one priority. There is a lot of great work going on there, from 
hypersonics to extending tube artillery. What we want to do is 
probably get down to focus on three systems, work with a lot of 
the other organizations with industry and, quite frankly, have 
them invest along with us as we bring these systems to bear.
    But with each of those portfolios, we see one or two 
systems we are going to laser-focus on, and those are the 
priorities, and those are the things we need to get done.
    Senator Inhofe. We talked about the extension of six feet 
and what that does to range. It kind of shows that, once you 
make a decision on a vehicle, on a system that as outside 
things change, they can change within.
    Now the extreme of that is what has happened with our 
combat vehicles, as you and I talked in my office. We started 
with the Crusader. We spent about $2 billion on that, junked 
that one. Went to the Future Combat System, and spent $20 
billion on that. Now we are back to our PIM [Paladin Integrated 
Management] system that I think we are actually a little ahead 
of where we should be on that. But I think, in that case, that 
is something that I would hope would have a priority.
    Do you think that system, the way it is right now, is going 
to be able to sustain all the previous changes that were made? 
Because sooner or later, we have to have something, and it has 
to be something competitive. We are not ahead of all our--
unlike the American people think, we are not ahead in 
everything. We hear about what the Germans are doing with 
artillery and what some of the others, even our adversaries, 
are involved in.
    So as far as that being kind of the stock equipment for the 
United States Army, do you think we will stick with it?
    General McConville. What we need to do is the capability to 
incrementally improve those. In some cases, on the PIM, to 10X 
improve them.
    What I mean by that is, as you know, the chassis has been 
significantly improved to give us much more capability to keep 
up with the forces. But we are looking at projects right now 
that can take the gun and actually give us much more increased 
range.
    So we want to have with all our projects the ability to 
insert technologies. The technology comes onboard, these are 
not disposable-type systems. We want to be able to insert that 
technology, keep most of the rest of the system, so we get a 
much better return on our investment.
    Senator Inhofe. It was kind of interesting, when I was 
watching down at Fort Sill, the 6-foot extension and what it 
did to the range, while it increased the range from this to 
this, I do not remember the numbers, it still left a void in 
between. And that was something that we are addressing today.
    Okay, General Milley had identified a goal of having 66 
percent of our BCTs [Brigade Combat Team] ready for combat 
tonight, the words he used. Where are we now on that?
    General McConville. Well, right now as far as the--and I 
can do this on a closed session on the exact numbers.
    Senator Inhofe. Well, it wasn't closed last year when it 
was at 33 at that time. So we are somewhere between there.
    General McConville. Right, we are at a much better place 
than we were last year. I would be glad to go to a closed 
hearing on the exact numbers, Senator.
    Senator Inhofe. Good. Okay.
    And the Air Force, we have the pilot shortage, we have been 
talking about that, 1,500 pilots. Of those, I think we said 
1,300 of those are fighter pilots. That is probably current 
right now.
    I am concerned about the T-6 grounding. When is the end of 
the story?
    General Wilson. Chairman, I do not know if I can give you 
the end of that story yet. We stopped flying, had a stand-down 
the 1st of February. The first priority is to make sure that we 
return to flying safely, so we are looking at, holistically 
across, how we do that.
    We brought in the Navy, who has had some recent troubles 
with the OBOG [On-Board Oxygen Generation], which is what we 
also had. We brought in the NASA [National Aeronautics & Space 
Administration] team. We have a full court press to be able to 
identify the problems. We think it is partly maintenance-
related. We think there is partly an aircrew flight equipment 
problem. We think there is a training piece. But we have all 
those efforts moving forward.
    The head of the Air Force Materiel Command and the head of 
Air Education and Training Command are meeting daily on this. I 
expect an update on when we will return to fly here this next 
week.
    But in the meantime, we are not flying about 700 T-6 
sorties a day. So there is an impact to the pilot production 
piece that has us all laser-focused. But we are not going to 
return them to flying until we can safely do it.
    Senator Inhofe. Yes, of course. One of those, obviously, is 
going to be maintenance. Any time all four services have gone 
through what you have gone through, it is O&M [Operation & 
Maintenance]. It is maintenance and modernization. It is the 
less visible thing, so that is the first thing that we have to 
correct. So I do appreciate that.
    What you had touched on, Air Force or Navy and Marines----
    Senator Kaine. Just one question I indicated in my opening 
statement, the questions we are seeing in Hampton Roads around 
sea-level rise and our Navy base.
    As we get into the NDAA, we are always grappling with 
readiness, but we are also grappling with MILCON [military 
construction]. We may be talking about an infrastructure bill 
in Congress where we could be looking at resilience 
investments. That may not be in the DOD space, but there could 
potentially be some synergies where we could be doing some 
potential infrastructure investments that would help.
    Talk about how you, each in your own service branch, are 
dealing with kind of weather-related challenges on 
installations, whether it is drought, fire, sea-level rise. How 
do you approach those topics? And how do you factor in to your 
budgetary requests or other planning what we need to do?
    General McConville. We look at some of the hazards that 
have happened over the last couple--I mean, the hurricane, we 
had three major hurricanes. We have installations, camp posts 
and installations really in all those type areas, so they 
certainly affect us. We have fires in certain parts of the 
country. That certainly affects where our post is. The flooding 
is certainly there.
    We are building some resilience. An example right now, we 
are building in partnership at Schofield Barracks a power plant 
in conjunction with the local area. So it will be used. We do 
not necessarily need it, but if there is a situation where the 
power goes out, we will have that capability, resilience. It is 
a private-public partnership, which I think is a good way to 
get after, and they seem very excited about that partnership 
that is going on there.
    Senator Kaine. Excellent. So that is a shared investment 
that is being done by both DOD and the local community.
    General McConville. It is actually the community that is 
actually paying, but we are allowing them to use the land. Then 
if something happens where we lose power, we have first dibs on 
the power. It is on the grid right now, but if something 
happened serious, we have the opportunity to use it.
    Senator Kaine. Smart contracting. Thanks.
    Admiral Moran?
    Admiral Moran. I attended a briefing by the Naval Academy 
here recently, and they are looking out 30 years at the flood 
plains and the seawall associated with the Chesapeake Bay and 
the Severn River. It was a pretty stark demonstration of what 
could happen, if we do not take some action in the next 30 
years to address that rise in water level. And as you know, 
General Walters and I, we share bases of pretty much waterfront 
property all over the world, so if the ocean is going to rise, 
we are going to be impacted everywhere.
    So it does demand kind of a comprehensive look at all of 
our bases, especially in those areas that you already cited in 
Hampton Roads, Florida, on the West Coast in San Diego, et 
cetera. So we are going to look at that very hard in the next--
--
    Senator Kaine. I had not really thought about it until you 
were using flood plains, so we are talking not just about ocean 
but about tidal rivers. So Quantico is on a tidal river. NAVSEA 
[Naval Sea Systems Command] Dahlgren is on a tidal river, and 
the Potomac. So we are talking about a lot of installations 
either right on the ocean, on the bay, or on tidal rivers that 
could be affected.
    Admiral Moran. Yes, sir.
    Senator Kaine. General Walters?
    General Walters. Yes, sir. We are a waterfront organization 
also. We have come to the conclusion that we are not going to 
turn the tide, but we are looking at it closely.
    In this job that I am in right now, I have taken two briefs 
in the last 8 months on what I consider our most critical 
vulnerability, and that is Parris Island, South Carolina. Our 
logistics folks, the Deputy Commandant for I&L [installations 
and logistics], has done extensive work and studies. They have 
projected out what is the best case, what is the worst case. 
Obviously, there is a big variance in there.
    But what I do know is that we will eventually have to 
bolster that. I have come to the conclusion in my own mind that 
it is not today. We do not have to build a seawall today, but 
we have to consider one. And we are monitoring it every day as 
we watch that, because, remember, that started out as a marsh 
with a little bit of an island, so marshes turn into seawater 
and land turns into marsh.
    Senator Kaine. I am amazed at how expensive seawalls and 
projects like that are. And so I know how much MILCON doesn't 
get done. I mean, we will do a MILCON budget through approps or 
work here in the NDAA authorizing projects, but I do not know 
how many don't get done because of the absence of budgetary 
resources. You start to add in significant resilience 
investments and things like seawalls, et cetera, you are really 
going to have a traffic jam of projects looking for scarce 
dollars.
    Admiral Moran. I guess my message, Senator, is, I do not 
believe it is a crisis today, but it is something that I think 
we as a Nation have to watch over time. And we will have to 
make an adjustment, because we are not going to--I do not think 
we can----
    Senator Kaine. Pretend it is going away.
    Admiral Moran. That is right.
    Senator Kaine. Yes.
    Yes, General Wilson?
    General Wilson. This last year was a great example. So we 
were fighting fires in California and using our C-130s to help 
fight those. We did the floods here or the hurricanes, both in 
Texas as well as Florida, and as the ones came up the East 
Coast affecting bases like Langley.
    So everything we look at in terms of infrastructure, we 
have to look at through the lens of, how would I build and 
design infrastructure that would support changes in climate?
    I think that and energy resiliency across our bases, as the 
Army just talked about, to be able to partner with local 
communities because our bases are power projection platforms, 
so we have to make sure they are energy-resilient.
    Senator Kaine. The last thing I will say before I hand it 
back over to the chair is, I am asking about sort of readiness, 
MILCON, resilience investments, but the other thing that we are 
seeing around the world is really the persistence and 
acceleration of refugees and migrants. Often, they are driven 
by civil war. They are driven by corruption and governance 
challenges. But they are often driven by big weather 
emergencies, by long-term, persistent droughts.
    We probably think of migrants and refugees as kind of 
episodic emergency, but anymore, it is getting to be kind of a 
permanent reality, and we have seen how destabilizing migrant 
flows can be coming into other nations, like Syrian refugees in 
Jordan. Jordan doesn't have enough water for its own 
population, much less millions of refugees.
    So I think these weather-related effects, whether you are 
planning for resilience on bases or whether you are thinking 
about the national security challenges that they could cause by 
pushing people across borders, we will be dealing with this and 
having to factor this into our planning for a very long time.
    Thank you for your testimony on this.
    Senator Inhofe. Thank you, Senator Kaine.
    Admiral, I was going to go into this, I think Senator Kaine 
already did, on the Fitzgerald and McCain, and where we are now 
and what could have been contributing factors to that. I think 
we all know pretty much what is happening there.
    But in the area of the Marines, General, last year, I guess 
it was, I was trying to find it. Last year, you testified our 
F-18s operationally were down around 40 percent, is that right, 
if my memory serves me?
    Admiral Moran. It was about 50 percent last year, sir.
    Senator Inhofe. Yes. What kind of progress have we made on 
that?
    Admiral Moran. So we have increased by about 44 aircraft. 
That is good. With what happened in 2017, and I am looking 
forward to--so the contracts in the RAA [Request for Additional 
Appropriations] have been let. The increase in flight hours per 
pilot is getting up to not quite at the level we wanted.
    Senator Inhofe. Yes, you are a little higher than the Air 
Force, aren't you?
    Admiral Moran. Yes, sir. We are getting somewhere between 
14 and 16 hours per pilot per month.
    Senator Inhofe. Which I think, General Wilson, you are down 
close to 9 or 10.
    General Wilson. Senator, I think we got a little bit more 
than that. We are trying to increase it about an hour per month 
going forward this year, and that is what we put forward in our 
budget, an increase in flying hours to support----
    Senator Inhofe. Why do you think the Marines are ahead of 
you on this?
    General Wilson. I do not have a good reason why they are 
ahead of us. I know that we are trying to increase not only our 
production capability, our infrastructure, our instructor 
pilots, our flying hours, our weapons system supports, our 
ranges and capacity to be able to do that. And right now, I 
would just say we were too small for all the missions we have 
been asked to do. And going to the people part will be very 
helpful to be able to turn that tide and get us moving in the 
right direction.
    Senator Inhofe. I have had a lot of conversations with a 
lot of pilots, both Air Force and Marines, and I am more and 
more convinced every time I talk to them, it is not so much 
bonuses as it is flying hours. They want to fly.
    And when I stop and think, Senator Kaine, our calculation 
was it costs about $16 million to take someone off the street 
and get them qualified in an F-22, for example. So the money, 
that is an easy response, but that doesn't solve the problem.
    I am convinced of this, and I think we need to get those 
up. I know you are working hard to get that done. That is a 
complaint that I hear all the time, because I have a background 
in that.
    General Wilson. Senator, we have talked about this. You 
know exactly that our pilots want to fly. So trying to let them 
do their job, to get the right work-life balance in their life 
so that they can fly but be able to spend the right amount of 
time at home, because just as you said, if it takes $10 million 
to make a fighter pilot and we are over a thousand short, then 
that is a $10 billion capital investment lost, and it takes 10 
years to make up.
    So we are working all three efforts. On production, how do 
we get that right work-like balance in the middle to be able to 
season them, to make sure that they are proud and confident in 
what they are doing, and then retain them on the back side. And 
I hear the same thing that you hear, that money, certainly, the 
compensation is a piece of it, but it is not the big piece of 
it.
    Senator Inhofe. Yes, I think you are right. Tony just 
handed me a note saying that all four of the vices are 
aviators, which is probably a first, right?
    Do you all agree with our comments about the source of that 
problem, that it is not flying hours?
    General McConville. Yes, sir.
    Senator Inhofe. It is not so much bonuses.
    General McConville. They did not come in to get rich, sir. 
They came in to fly.
    Senator Inhofe. Yes, I know that.
    All right, you guys, on our side, we do not have anyone 
else coming. Do you know of any? Okay, we are going to go ahead 
and adjourn the meeting.
    I appreciate your time very much. And we are on the mend. 
That is the message for today.
    [Whereupon, at 3:44 p.m., the subcommittee was adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Joni Ernst
                   additive and advance manufacturing
    1. Senator Ernst. General McConville, the Army's organic industrial 
base, especially at the arsenal level, is critical to the readiness of 
our forces, as it allows for surge capability during times of conflict 
or extended need. As additive and advanced manufacturing continue to 
become more predominant in the U.S. and abroad, I believe it is vital 
that the Army also looks to increase the use of additive and advanced 
manufacturing at its arsenals. Could you please provide explain the 
Army's position on expanding the practice of additive manufacturing on 
arsenals, as well as the benefits that doing so would provide?
    General McConville. The Army works to expand the practice of 
Additive Manufacturing (AM) by focusing on the increased use of AM as 
well as the continued development of AM capabilities. The Army has been 
involved in AM for many years with current capabilities at 18 sites 
across labs, depots, arsenals, and sustainment brigades. To expand the 
practice, the Army has designated the Army Materiel Command as the lead 
command to integrate and synchronize AM capabilities, doctrine, policy, 
and resources. The Army's initial focus of additive manufacturing is to 
address readiness drivers, parts refurbishment, obsolete parts that are 
difficult to obtain through standard supply chains, long lead items, 
and specialty tooling requirements. These actions will enhance 
readiness.

    2. Senator Ernst. General McConville, how does the Army plan to 
leverage advances made in the private sector to improve the Army's 
additive and advanced manufacturing practices?
    General McConville. The Army is participating in the Additive 
Manufacturing Users Group with private sector participation including 
original equipment manufacturers. The Army is collaborating with 
numerous industry partners, and gaining knowledge with the private 
sector through America Makes which is structured as a public private 
partnership to advance additive and advanced manufacturing 
capabilities.

    3. Senator Ernst. General McConville, could you please provide 
recommendations for how arsenals like Rock Island Arsenal can posture 
themselves to better support the Army's additive and advanced 
manufacturing needs?
    General McConville. The Army has already begun working with Rock 
Island Arsenal--Joint Manufacturing Technology Center (RIA-JMTC) to 
posture itself to better support additive and advanced manufacturing 
needs by designating it as the Army's Organic Industrial Base Additive 
Manufacturing Center of Excellence. In this role, RIA-JMTC will work 
closely with the engineering support activity to ensure that the most 
effective additive and advanced manufacturing technologies (AM) and 
processes are transitioned with the required training needed to ensure 
that AM parts meet certification and qualification testing 
requirements. RIA-JMTC will also manage the data library. More work is 
required with industry to develop a data rights strategy.
                               __________
              Questions Submitted by Senator David Perdue
                      jstars and depot maintenance
    4. Senator Perdue. General Wilson, across the globe our combatant 
commanders have a constant demand for JSTARS due to its unique ISR, 
ground targeting, and battlefield command and control capabilities. 
There is only a fleet of 16 JSTARS aircraft, but it is dealing with 
serious delays in depot maintenance. Right now, 8 of the 16 aircraft 
are in the non-organic depot meaning there are less aircraft available 
than any time since 2002 due to depot delays. A service life extension 
plan for these aircraft is also worrisome because it will increase the 
cost and the complexity of maintaining an aging legacy fleet, as 
opposed to recapping the fleet as previously planned. I doubt the new 
Air Force plan to replace the JSTARS with a ``system of systems'' will 
be ready on the schedule the Air Force has planned. Can you speak to 
the readiness issues caused by unforeseen delays in the current depot 
maintenance?
    General Wilson. The Air Force ready aircrew program defines the 
minimum required mix of sorties, simulator missions, and training 
events aircrew must accomplish to sustain combat mission readiness. In 
terms of lost sorties and training, from 2016 to 2017, JSTARS did not 
participate in 24 high value combat operations exercises due to depot 
maintenance related aircraft availability. Since then, aircraft 
availability, which also accounts for time lost to depot maintenance, 
has improved. As of 9 March 2018, there are six JSTARS aircraft in the 
contractor depot facility. The resulting training and readiness gains 
in March 2018, have allowed JSTARS aircrew to fully participate in 
combat operations exercises and increase the completion of ready 
aircrew program training events by 33 percent.

    5. Senator Perdue. General Wilson, can you speak to what benefits 
may be achieved by taking the depot maintenance capability from private 
to organic, especially if it was collocated with the unit, like at 
Warner Robins Air Force Base?
    General Wilson. Moving Joint STARS depot maintenance to the Warner 
Robins Air Logistics Complex should provide synergy by being collocated 
with the Operational Wings and the Program Office. The move could also 
cut down on personnel travel time and save the fuel costs of flying 
from Robins AFB to the contractor facility.

    6. Senator Perdue. General Wilson, if work was moved to an organic 
facility, does the Air Force have concerns of violating any 50/50 laws?
    General Wilson. 10 U.S.C. Sec.  2466 mandates that not more than 50 
percent of the funds made available in a fiscal year be used for 
contract depot-level maintenance. Accordingly, moving work to an 
organic facility would improve the Air Force position with respect to 
the 50/50 laws, as such a move would reduce the amount of money spent 
on contract depot-level maintenance.

    7. Senator Perdue. General Wilson, has the current contractor 
maintained its contractual throughput over the past 24 months?
    General Wilson. The Joint STARS Total System Support Responsibility 
contract does not specify a number of days to perform depot maintenance 
or throughput. However, the contractor is incentivized through the 
award fee plan to provide mission-ready aircraft and maintain quality.
                    cross-service depot maintenance
    8. Senator Perdue. Admiral Moran, this time last year nearly 2/3s 
of the Navy's F/A-18 Hornets were grounded because of maintenance 
backlogs, and more than half of the Navy's aircraft were grounded 
overall. Cross depot maintenance within the organic industrial base may 
be crucial in avoiding readiness issues in the future with programs 
like the F-35. I believe we can find extra capacity for these backlogs 
through expanding cross-service depot maintenance operations. There was 
language in last year's NDAA that directed the Secretary of Defense to 
assess the feasibility of expanding cross-service depot maintenance 
within the organic industrial base to avoid future backlogs. Can you 
provide an update on what steps have been taken to examine cross-
service depot maintenance for the F/A-18?
    Admiral Moran. The USMC provided NAVAIR a list of twelve F/A-18 
inventory-limited components to explore cross-service organic depot 
repair. Of the twelve components it was assessed that seven may be 
candidates for cross-service depot maintenance. On 26 October 2017, 
NAVAIR submitted Requests for Quote (RFQs) for the seven identified 
components to the USAF Depot Source of Repair and Maintenance Inter-
service teams. The USAF is currently analyzing the requirements and 
technical documentation provided by NAVAIR. While awaiting responses to 
the RFQs, NAVAIR continues to dialog and coordinate with the 
appropriate USAF representatives.

    9. Senator Perdue. General McConville, Admiral Moran, General 
Walters, and General Wilson, how could the Services benefit from cross-
depot maintenance in the future and with future platforms?
    General McConville. By the continued use of the Department's Depot 
Source of Repair (DSOR) coordination process, which is an integrated 
process that ensures the Services collaborate and share depot 
maintenance capabilities, the Army seeks to ensure the most efficient, 
timely and cost effective results. The Army benefits from this cross-
depot maintenance process today as the inter-Service coordination 
creates efficiencies and cost savings. For example, the Air Force 
depots perform maintenance on the Army Gray Eagle drones and the Marine 
Corps depots perform maintenance on Army ground generators. These DSOR 
assignments offer savings that are already calculated into the Army's 
budget projections.
    Admiral Moran. There are existing policies and processes in place 
that are executed by specific Service organizations to optimize the 
assignment of depots to support specific platforms and their 
subsystems. The policies are primarily codified in Department of 
Defense (DoD) Directives and Instructions. The process, known as the 
Depot Source of Repair (DSOR) determination process, involves all 
Services and is intended to ensure a competitive review and to select 
the overall best location for the depot maintenance of a specific DoD 
system. For example, the Navy currently executes cross-depot 
maintenance support with the U.S. Air Force for the F-35 and certain 
aircraft engines, utilizes the U.S. Air Force and U.S. Army depots for 
many communication systems, and supports most Service Electro-optical/
Infra-red (EO/IR) systems at Fleet Readiness Center Southeast. The Navy 
makes all attempts to optimize the Program Manager's investment in 
depot level capabilities, with focus on single-siting support so as not 
to unnecessarily duplicate depot capability. We are constantly 
reviewing and updating the DSOR process for improvements that will be 
applied toward utilizing cross-depot maintenance now and in the future.
    General Walters. The Marine Corps, as well as other Services, 
already benefits from cross-depot maintenance. The Marine Corps 
partners with our sister Service depots to sustain our ground equipment 
to the point that we view the DoD depots as a system and not as 
individual capabilities. We are currently having our tanks repaired at 
Anniston Army Depot, our radars repaired at Tobyhanna Army Depot, and 
our High Mobility Artillery Rocket Systems (HIMARS) are repaired at 
Letterkenny Army Depot. We also source Tactical Shelters and Defense 
Advanced GPS Receivers (DAGRs) to Hill Air Force Base, and Raids and 
Recon equipment is repaired at Naval Surface Warfare Center in Panama 
City. Our Marine Depot Maintenance Command conducts depot repairs at 
our production plant in Albany, Georgia, or Barstow, California, for 
the Multipurpose Wheeled Vehicles (HMMWVs) for the Army National Guard, 
and Tactical Power Generation sets for the Army. Additionally, we 
rebuild Paxman engines at our Barstow production plant for the Coast 
Guard and the Navy.
    From an aviation standpoint, platforms common between the Services 
such as the MV-22, F-35 and KC-130J provide opportunities to deliver 
some cross-service capacity to satisfy overall demand. First, it lowers 
risk by expanding the supply base. Any disruption from within the 
providers can be more easily absorbed if other suppliers have an 
established capability. Second, it provides greater overall capacity. 
Instead of running one or two facilities at 90-100 percent capacity, 
leveraging another Service facility could enable each location to 
operate at a sustainable rate with lower throughput. This may be more 
expensive but it provides more predictable production when demand 
fluctuates.
    General Wilson. Considering cross-depot maintenance strategies 
allows the Air Force to maximize the use of existing Department of 
Defense facilities, efficiently apply resources, and prevent 
unnecessary duplication of capabilities. Existing processes facilitate 
the consideration of all DoD depot maintenance capabilities when 
satisfying requirements, and the Air Force routinely coordinates depot 
workload assignments with the other Services.
      marine aviation safety and pilot availability and readiness
    10. Senator Perdue. General Walters, the Marine Corps had 12 Class 
A Mishaps in fiscal year 2017 which have been primarily attributed to 
human error. Pilots were not getting enough hours in the air due, in 
large part, to aircraft maintenance and readiness. Can you speak to how 
a stable budget process would allow you to improve aviation readiness 
and keep readiness high in the future?
    General Walters. The Marine Corps requires stable, predictable 
funding over multiple years to achieve sustained positive results. 
There is a direct relationship between readiness and modernization. We 
seek to modernize our aviation platforms and reduce resources required 
to maintain aging, less lethal and less survivable systems. In previous 
years, we were underfunding our readiness accounts to buy new 
airplanes--even then we weren't buying enough new airplanes. The budget 
Congress is providing now--it allows us to do both. It also allows us 
to buy F-35s and CH-53K as we complete procurement of MV-22 and H-1. It 
increases our lethality, certainly with those particular airplanes, as 
we begin to ramp up into these new air airplanes to fulfill the new 
National Defense Strategy.
    The new budget also allows us to modernize our depot, hire the 
right people, get the right people in the right place at the right time 
in our depots. It allows us to train, and allows us to fully fund our 
spares accounts to levels they've never been funded to before. Fully-
funded readiness accounts ensure our jets and pilots have the right 
flight time to get out the door.

    11. Senator Perdue. General McConville, Admiral Moran, General 
Walters, and General Wilson, there is currently a retention issue 
within the aviation community as we lose fully trained and experienced 
pilots to the private sector. This loss of valuable talent occurs 
throughout our Services with various other critical skills as well. As 
stated during the Current Readiness hearing, one reason pilots leave 
the service is the diminished flight hours they are receiving, but 
there are also other incentives we can offer to our critical skill sets 
across the military. How would a stable budget help you implement 
certain incentives for our servicemembers to keep them in our military 
versus moving to the private sector?
    General McConville. A stable budget ensures a full complement of 
resources at our disposal to continue to provide incentives where 
needed and address quality of life issues to keep our aviators in an 
Army uniform.
    Warrant Officers perform the majority of flight duties within the 
Army. Therefore, the Army focused its retention efforts on this portion 
of our aviator population to maintain our aviation capability. Quality 
of life issues are the primary reason for separation from the Army 
among Aviation Warrant Officers. Sustained high demand for Army 
aviation capabilities by combatant commanders has required frequent 
deployments by Army aviators. The high operational tempo of aviation 
units coupled with frequent permanent changes of stationing within the 
U.S. creates an understandable strain on families. Often, it is the 
promise of increased stability in the civil sector and the decision to 
put family first that leads an aviator to leave the Army. We are 
currently exploring ways to increase stability within the Army for our 
Aviation Warrant Officers and improve quality of life. Already we have 
begun offering targeted bonuses to the Aviation Warrant Officer 
populations deemed to be at higher risk of leaving the Army as an 
incentive to stay; however, monetary incentives alone do not fully 
address the retention challenge.
    That said, a stable budget will help us promote an increased and 
predictable throughput of pilots in Army Aviation. Increased and 
predictable pilot throughput will allow us to mitigate manning 
shortages, thereby reducing the operational tempo for individual pilots 
and increasing stability and overall quality of life for the Aviation 
Warrant Officer population and their families.
    Admiral Moran. When operating under prolonged or recurring 
Continuing Resolutions, available funding is based upon the previous 
year's appropriated amount with no regard for mandated changes to the 
current year, such as pay raises or end strength. Our first requirement 
is to ensure we pay our sailors from those available funds. This in 
turn pressurizes our ability to offer robust special and incentive pays 
in a timely manner. Stable budgets enhance our ability to respond to 
the dynamics of changing recruiting and retention behavior and emerging 
manning requirements, through judicious application and/or adjustment 
to special and incentive pays. Positive retention is just one aspect of 
a stable budget. The other benefits are mission capable aircraft, 
sustained flying hours, stable PCS budgets, etc. Historically, we have 
been able to positively influence retention behavior by providing a 
fair compensation package. However, over the past several years, Naval 
Aviators have expressed a growing dissatisfaction with the quality of 
service resulting from readiness challenges associated with limited 
aircraft availability and reduced flying hours while not deployed, 
which have inhibited their timely attainment of tactical qualifications 
and subsequent career progression. These delays impact the time 
Aviators have to train and hone their skills prior to deployment. Such 
challenges are further exacerbated by low stocks of critical parts. 
Restoring short-term fleet readiness will require sufficient and 
predictable funding, which will allow our pilots to fly the hours 
needed to maintain optimum proficiency, and ensure our ability to 
conduct timely maintenance on our airframes. It would also enable Navy 
to restore stocks of necessary parts, return more aircraft to 
operational status and better prepare them to remain deployed, as 
required. The ability to strategically address these readiness and 
retention issues requires a stable budget.
    General Walters. A predictable and stable budget allows us to 
properly plan and execute bonus and retention incentives to retain 
highly qualified marines. Incremental funding for Selective 
Reenlistment Bonuses creates unnecessary challenges to planning and 
jeopardizes retention of quality marines. The recent Continuing 
Resolutions (CR) have negatively impacted fiscal year 2018 reenlistment 
approval rates. Once the Marine Corps reaches its SRB funding authority 
imposed under a CR, SRB approvals are halted and servicemembers are 
forced to delay their reenlistment and potentially explore other 
options in the event that their package is not funded in time. The 
delay in funding and approval inflicts avoidable uncertainty to a 
committed servicemember's future and their family.
    Monetary incentives are not the only factor in such a decision, 
particularly where pilots are concerned. Pilot retention decisions are 
also impacted by availability of flight hours and the opportunity to 
train and/or execute their mission sets.
    General Wilson. Without budget stability, it is difficult to 
effectively manage programs over the long term. Stable budgets provide 
predictability and stability in such programs like incentive programs, 
such as the aviation bonus, selective retention bonus, and special duty 
assignment pay that are designed for multi-year payments for our airmen 
serving in shortage specialties or in arduous and demanding positions.
    Budget stability also affects the airmen we target with these 
programs. With large swings in funding levels or short-term budget 
approaches, these airmen could be less inclined to make long-term 
commitments to the Air Force. Consistent budgets are a critical part of 
the trust agreement we owe our airmen. Bottom line: If we desire airmen 
to make long-term commitments to the Air Force, we must show long-term 
commitment to them with stable budgets that support our incentive 
programs.

    12. Senator Perdue. General McConville, Admiral Moran, General 
Walters, and General Wilson, how are you currently addressing the 
issues with retention of critical skill sets within your respective 
Services?
    General McConville. The Army continues to offer Selective 
Reenlistment Bonuses (SRB) for soldiers serving in critical Military 
Occupational Specialties (MOS) and skills. The SRB is reviewed 
quarterly through an analysis of the strengths of every skill in the 
Active component (AC) Enlisted Inventory to include MOS and all 
associated Additional Skill Identifiers (ASI)/Special Qualification 
Identifiers (SQI)/Languages.
    The SRB is based on the projected strengths of the skill 18 months 
into the future and the complexity/duration of the training to 
accomplish strength requirements. The SRB message is published Army-
wide and both Career Counselors and Command teams use this with 
personal counseling to assist with the retention of critical skills.
    Ensuring a stable budget enables the Army to appropriately 
incentivize soldiers with critical skills as Army structure and 
strengths change.
    Admiral Moran. Navy is addressing critical skills retention issues 
through a combination of monetary and non-monetary incentives. Officer 
retention areas of focus include Aviation, Submarine Officers, 
Conventional and Nuclear Surface Warfare Officers, and SEALs.

    <bullet>  To increase the retention of top Officer and Enlisted 
performers, using non-monetary incentives, Navy has a set of sailor 
2025 initiatives to provide greater transparency, flexibility and 
choice, such as, advanced education and SECNAV Tours with Industry, and 
is pursuing permanent Career Intermission Program authority and 
modernization of the Defense Officer Personnel Management Act.
    <bullet>  The primary monetary tools supporting aviator retention 
are Aviation Incentive Pay (AvIP) and Aviation Bonus (AvB) 
respectively. Congress' enactment of the National Defense Authorization 
Act (NDAA) for Fiscal Year 2017 resulted in an increase in the 
statutory cap for AvB from $25,000 to $35,000 per year and in the AvIP 
from $850 to $1,000 per month, which was well-received and appreciated 
by aviators. Using this authority, we made significant changes to the 
Aviation Department Head Retention Bonus (ADHRB) by changing when 
Aviators are eligible, offering flexibility in contract lengths, and 
increasing bonus amounts up to the statutory limits ($35,000/year) for 
HM, VAQ, VFA, VAW and VRC pilots who commit to a 5-year contract. For 
the Aviation Command Retention Bonus (ACRB), we increased the bonus to 
a 3-year contract for $100,000 ($34,000/$33,000/$33,000). For AvIP, we 
added a merit element by creating an additional category whereby 
Aviators who are screened for their career milestone will receive a 
higher level of Flight Pay than those who do not screen.
    <bullet>  The Submarine and Surface Warfare (Nuclear) communities 
are using monetary incentives including retention bonuses for officers 
willing to commit to future service and special duty pays for 
challenging nuclear billets. Navy restructured the Naval Special 
Warfare Officer Bonus Programs in an effort to increase retention. Navy 
offers two SEAL retention bonuses targeting SEAL officers at critical 
career decision points: Naval Special Warfare Officer Continuation Pay 
(NSWOCP) offered to lieutenants (O-3) and lieutenant commanders (O-4), 
and Naval Special Warfare Officer Retention Bonus (NSWRB) offered to 
lieutenant commanders (O-4) and commanders (O-5). Historically, these 
targeted bonuses have proven effective in retaining high-quality 
personnel to meet operational requirements by attacking retention 
problems in specific communities, jobs, and experience levels. 
Additionally, in an effort to enhance non-monetary retention 
incentives, the community has undertaken a review of the career 
pipeline to increase career milestone opportunities for traditional 
leadership and community valued positions.
    <bullet>  The Surface Warfare Officer community implemented a 
revised Department Head Retention Bonus (DHRB) program, which increased 
the maximum total compensation to $105,000 for Active component (AC) 
officers and authorized incentive payments prior to an officer's 
Minimum Service Requirement (MSR). The new bonus is only offered to 
those highly talented officers who have demonstrated outstanding 
performance, possess a strong potential for future success, and have 
screened for a department head assignment. This monetary tool is used 
in combination with non-monetary incentives to improve overall Surface 
Warfare Officer retention and improve the quality of officers retained.
    <bullet>  Enlisted retention remains high, but critical skill 
communities such as Nuclear Field, Special Warfare, Advanced 
Electronics, Aviation Maintenance and Information Technologies are 
increasingly requiring focused retention efforts. Navy leverages 
multiple special and incentive pays to recruit and retain sailors into 
these high-risk and/or high-investment ratings. Navy has also expanded 
reenlistment and rating conversion opportunities which offers greater 
flexibility and choice in sailors' careers.

    General Walters. To resolve pilot inventory shortages in critical 
specialties, the Marine Corps will combine materiel readiness 
improvements, accurate and supportable accessions, and the Aviation 
Bonus, aimed to stabilize retention. In fiscal year 2018, the Marine 
Corps unveiled a new series of selective reenlistment bonuses targeting 
longer contract lengths for critical skills and specific maintenance 
qualifications. Retention bonuses have some influence on an 
individual's decision to depart or remain in the service. However, 
monetary incentives are not the only factor in such a decision, 
particularly where pilots are concerned. Pilot retention decisions are 
also impacted by availability of flight hours and the opportunity to 
train and/or execute their mission sets. We must address the issue 
holistically, by looking at monetary and non-monetary incentives, but 
also improving work-life balance, reducing non-flying tasks, and 
improving aviation maintenance, training, and production, all of which 
will support increased operational readiness.
    General Wilson. The Air Force is employing retention bonuses, such 
as Aviation Bonus, Selective Reenlistment Bonus, Special Duty 
Assignment Pay, and the Critical Skills Retention Bonus to incentivize 
experienced airmen with critical skills to stay. However, monetary 
incentives are just one piece of our retention portfolio. Commanders 
have the authority to approve high-year-of-tenure extensions for 
personnel in undermanned key career fields to retain experienced 
airmen. Maintaining these airmen is essential to meeting the mission, 
training the new accessions and ultimately to improve readiness.
    We have also taken steps to reduce the stress of additional duties 
on the force. In response to airmen's concerns, we conducted a review 
of additional duties, resulting in the realignment, reduction, or 
elimination of 29 additional duties across the Air Force in the last 18 
months, with workload realigned to newly created Commander Support 
Staffs. In conducting a manpower study on the workload transferred to 
the Commander Support Staffs, we determined a requirement of 1,600 
authorizations. We funded the authorizations beginning in fiscal year 
2017, programmed incrementally through fiscal year 2020. Resourcing is 
well underway and we are on-target to meet fiscal year 2020 
projections.
    To assist with quality of life concerns, we are leveraging 
technology to assist officers in providing a direct voice into the 
assignment process through ``Talent Marketplace.'' Talent Marketplace 
is a new web-based assignment matching platform that has been developed 
based on an algorithm used in the Nobel-Prize winning National 
Residency Matching Program. Currently, we are testing the system on 
approximately 430 fighter pilot and combat systems officers scheduled 
for Permanent Change of Station in summer of 2018. Following this test, 
we will open Talent Marketplace incrementally to all Active Duty Air 
Force officer career fields beginning August 2018. It has potential to 
expand to the Total Force in the future. Talent Marketplace allows 
officers to personalize their resume, dynamically search for jobs, and 
submit a prioritized list of desired jobs and duty locations. During 
this process, officers receive real-time feedback on how many other 
officers are applying for the same positions in addition to having 
visibility on how many hiring authorities are prioritizing them to 
potentially fill their vacancies. Once implemented, Talent Marketplace 
seeks to increase transparency throughout the assignment matching 
process, optimize identification and utilization of talent, and 
increase retention of airmen in critical skills.
         army readiness and security forces assistance brigades
    13. Senator Perdue. General McConville, last year in this committee 
there was a major focus on the low number of ready Brigade Combat 
Teams. The Army continues to maintain a high operational tempo and a 
low dwell time meaning the Army still risks consuming readiness as soon 
as it builds readiness. Units have also been deployed for security 
assistance missions and have not been able to train to their standard, 
conventional missions. What is the current readiness level of your 
Brigade Combat Teams?
    General McConville. We are at a better place than we were last year 
when GEN Allyn appeared before this Subcommittee on February 8, 2017. 
We have seen a modest increase in the number of brigades ready to fight 
tonight. I would be happy to provide the exact readiness status of our 
Brigade Combat Teams in a classified setting.

    14. Senator Perdue. General McConville, how are you prioritizing 
readiness in the fiscal year 2019 budget?
    General McConville. The Army's number one priority remains 
readiness, and our fiscal year 2019 budget request will support 
achieving readiness objectives supporting the National Defense Strategy 
(NDS). This includes requests for increased funding for home station 
training, conducting 20 Combat Training Center (CTC) rotations, 
including four for Army National Guard (ARNG) brigade combat teams, and 
a renewed Emergency Deployment Readiness Exercise (EDRE) program. The 
EDRE program includes three ground exercises plus one Sea EDRE per 
year, in support of the NDS emphasis on readiness to sustain global 
commitments. To enhance ARNG and United States Army Reserve (USAR) 
readiness, the Army has programmed increased manning, training days, 
and combat training events. Additional training days will ensure units 
required for immediate availability meet rotation requirements.

    15. Senator Perdue. General McConville, how will you balance 
growing the force with improving readiness?
    General McConville. Manning is one of the four pillars of 
readiness. End strength growth will close lethality and capability gaps 
in air defense artillery and long range fires, as well as improve 
readiness through investment in Security Force Assistance Brigades, the 
training base, and the Readiness Enhancement Account (REA). The REA 
provides the Army the ability to increase manning of existing units to 
compensate for non-deployable soldiers, improving readiness of our 
priority units. We are also reviewing our processes to reduce non-
deployable numbers.

    16. Senator Perdue. General McConville, will the Security Forces 
Assistance Brigade construct help you recover Army readiness by forming 
mission focused units?
    General McConville. Yes, the Army intends to use Security Force 
Assistance Brigades (SFABs) to replace Infantry Brigade Combat Teams 
(IBCTs) in current training, advise and assist missions, allowing IBCTs 
to prepare for future theater missions once replaced.
    For several years, the Army has deployed portions of IBCTs to meet 
Security Force Assistance missions. While the missions have been 
successful, the partial employment of an IBCT dramatically consumes 
Brigade Combat Team (BCT) readiness. Applying BCTs toward non-combined 
arms maneuver tasks is inefficient.
    In March 2018, the Army deployed the first mission-focused SFAB. We 
are developing options with Combatant Commands and Office of the 
Secretary of Defense for SFABs to replace IBCT deployments.
                            cyber readiness
    17. Senator Perdue. General McConville, Admiral Moran, General 
Walters, and General Wilson, each of the Services has taken slightly 
different approaches to address cyber readiness and the organization of 
your cyber forces. There is still a concern that DoD may have neither 
the tools and capabilities required to be effective in the cyber domain 
nor the ``bench strength'' necessary to sustain the high levels of 
readiness that will be demanded of the cyber force. What is the state 
of cyber readiness in each of the Services?
    General McConville. The Army achieved a significant milestone in 
cyber readiness in September 2017 when all 41 Active component Army 
Cyber Mission Force (CMF) teams became fully-operational, a year ahead 
of U.S. Cyber Command's (USCYBERCOM's) mandate. These teams meet the 
Joint criteria for manning, equipping, training and certification. We 
are moving to a sustainable readiness model that will ensure our cyber 
forces are resilient and set to support multi-domain battle. To assess 
sustained levels of proficiency, the Army Cyber Protection Brigade 
developed ``Cyber Gunnery Tables,'' similar in concept to gunnery 
tables utilized by maneuver branches. These tables define individual, 
crew, and mission element tasks necessary to effectively conduct 
cyberspace operations and provide structured, methodical, and 
foundational training for both individuals and teams. These gunnery 
tables also serve as training and readiness validation events to 
certify that crews have the required knowledge, skills, and abilities 
to participate in collective exercises. They also provide an objective 
assessment to determine individual and crew readiness. The Army has the 
people and processes to continue to evolve the needed tools and 
capabilities to match the current and future cyber threat, and 
continues to build our ``bench'' of Army cyber professionals.
    Admiral Moran. The Navy Cyber Mission Force (CMF) build is 
complete. All 40 of the Navy-sourced CMF teams achieved Full 
Operational Capability (FOC) as of October 6th, 2017, one year ahead of 
the designated U.S. Cyber Command target. FOC is an externally-
validated evaluation indicating the unit has met all its capability 
requirements and can perform its mission as assigned. It is not, 
however, a measure of combat readiness. Achieving FOC is only a 
waypoint as the operational need for a well-trained and motivated cyber 
workforce will continue to be defined in the coming years.
    The Department of the Navy (DON) will sustain investment levels to 
support key CMF requirements for access platforms, cyber tools, and 
critical infrastructure to strengthen Title 10 cyber space operations. 
As of 1 March, the Navy-provided CMF teams are manned at 88 percent 
overall. Navy provides 4 National Mission Teams, 3 National Support 
Teams, 8 Combat Mission Teams, 5 Combat Support Teams, and 20 Cyber 
Protection Teams.
    As directed in fiscal year 2016 NDAA, the Navy is on track to begin 
resourcing training for sailors assigned to the CMF teams. 
Specifically, the Services have been directed to assume responsibility 
for CMF individual skills training from USCC beginning in fiscal year 
2019. The transition will remove inefficiencies in the current model, 
while maintaining a connection to USCC requirements. Additional 
resources will be required to maintain curriculum relevance against the 
fast rate of change in threat and technology. Navy is evaluating 
resource shortfalls to meet the mandate as part of POM-20.
    General Walters. The Marine Corps is currently at a transition 
point where we are aggressively working towards building cyberspace 
expertise within the MAGTF and pushing cyber capability from the 
enterprise level to the tactical edge.
    Marine Corps Future Force 2025 (FF2025) provides additional 
structure across multiple units to enhance capability and capacity to 
conduct Information Warfare (Cyber) operations. FF2025 creates 
Information Warfare Coordination Centers at each MEF (within MEF 
Information Groups (MIG)) and adds 233 Defensive Cyberspace Operations-
Internal Defensive Measures (DCO-IDM).
    In fiscal year 2017 the Marine Corps created additional units and 
structure, both in HQMC and the operating forces, to extend operations 
in the cyber domain. This includes the creation and manning of the 
Deputy Commandant (DC) for Information and the Defensive Cyberspace 
Operations-Internal Defensive Measures (DCO-IDM) Companies.
    DC Information will develop and supervise plans, policies, and 
strategy for all information environment operations (IEO) related 
activities, and will identify requirements for cyber doctrine, 
manpower, training, education, and equipment for the MAGTF.
    DCO-IDM companies will conduct DCO-IDM missions in order to protect 
critical capabilities to preserve a MAGTF commander's ability to 
command and control forces. DCO-IDM includes mission assurance actions 
such as actively hunting for advanced internal threats that evade 
routine security measures and performing digital forensics/triage. The 
company will dynamically reestablish, re-secure, reroute, reconstitute, 
or isolate degraded or compromised local networks in response to 
attack, exploitation, intrusion, or effects of malware on the DODIN or 
other assets directed to defend.
    Cyber is a dynamic, competitive environment, and we are continually 
responding to the increasing capability and capacity of our 
adversaries. As we have built Cyber Protection Teams (CPT), we have 
employed them across the Marine Corps Enterprise Network (MCEN). This 
year, our CPTs have conducted named cyber operations to include focused 
internal defensive maneuver missions (IDM), ensured security of 
Personally Identifiable Information (PII) repositories, and completed 
security enhancement missions for cyber key terrain, countering known 
threats to the network. In all DCO activities, the Marine Corps 
consolidates findings and actionable lessons for dissemination to the 
broader operational community. We are making efforts to better 
understand system data, and have employed Service aligned CPTs to 
harden Service PII repositories. In 2015, MARFORCYBER began efforts to 
secure PII repositories across the service. The MCCOG and Service CPTs 
assessed the security posture of our 40 largest PII repositories. While 
the overall security posture of our systems was within established 
standards, we identified areas for improvement we needed to address. 
Our Service aligned CPTs conducted on-site visits to several 
repositories that were deemed critical high risk. There, we identified 
and remediated vulnerabilities and trained system owners and 
administrators. We continue efforts to ensure these systems maintain 
the highest levels of security.
    We have identified a requirement for a more robust Marine Corps 
Cyberspace Operations Group (MCCOG) Continuity of Operations (COOP) 
capability. The MCCOG COOP is effectively a MCEN COOP capability. MCCOG 
lacks the ability to comply with DoD Directive 3020.26 of 9 Jan 2007 
requiring up to 30 days Mission Essential Services and Functions 
performance for no-notice events. The Marine Corps IT Center (MCITC), 
located in Kansas City, Missouri, is the recommended COOP site, 
allowing us to leverage available space and integrate with other MCCOG 
operations already at MCITC. We have conducted thorough analysis and 
research to develop an effective COOP capability, but currently lack 
the financial resources to put our plan into action.
    We are participating in efforts to shape our battle space by 
designing a more defensible architecture. As we move toward 
implementing the Joint Information Environment, we are also working to 
unify and centralize our network to better see, understand, and defend 
the MCEN. We are integrating and standardizing cyberspace threat 
reporting, intelligence production and analysis to better inform 
commander's situational awareness and decision making. Our network must 
be resilient, redundant and interoperable, and extend from garrison to 
the tactical edge of battle. In other words, we need a seamless MCEN 
that provides a defensible capability providing enterprise services 
from ``fighting hole to flagpole.'' We are moving out in this 
direction.
    With regard to personnel, the Marine Corps has sub-optimal 
personnel inventories for field grade communications officers and data 
systems staff non-commissioned officers. Generally speaking, these 
occupational fields currently provide leadership to the Communications/
IT/Cyber workforce for the Marine Corps. Due to sub-optimal ``bench 
strength'', the Marine Corps prioritizes key billets towards the 
operating forces and accepts gaps and/or grade mismatches, typically in 
the supporting establishment and garrison IT workforce. The impact, 
however, is not isolated to garrison IT requirements as the garrison IT 
workforce enables much of the warfighting network capability. The 
Marine Corps is working to grow a larger communications/IT workforce 
and is also growing a specific cyber military occupational field for 
specialized cyber capabilities.
    General Wilson. Today's cyber teams conduct daily cyber operations 
in support of combatant commanders. As such, we are committed to 
building a robust and resilient cyber enterprise.

    <bullet>  The Air Force is well postured to activate all 39 Cyber 
Mission Force teams by September 2018. Currently 35 of 39 Air Force 
teams are at Full Operational Capability. With respect to ``bench 
strength,'' mission surge, and daily operations, the Air Force has 
employed a built-in total force strategy with 15 Air National Guard 
squadrons and a classic reserve associate squadron providing additional 
trained and ready surge capacity in times of crisis.
    <bullet>  We are essentially doubling our cyber workforce 
(logically speaking) by introducing Enterprise Information Technology 
as a Service. This will leverage industry partners and commercial 
solutions for increased information technology effectiveness and 
security. This frees our cyber airmen to focus on defense of Air Force 
core functions and weapons systems. We will use these cyber airmen to 
establish Air Force Mission Defense Teams. The Mission Defense Teams 
provide another layer of security for our combat wings by providing 
defense for missions, facilities, and networks.
    <bullet>  The Air Force leads the development of Unified Platform 
and Joint Cyber Command and Control Capabilities. These programs 
consolidate service-unique Cyber platform capabilities and integrate 
command and control of cyber operations across the Department of 
Defense, providing much increased capability to protect friendly 
critical infrastructure while increasing lethality of Joint operations. 
These programs will also allow the Cyber Mission Force to be 
interoperable, interconnected, and conduct integrated planning and 
execution across the full-spectrum of cyberspace operations.
    <bullet>  The Air Force is also pursuing mission assurance for 
weapon systems in a cyber contested environment with the Cyber 
Resiliency Office for Weapons Systems. This effort reduces 
cybersecurity vulnerabilities to infrastructure, weapon systems and 
business systems to enable military operations. It is transforming our 
acquisition and sustainment processes to ``bake in'' cyber security 
into new and existing weapons systems.
    <bullet>  The Air Force has invested in the creation, fielding, and 
sustainment of an ever-increasing portfolio cyber defensive and 
offensive capabilities, specifically seven cyber weapon systems 
designed to provide a tiered global defense of the Air Force 
information network. Second, defensive cyber maneuver forces to 
actively defend key cyber terrain. And last offensive capabilities to 
provide all domain integrated operational effects to combatant 
commanders.

    18. Senator Perdue. General McConville, Admiral Moran, General 
Walters, and General Wilson, what needs to be prioritized to ensure 
that we recruit and retain the right people with the right skills for 
the cyber domain?
    General McConville. People remain our most important weapon system, 
our most important asset. Sustained and timely funding is essential to 
enabling continued training of the cyber force. For retention purposes, 
the Army has approved monetary and non-monetary incentives, including 
Advanced Civil Schooling, Training with Industry, and cyber-related 
fellowships for cyber forces. Accordingly, the Army has expanded two 
key compensation programs for cyber soldiers: Assignment Incentive Pay 
(AIP) which is designed to encourage Officers, Warrant Officers and 
Enlisted soldiers to volunteer, train, and perform Cyber Mission Force 
work roles that are otherwise difficult to fill; and Special Duty 
Assignment Pay (SDAP), which is designed to compensate enlisted 
soldiers assigned to duties designated as extremely difficult or that 
involve an unusual degree of military skill.
    Admiral Moran. Navy Cyber Mission Force (CMF) enlisted ratings 
(CTI, CTN, CTR, IS, IT) are meeting retention goals. Our current 
retention data shows that only four percent of sailors within the CMF 
have separated or retired, six percent have done back-to-back tours 
within the CMF, 17 percent have transferred to a job/position outside 
of the CMF, and the remaining 73 percent are serving in the CMF and not 
yet up for orders or end of service obligation. We anticipate that we 
will continue to be above Navy averages in retention. We recognize that 
tracking overall rating recruitment and retention is only a first step. 
We aim to refine specific cyber skills tracking by developing 
additional Navy Enlisted Classification(NEC) Codes, updating 
Occupational Standards and building proficiency standards at the 
journeyman and master level.
    Cyber-related officer communities are also meeting retention goals. 
While both Cryptologic Warfare (CW) and Information Professional (IP) 
communities experienced growth associated with increased cyber 
missions, we are retaining officers in these communities at 93 percent 
overall. Both CW and IP are effectively-managing growth through direct 
accessions and through the lateral transfer process, thereby, ensuring 
cyber-talented officers enter and continue to serve.
    Additionally, the Navy has 21 Cyber Warfare Engineers (CWE) in the 
ranks, the Navy's direct commission program for experienced and highly 
talented cyber developers. In the next five years the number of CWE is 
expected to grow to 40.
    General Walters. With regard to the high-end cyber capabilities, 
the Service is conducting a multi-year, Service-integrated, bottom-up 
approach to grow MARFORCYBER, which includes a manpower, training, and 
facilities/equipment build. Our growth is in-line with the Commandant's 
vision, Future Force 2025. Our manpower growth will require the 
recruitment, training, and retention of qualified civilian and military 
personnel. Our growth will be done right; the Service will conduct a 
holistic analysis (DOTMPLF) to ensure our growth is realistic and 
complete. Although MARFORCYBER has already postured to grow, we will 
begin to see change in fiscal year 2018.
    Recruiting and retaining high-quality individuals to become and 
remain marines is an enduring challenge. Our cyber marines will prove 
no different. We need to make sure our recruiters have the resources 
that they need to succeed, and that the Corps will have the resources 
to ensure our retention incentives and special pays are adequate. 
Overall, we continue to recruit and retain a growing force by adhering 
to our quality and performance standards necessary to sustain the 
readiness of our operational forces.
    We have been working with various entities in the Marine Corps to 
develop a dedicated Cyber MOS in order to try and retain these critical 
assets in the Service. This 2+ year effort is looking to change not 
only the MOS, but the paradigm of how we employ those marines. The 
standard model of three year tours doesn't work in the cyber domain. It 
is taking approximately 18 months to two years to get personnel fully 
trained and ready to operate, so the three year force structure model 
is not an efficient way to manage the career track for cyber personnel. 
By creating a cyber MOS, we can develop a grade shape model, as well as 
a career model that takes this into account, and will allow us to 
leverage these hard won skills for longer. And we will have more 
success retaining some of our quality people if we have a career model 
that allows them to remain competitive for promotion, while staying 
operationally focused.
    For the Civilian IT Workforce, direct hire authority, flexible pay 
and bonus incentives, and continued support for training and education 
programs would reinforce our ability to recruit and retain highly 
qualified personnel. The proposed Cyber Excepted Service has yet to be 
fully realized in the DoD, but promises to streamline time intensive 
hiring processes and should provide additional pay/salary flexibility 
to improve competitiveness.
    The Marine Corps presently does not access directly into the cyber 
domain, however, it does recruit marines from feeder MOS's that will 
fill out the cyber domain ranks. The Marine Corps is on the cusp of 
expanding its military occupational specialties to include a stand-
alone cyberspace occupational field (17xx), which may open the door for 
recruiting to this specialty, but these foundational billets will be 
filled by marines until we implement a formal accession policy. 
Incentive pays can be utilized to retain these individuals with the 
right skills for the cyber domain, if needed, based on inventory levels 
and/or retention rates. The science of applying monetary and assignment 
incentives is important for retention, but should only be seen as part 
of the retention process. Another part of the process is ``the art of 
retention'', which comes from engaged leadership and fostering a sense 
of purpose in our mission. Engaged discussion with our marines at the 
individual level is central to understanding what motivates each of 
them to stay a marine.
    General Wilson. We need continued support for signing bonuses, 
retention bonuses, and special duty pay for our military cyber 
workforce. While we have begun implementation of civilian Cyber 
Excepted Service, the funding support for retention, local market 
supplements, etc. based on workforce hiring challenges does not have 
sufficient resources. We are also implementing the cyber skills coding 
effort. Thus, sponsorship of a federal effort to map cognitive traits 
associated with highly skilled cyber professionals, will help us 
recruit and identify people with the right skills who may have never 
considered a career in cyber. Furthermore, we need continued support 
for constructive service credit and direct commissioning programs to 
attract top cyber military talent and expedite civilian cyber hiring 
efforts to reduce onboarding delays that cause otherwise qualified 
hires to accept other employment offers.
                             f-35 readiness
    19. Senator Perdue. Admiral Moran, General Walters, and General 
Wilson, the Joint Force is sustaining over 250 F-35 aircraft, and you 
plan to triple the fleet by the end of 2021. According to a GAO report 
in October 2017, our ability to repair F-35 parts at military depots is 
6 years behind schedule which has resulted in the average part repair 
time to be 172 days. In the first 9 months of 2017, F-35s were unable 
to fly 22 percent of the time due to parts shortages, and initial 
deployments of F-35s on ships have lacked necessary intermediate-level 
maintenance capabilities. The F-35 is an example of our current 
modernization efforts to add technologically advanced systems to our 
force, and it is possible that there will be similar problems with 
those technologies--buying equipment before being fully set up to 
sustain it. What is the current status of the F-35 program across the 
Joint Force?
    Admiral Moran. According to the F-35 Joint Program Office (JPO) 
Performance Management Team, for the most current status, 3-9 April 
2018, the total F-35 Fleet was unable to fly 25.4 percent of the time 
while awaiting parts (Not Mission Capable Supply (NMCS)). For the Navy 
F-35Cs, the percentage was 29.1 percent NMCS. These percentages are 
roughly in line with what was reported in the GAO report cited for the 
first nine months of 2017. The USAF and USMC will respond on the status 
of the F-35A and F-35B Fleet separately.
    General Walters. In President's Budget for Fiscal Year 2019, the 
Navy and Marine Corps programmed money to begin standing up our own 
Intermediate Level maintenance capability. The Marine Corps' 
Intermediate Level (I Level) maintenance capability will enable the 
organic repair of both support equipment and aircraft components, and 
will also serve as a point of departure for an effort to bring test, 
check and repair closer to the squadron.
    This Intermediate level maintenance initiative, as well as 
accelerating our standup of our organic depot repair capability, and 
fully investing in our spares capacity will drive a reduction in time 
lost flying due to parts shortages and bring an increase to our repair 
capability and capacity.
    The Marine Corps is also investing in engineering to improve parts 
reliability and upgrading our software because many of our mission 
systems are the ones that give us those fault codes that provide 
downing discrepancies, to which new software will help us work through 
that--again reducing the time an aircraft is not available to fly.
    There is also a learning curve associated with an updated model to 
our aviation logistics. The Joint Program Office re-designed their 
structure for this in late 2016 and we are just now seeing the effect 
of the Hybrid Product Support Integrator (HPSI) on the Global Support 
Solution for all Services and Partner nations. As this process becomes 
more normalized, we expect to see an increase in the effectiveness of 
the Global Asset Management process which will reduce repair-turn-
around-time and have more aircraft flying.
    General Wilson. Depot standup is behind schedule and the Air Force 
is working with the F-35 Joint Program Office (JPO) to remedy the 
repair cycle deficiencies. In fiscal year 2018 we increased funding for 
our initial spares purchase and invested in our repair network. These 
investments will result in a deeper parts pool and more robust repair 
capability. The combined efforts to build a robust spares pool will 
take time. We will continue to work with the JPO Hybrid Product Support 
Integrator to prioritize parts support to units conducting or preparing 
for deployed combat operations, and identify options to expedite 
procurement of mission critical components.
    In addition to the items above that address the supply side of the 
equation, we're also encouraged by reductions in the demand signal for 
spare parts as well. The enhanced performance and reliability of the 
recent aircraft 3F software update improves internal diagnostics. The 
better fault isolation results in fewer serviceable parts that are 
erroneously introduced into the repair pipeline. Also, reliability and 
maintainability efforts continue to decrease Mean Time Between Failure 
rates resulting in fewer parts needing repair.
    The combination of supply side increases and demand signal 
reductions will result in improved aircraft availability across the 
enterprise.

    20. Senator Perdue. Admiral Moran, General Walters, and General 
Wilson, what lessons can the Navy, Marine Corps, and Air Force learn 
from sustainment issues with the F-35 that can be applied to future, 
complex and technologically advanced programs?
    Admiral Moran. The F-35 sustainment program is a global supply 
chain and inventory management system based upon a global pooling 
strategy with a two-level maintenance concept that is the structure for 
the Air Force. Traditional Navy and Marine Corps sustainment relies on 
three-level maintenance--a combination of organizational (squadron), 
intermediate (CVN/L-class and ashore) and depot (shore).
    The Navy and Marine Corps both require underway Intermediate-level 
maintenance to support their ``expeditionary doctrine'' of employment 
and operations (CVW, CVN, and Air Combat Element (ACE)). The Navy and 
Marine Corps also require a different supply chain management structure 
to support expeditionary operations. This may include an organic 
service integrator like Naval Supply Systems Command (NAVSUP) instead 
of Lockheed Martin (LM), or some type of mixed structure.
    Current squadron stand-up efforts have highlighted the value of 
Intermediate-level repair capabilities as necessary for aircraft 
sustainment while deployed. Establishment of this capability for F-35 
is on-going. Additionally, having a robust, organic depot maintenance 
capability, coupled with an easy-to-use, comprehensive enterprise 
information system tied into existing DoN (and DoN-external) support 
systems and infrastructure, is crucial to realizing an affordable 
sustainment solution. As the F-35 sustainment system matures, these 
lessons learned will be applied to future weapon systems through 
investment in the early stages of the acquisition life cycle.
    Finally, detailed sustainment planning and cost forecasting are key 
elements that must be incorporated into the early design/development 
process to more adequately drive down life cycle costs.
    General Walters. In future, highly advanced and technical programs, 
it would be beneficial to wargame, conceptualize and then baseline the 
anticipated operational and sustainment environment before designing 
the sustainment concepts (ex. Global Asset Management, ALIS, O to D 
Concept). The technical support infrastructure and software should be 
designed to fit the anticipated operating environment (training, 
afloat, expeditionary) rather than starting with an innovative set of 
sparing and maintenance software concepts and forcing the services, 
maintainers, and fleet forces to fit their operational requirements 
into that framework. It would also be beneficial to establish multiple 
beta test units/software/systems to fleet test and provide robust 
feedback before establishing a single system that is difficult to 
deviate from due to it being deeply embedded and integrated into the 
program. If this had been done with regards to the F-35 sustainment 
strategy, the current ALIS and Supply Software builds might not require 
an end to end restructure and the GSP/GAM system would be more user 
friendly, understandable, effective and tailored to fleet needs. The 
effectiveness provided by NAVAIR/NAVSEA/NAVSUP team is somewhat 
marginalized by the F-35 sustainment organization and we are currently 
working through how to re-structure the Joint Program Office to provide 
a more effective long-term solution to the current Hybrid Product 
Support Integrator model.
    General Wilson. Going forward, we need to urgently bring our best 
and brightest 5th generation acquisition, sustainment, operations, 
logistics and maintenance experts, who have learned the hard lessons 
first hand, into the earliest stages of new development programs. There 
is a DoD trend to keep new system development sterile from legacy 
platform experience. The advantage of this approach gives the planning 
team a blank slate, free from any platform bias, to develop new 
capabilities. This way of thinking has allowed the Air Force to develop 
the most capable and powerful aircraft in the world. It has also 
created an environment where we have repeated some acquisition and 
sustainment mistakes, resulting in cost overruns and avoidable 
sustainment challenges. It is clear that we need to take steps now to 
bring recent experience to our developing capability programs. 
Additionally, we must consider greater emphasis on logistics and 
affordability from the start in any new major capability development. 
Warfighter needs will remain the focus with early consideration of life 
cycle costs for affordability.
                        supply chain improvement
    21. Senator Perdue. General McConville, Admiral Moran, General 
Walters, and General Wilson, many of our readiness issues, especially 
in aviation, are due to a lack of spare parts and the length of time it 
takes for a mechanic to order and to receive spare parts so they can 
actually do the maintenance on vehicles or weapons systems. The slow 
supply chain is unacceptable. Meanwhile, China's industrial base can 
produce just about anything in a very short time. We should look very 
hard at those supply chains to make them better and more competitive. 
Can you speak to the current problems with our supply chains--
especially concerning maintenance and spare parts?
    General McConville. Currently, the Army is experiencing challenges 
in the supply chain for ground vehicle maintenance and repair parts. 
Army aviation is influenced less by lack of repair parts than Army 
ground fleets. For our heavy ground fleets, the fluctuating repair part 
demands over the past several years have complicated requirements 
forecasting; we have refocused on training for major heavy armor 
engagements while executing predominantly wheeled vehicle deployments 
in Iraq and Afghanistan. Since the U.S. Army is the sole consumer of 
most of these military grade repair parts, some of the supply sources 
have atrophied. Army leadership is engaged in reenergizing commercial 
vendors that in some cases shifted their business objectives to a more 
fruitful and dependable customer base. Maintaining numerous suppliers 
for military repair parts ensures depth and a warm industrial base. The 
Army will continue to address industrial base capacity while remaining 
cognizant of fiscal concerns.
    Admiral Moran. The wholesale supply system is built to achieve an 
overall supply availability of 85 percent. Wholesale availability, 
combined with shipboard and planeside stocks, achieves a 94 percent 
first pass effectiveness in sourcing parts from the supply system. This 
long-standing goal represents the optimum balance between cost and 
supply chain effectiveness. Within the population of supported 
platforms and weapon systems, there exists variation of supply 
availability. Where systems fall short of this aggregate goal, there 
are several key challenges that help explain these gaps in supply 
availability. The following challenges are further aggravated by 
today's readiness environment to balance prior years' underfunding of 
sustainment enabler accounts, increased operational requirements, 
accelerated squadron stand-ups, platform growth, and service life 
extension of legacy platforms:

    <bullet>  Lack of synchronized programmatic support elements prior 
to fielding a new weapon system:
      o  Many supply challenges arise from a lack of key programmatic 
Integrated Product Support (IPS) elements and investment in areas such 
as timely and accurate provisioning data, fully resourced Interim 
Supply Support periods, timely depot stand-up, engineering sustainment, 
training, field support, maintenance planning, etc. Shortfalls within 
these IPS elements ultimately manifest in degraded supply performance.

    <bullet>  Atrophy in Organic Industrial Base:
      o  The market basket of components repaired at our Fleet 
Readiness Centers (FRC) today compared to FRC workload 10-15 years ago 
is significantly reduced. Skilled manpower, aging equipment, facilities 
and lack of new capability for newer platforms and systems have played 
a role in reduced component production and throughput.

    <bullet>  Commercial Industrial Constraints:
      o  Several factors contribute to extended sparing timelines pre/
post contract award, many of which are unique to the component being 
procured. A majority of aviation related components are sole-sourced to 
a single vendor. This limitation, along with competing requirements 
(production versus sustainment), ``warm'' (Super Hornet) versus 
``cool'' (AV-8B & Legacy Hornet) production lines, production 
complexity, sourcing of forgings and raw materials, availability of 
tooling and fixtures, and contract type(s), among others, can drive 
uncertainty into sparing efforts.

    <bullet>  Obsolescence and Diminishing Vendor Base:
      o  Lack of data rights hampers our ability to establish multiple 
spare and repair sources, augment capacity, increase vendor throughput, 
reduce lead times and mitigate obsolescence challenges during 
sustainment. Additionally, the length of time a weapon system is in 
service forces us to contend with a diminished vendor base as companies 
leave the business and equipment becomes obsolete.

    <bullet>  Unplanned Reliability:
      o  New weapon systems are often fielded with overly optimistic 
engineering failure rates. This drives inadequate initial sparing 
requirements and provides little back up in the wholesale system to 
quickly adjust and react.

    <bullet>  Service Life Extension of Aging platforms:
      o  Sustaining aircraft beyond intended service life results in 
life-limited components incurring extensive lead time to restart cold 
production lines. Restarting cold production lines, when it's even 
possible, can be extremely expensive. Obsolescence issues often 
preclude new production without engineering redesigns.

    <bullet>  Inventory Investment:
      o  Even under the best of circumstances, timelines for 
procurement or repair of components for the Fleet's highly-complex 
ships and aircraft are too long to support readiness requirements 
without a sufficient level of inventory on hand. This starts with the 
critical initial procurement of repairable components when a weapon 
system is fielded, and continues throughout the sustainment phase. 
During sequestration, key readiness accounts were underfunded in some 
cases by 50 percent of the amount necessary to sustain the force. 
Tradeoffs were made in parts procured and repaired, which ultimately 
impacted the availability of parts to support our ships and aircraft.

    <bullet>  Digital Modernization and Supply Chain Modeling:
      o  In an effort to achieve greater real-time analysis of supply 
requirements and enhance supply chain responsiveness, the service 
Logistics IT functional managers are evaluating the use Product 
Lifecycle Management Systems linked with industry partners and 
delivered, mature Technical Data Packages. However, increasing the 
effectiveness of our Information Technology that supports supply chain 
modeling and asset management has been slowed by sequestration and 
reduction in spending for modernization and research and development of 
supply modeling technology.

    General Walters. Today's MAGTF is equipped with precision 
munitions, world-class communications and state-of-the art weapon 
systems, but these capabilities do not reduce our requirement to move 
large amounts of fuel, water and ammunition throughout the battlespace. 
On the one hand, our current inventory of aircraft, vehicles and weapon 
systems is more lethal, maneuverable and survivable than any time in 
our history. On the other hand, these systems are heavier and more 
logistics intensive. Success in this hybrid era will also require 
efficiency and sustainability in austere environments. We must 
modernize our supply and maintenance capabilities. For these reasons, 
we believe we are in an era of hybrid logistics, where we must continue 
to meet perennial demand requirements, while at the same time working 
to evolve our supply and maintenance, lift and distribution, medical, 
and other logistics capabilities to enhance the endurance, reach and 
overall effectiveness of the 21st Century MAGTF.
    General Wilson. The supply chain has experienced stable and 
consistent customer response times despite having less inventory on the 
shelf. Across the Air Force we experience a major supply breakdown, 
where we do not have a part anywhere in the supply chain, .02 percent 
of the time (200 orders a month against a 70,000 monthly order 
population). One quarter of these major supply failures (50 orders a 
month) are parts that have not failed previously and highlight the 
challenges of maintaining an aging aircraft fleet.
    Maintenance manpower is equally important to sortie production. As 
a result of sustained and sufficient manpower, our aircraft maintainers 
are becoming more effective each day. Because the average aircraft age 
is 27 years, from time to time we will experience difficult repair 
requirements which often will stress our supply and repair capacity. 
However, we have continued to invest in improving on-hand stocks at 
base level and making our maintainers more effective during each 
maintenance task.

    22. Senator Perdue. General McConville, Admiral Moran, General 
Walters, and General Wilson, what are you doing or recommend to be done 
to improve the efficiency of our supply chains?
    General McConville. The Army is implementing a number of 
initiatives to increase efficiency and effectiveness of the supply 
chain. We are focusing on forecasting effectiveness of required 
supplies by improving our forecasting methodology. Improvements will 
address refining the accuracy of sporadic demands and fluctuating 
quantities. We also increased funding flexibility by providing Life 
Cycle Management Commands with the majority of their annual funds at 
the beginning of the fiscal year. This allows item managers greater 
flexibility in planning while mitigating any effects associated with 
fiscal interruptions.
    Senior Army leadership has increased engagement with industry 
partners to improve relationships and supply chain effectiveness. This 
supports the Army's ability to increase stockage levels of key 
readiness driver items that typically suffer from long acquisition 
times.
    We have designed and implemented a revised repair parts stocking 
methodology within our brigade combat teams. The change has decreased 
repair part wait times, reduced fiscal churn, and begun to stabilize 
the demand signal from the tactical level to the strategic base.
    The Army continues integrative efforts with the Defense Logistics 
Agency (DLA) to streamline the supply chain. Pilot programs at Fort 
Carson, Colorado, and Anniston Army Depot seek to optimize warehousing 
space, reduce repair cycle times, and lower Army-owned inventory costs. 
The Army is also pursuing increased system integration with DLA to 
shorten repair part procurement timelines.
    These initiatives are designed to improve materiel readiness rates 
through a more robust, responsive, and efficient supply chain.
    Admiral Moran. Leveraging Data and Innovation to Improve Supply 
Chain Effectiveness: In an effort to tackle some of our most complex 
supply challenges, NAVSUP Weapon Systems Support (WSS) is aggressively 
evaluating our command's utilization of existing logistics management 
systems, as well as investing in innovative IT solutions that will 
advance supply chain digital initiatives and streamline our business. 
We are rapidly refining and expanding the use of Logistics Cell 
(LOGCELL), incorporating the use of other Government and Commercial IT 
platforms (e.g., VECTOR, AMDB, CAST, and FCOE) into our daily 
processes, overhauling how we communicate across the aviation readiness 
value chain, and aligning to the DoD's overarching LOG IT vision. 
Additionally, NAVSUP WSS is finding new ways to leverage these tools 
and available data (i.e., Supply Chain End-to-End, Production 
Financial, and Critical Line-Item Reviews) to achieve high-velocity 
learning, improve requirements forecasting and data integrity, to 
enhance our responsiveness and capability across readiness 
stakeholders.
    Infusion of Logistics Cell (LOGCELL): One key initiative noted 
above is the Logistics Cell (LOGCELL) collaboration concept, which 
aligns supply chain metrics to Fleet readiness and creates a single 
accurate view to aid timely decision making and streamline logistical 
processes. This single view enables real-time collaboration with our 
DLA and commercial providers, ultimately expediting needed materials to 
the Fleet.
    ``Right-Sizing'' the Commercial and Organic Component Supplier 
Base: NAVSUP WSS and DLA, in partnership with the Engineering 
Maintenance and Supply Chain Leadership Team are pursuing multiple 
efforts to increase capacity across the support provider network to 
meet current and future aviation material requirements. Efforts include 
standing-up secondary sources, reviewing and reallocating engineering 
resources and authorities, licensing agreements, revising material 
acquisition processes and strategies, and strengthening partnerships 
with the Fleet, SYSCOMs, industry and organic depots. By focusing on 
transparency, open communication, and knowledge sharing, we our 
optimizing supply support to make the most of our available resources.
    Strategic Sourcing: Numerous efforts are underway to optimize long 
term performance based strategic contracts to increase material 
availability and incentivize Prime Contractors and Original Equipment 
Manufacturers (OEMs) to improve system reliability. Approximately one-
third of NAVSUP WSS aviation requirements are supported via performance 
based contracts and we are continuing to evaluate additional 
opportunities to expand this effort.
    Logistics Engineering Change Proposals: NAVSUP WSS is committed to 
making Navy Working Capital Investment to improve reliability and 
maintainability, while reducing supply support costs, to ultimately 
enhance or provide additional capability to the end user. This is 
achieved through engineering initiatives to extend service life of an 
item, introduce a new enhanced replacement item or changes to the Level 
of Repair Analysis to increase efficiency and supply responsiveness.
    Supply Chain Levers: NAVSUP WSS, in collaboration with NAVAIR, 
COMFRC, and DLA, is developing a ``Supply Chain Levers'' strategy for 
the NAE to address component repair throughput at the Fleet Readiness 
Centers. Major action items address aged Work in Process at 
intermediate and depot level; eight-quarter forecasting; piece part 
supportability analysis for eight quarter forecast; Repair Turn Around 
Time accuracy; sub-routing minimization and capacity and capability 
assessments inclusive of manning, benches, and facilities.
    Component Find and Fix Team (CFFT): NAVSUP WSS executed a services 
contract with Price Waterhouse Coopers to leverage industry best 
practices. PWC is comprised of subject matter experts in the functional 
areas of supply chain management, maintenance, and engineering. The 
charter of the team is to identify individual components driving 
readiness degradation across the fleet, develop solutions that provide 
immediate relief to the warfighter, and implement improvement 
initiatives that address systemic issues in the long term. The CFFT 
methodology merges extensive forensic data analytics with onsite fact 
finding to separate myth from fact and isolate the root causes of 
material shortfalls. The true value of the CFFT effort comes from its 
enablement of collaboration across organizational boundaries to focus 
cross-functional stakeholders on the objective shared by all: getting 
components back into the fight.
    General Walters. In the future battlefield, we will still need to 
move large amounts of sustainment, but we will optimize tactical 
distribution with unmanned platforms, flatten the supply chain with 3D 
printing, and enhance preventive and predictive supply/maintenance with 
sense and respond logistics. We will extend the MAGTFs operational 
reach and capacity with a blend of ``old and new'' logistics. State-of-
the-art logistics C2/IT, enabled by artificial intelligence will bring 
this vision to fruition. We see a future where the very nature of the 
supply chain is disrupted in a positive way. We envision a flattened 
supply chain with 3D capability arrayed in key forward operational and 
tactical locations, ready to manufacture ``good enough'' parts for 
emergent operational requirements. Through ``sense and respond'' 
logistics, we will have the ability to create predictive maintenance 
capability with our ground equipment that will save many man-hours in 
recovery and maintenance costs while enhancing supply-chain 
responsiveness.
    We are developing Expeditionary Logistics systems with the 
following attributes:

    <bullet>  A Hybrid mix of legacy and evolving 21st Century 
logistics capabilities:
      o  Additive manufacturing (3D printing).
      o  Unmanned air and ground capabilities.
      o  Sense and respond logistics.
      o  Expeditionary medicine.

    <bullet>  From the sea, and naval in character:
      o  Sea-based logistical capabilities.
      o  Connectors, platforms and processes.
      o  Integrated naval operating concepts.

    <bullet>  Flexible and expeditionary:
      o  Enable multi-domain fire and maneuver.
      o  Operate in austere environments.
      o  Reduce individual combat load and requirements for the ``big 
three'' (water, fuel and ammunition).
      o  Increase and streamline lift and distribution.
      o  Leverage modular logistical capabilities.

    <bullet>  Innovative, adaptive and versatile in thought-practice:
      o  Cross-training and certification in multiple MOSs.
      o  Training for today; educating for tomorrow.
      o  Developing leaders at all levels able to think, anticipate and 
act, often independently.
      o  Every marine is a logistics producer.

    <bullet>  Resilient and analog-capable C2:
      o  Logistics C2 ``immunized'' against cyber/EW threats.
      o  Seamless transition to manual/analog C2.

    <bullet>  Data-driven:
      o  Predictive analytics to increase readiness.
      o  Resource allocation through artificial intelligence.
      o  Marines & their gear tracked in ``real time''.

    General Wilson. The Air Force has prioritized restoring readiness 
and lethality to the force. We are doing this in our supply chain by 
centralizing the global management of logistics support requirements at 
the Supply Chain Operations Wing located at Scott AFB. This 
centralization gives us the ability to determine, prioritize, and 
reallocate resources to deliver the right part or equipment item to the 
right place at the right time while controlling costs. Inventory 
investments have been made to increase aircraft availability and 
restore training operations for pilot training with focused efforts on 
T-38, F-15, F-16, A-10 and F-22 platforms. All of these efforts are 
predicated on sufficient, predictable, and consistent funding which 
gives the Air Force stability to continue restoration efforts for the 
maintenance workforce and supply chain.
                military construction and infrastructure
    23. Senator Perdue. General McConville, Admiral Moran, General 
Walters, and General Wilson, what infrastructure issues are you facing 
that impact our readiness?
    General McConville. The Army has taken risk in infrastructure to 
fund higher warfighting priorities. We have about 34,000 facilities in 
poor and failing condition, and have made great strides over the past 
year identifying which of these most affect unit readiness. We will use 
this information to focus infrastructure investment on barracks, 
airfields, training areas and maintenance facilities. Sustained, 
adequate and predictable funding will help restore these facilities and 
allow the Army to maintain its critical infrastructure.
    Admiral Moran. Over the past several years, Navy took a deliberate 
level of risk in shore infrastructure investment to resource critical 
warfighting readiness and capabilities. To mitigate this risk, the Navy 
targeted its limited resourcing on sustaining mission-critical 
facilities, allowing other facilities to degrade at an accelerated 
rate. The current facilities maintenance backlog across the Navy is 
$14.3B. Although we have taken measures to prevent degradation to 
mission-critical facilities, this maintenance backlog affects sailors' 
ability to train, their quality of life, and often requires operational 
workarounds, such as waivers, temporary facilities, or inefficient 
processes.
    General Walters. Our installations are platforms upon which our 
marines live and train and from which our units launch and recover. 
They are the platforms that generate our readiness. Though the Marine 
Corps has made significant progress in replacing old and unsatisfactory 
infrastructure, reduced funding availability will have long term 
impacts on support to training, operations, logistics, and ultimately 
readiness.
    Underfunding MILCON leads to the deferment of critical 
infrastructure required to support training, operations, and logistics. 
Further, it limits the capacity of our Installations to serve as 
training, sustainment, and deployment platforms. MILCON is also needed 
to enable the fielding of new capabilities, including the F-35. Without 
MILCON funding, the realization of these capabilities will not happen.
    Current Restoration and Modernization funding levels will only 
allow the Marine Corps to address potential life/safety/health 
requirements and invest in mission critical facilities. We will be 
forced to take risks in non-operational facilities such as quality of 
life (QOL), warehousing, maintenance/production, administrative, and 
some mission relevant training facilities and utilities infrastructure. 
This will result in increased long-term costs to restore these 
facilities back to current conditions.
    Facilities Sustainment funding is intended to ensure that 
facilities can be effectively used for their designated purposes. 
Currently facilities sustainment is funded to 80 percent of the 
requirement. Underfunding facilities sustainment increases the rate of 
degradation of Marine Corps infrastructure, which leads to more costly 
repairs, restoration, and new construction in the future.
    General Wilson. Air Force installations are our power projection 
platforms, crucial enablers to readiness and lethality in air, space 
and cyberspace. As such, operational facilities capable of mission 
generation are vital to our success as a force.
    As of 2018, the Air Force has identified approximately $33 billion 
in deferred maintenance and repair. This includes facilities and 
facility systems which have reached the end of their regular life 
cycle, as well as, repairs to failed or failing systems due to 
inadequate preventative maintenance over many years. Reversing the 
trend of growth in deferred maintenance would take significant 
additional investment over many years.
    Some near-term examples of needed facility and infrastructure 
investment which directly enable readiness and lethality include:

    <bullet>  Aircraft hangar fire suppression systems at Nellis Air 
Force Base, Nevada; Dyess Air Force Base, Texas; Shaw Air Force Base, 
South Carolina; and Columbus Air Force Base, Mississippi (among others) 
at a cost of more than $24 million.
    <bullet>  Utility transfer and disconnect switches for remotely 
piloted aircraft mission facilities at Creech Air Force Base, Nevada 
($8 million).
    <bullet>  Combat Arms firing range repairs at Joint Base Langley-
Eustis, Virginia ($3 million).
    <bullet>  Airfield pavement and lighting repairs at Joint Base 
Elmendorf-Richardson, Alaska ($18 million).
    <bullet>  Electrical distribution system repairs which support Air 
Mobility Command and US Transportation Command operations centers at 
Scott Air Force Base, Illinois ($5 million).

    Despite these challenges, the Air Force seeks to enhance readiness 
and lethality by prioritizing our limited military construction and 
infrastructure investment funding on the combatant commanders' most 
urgent needs, enabling new mission beddowns, and sustaining and 
maintaining critical mission facilities.

    24. Senator Perdue. General McConville, Admiral Moran, General 
Walters, and General Wilson, what is the way forward to address our 
infrastructure readiness issues?
    General McConville. While the Army has taken risk in infrastructure 
to fund higher priorities directly impacting warfighting readiness, we 
are methodically increasing facility sustainment levels and focusing 
infrastructure investment on readiness priorities that support power 
projection platforms, mobilization, and the warfighter. In fiscal year 
2019, we will continue to focus infrastructure funding on projects that 
most directly contribute to readiness and soldier quality of life, such 
as vehicle maintenance facilities at Fort Campbell KY; a multi-purpose 
machine gun range at Camp Ravenna, OH; Permanent Party Barracks at Fort 
Hood TX; and Training Barracks at Fort McCoy WI.
    Admiral Moran. The fiscal year 2019 budget request is an 
improvement over fiscal year 2018 levels, and the Navy continues to 
prioritize mission-critical deficiencies in our infrastructure. The 
fiscal year 2019 budget request also continues to exceed the statutory 
minimum funding requirement to modernize and improve the efficiency of 
our public Naval shipyards. While the Navy will begin to reduce the 
facilities maintenance backlog with the fiscal year 2019 budget 
request, maintaining the path to full readiness recovery will take a 
long-term commitment of resources, predictable funding and time.
    General Walters. As a result of these past resource challenges, we 
developed the Commandant-signed Infrastructure Reset Strategy to 
optimize and modernize our bases and stations. The intent of the 
Commandant's Infrastructure Reset Strategy is to provide Marine Corps 
installations that are data-driven power projection platforms, capable 
of adapting ready training venues to the evolving operating 
environment, while maintaining a high quality of life for our marines 
and their families, all at an economically sustainable rate. We will 
maximize critical capabilities, minimize total life cycle cost, and 
better enable operating force readiness. Congressional support and 
continued funding of the Infrastructure Reset strategy will improve the 
operational readiness of the Marine Corps.
    General Wilson. Installations, the Air Force's power projection 
platforms, are a critical component of readiness and lethality. We need 
stable and predictable budgets going forward to address infrastructure 
readiness. The fiscal year 2019 budget proposes to fund new 
construction at various installations and sustain our existing 
infrastructure.
    Based on our fiscal year 2019 level of investment, we know we have 
facility maintenance and repair requirements that will go unfulfilled 
and that our accumulation of deferred maintenance will continue to 
grow. We minimize impacts to missions through the use of analytical 
tools that give us greater fidelity in how risk is manifesting itself 
today, as well as how we predict it will impact our facilities and 
infrastructure in the future.
    Importantly, while we believe the current facility investment rate 
is a sound decision amid the many competing and higher budget 
priorities, we do not view the current investment rate as sustainable. 
We have developed new visualization tools to support our facility 
investment decision making as we enter into the internal Air Force 
budget deliberations for fiscal year 2020 and beyond.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                       maritime security barriers
    25. Senator Shaheen. Admiral Moran, there have been concerns 
regarding the survivability, reliability, and long-term cost-
effectiveness of existing U.S. Navy (USN) port security barriers, 
particularly the survivability of the barriers in high-threat 
environments. Have the existing port security barriers been tested to 
withstand an attack by a high-speed vessel, to include a vessel laden 
with explosives?
    Admiral Moran. Current intelligence and threat analysis confirm 
Navy's existing port security barrier systems meet the operational 
requirements necessary to protect our ships in port. The existing port 
security barriers were tested to withstand an attack by a high-speed 
vessel during the design validation process. The testing did not 
include a vessel laden with explosives.

    26. Senator Shaheen. Admiral Moran, have there been any reports of 
existing port security barriers being used to protect USN facilities 
capsizing during inclement weather, which would temporarily render them 
less effective until they can be repaired?
    Admiral Moran. Yes, there have been isolated instances of barriers 
capsizing in 1 of 24 Navy locations. In particular, the existing port 
security barriers in Norfolk have had issues due to local site 
constraints, operational tempo and environmental conditions. In the 
rare occasion that a port security barrier is inoperable, installation 
security and port operations departments have effective mitigation 
strategies in place to ensure the continuous protection of Navy vessels 
in port.

    27. Senator Shaheen. Admiral Moran, has the Department of the Navy 
conducted a long-term cost analysis to compare existing USN port 
security barriers to commercially-available maritime barrier systems 
that meet existing USN requirements?
    Admiral Moran. The current Navy port security barrier system is a 
commercially-available product that meets Navy requirements. In the 
next year, Commander Navy Installations Command will oversee a pilot 
project at Naval Station Norfolk to test next-generation barrier 
capabilities in an operational environment and gather actual operations 
and maintenance data. Navy will use the data from this pilot to produce 
a Navy cost analysis within three months of the pilot's completion.
                            cyber readiness
    28. Senator Shaheen. General McConville, Admiral Moran, General 
Walters, and General Wilson, according to a recent news article, the 
commander of Naval Information Forces, Admiral Matthew Kohler, said 
that the Navy's overworked information technology (IT) teams need new 
``virtual training tools'' and more time to train, especially for all-
out cyber/electronic warfare against a high-end adversary. Admiral 
Kohler likened the Navy's IT workforce situation to that of the recent 
ship collisions in the Pacific in that these ships were operating all 
the time to meet mission demands, but were cutting corners on training 
and safety certifications. Admiral Kohler is concerned about the 
assumption that if IT professionals are operating all the time, they 
are getting all the practice they need and forego valuable training. I 
recognize that this is a Navy example, but I'd like to hear from each 
of you about the state of readiness of your respective IT 
professionals. How are you ensuring that training is maintained and 
what, if any, tools or resources do you need to ensure the IT workforce 
is up to date on the latest cyber related technology and training?
    General McConville. Readiness is the Army's number one priority and 
overall Army readiness is critically enabled by our network readiness. 
The Army follows common DoD standards to baseline training requirements 
for the IT workforce. Following initial schooling, the IT workforce 
utilizes online training courses for Information Technology and 
cybersecurity certification to assist soldiers and civilians in 
maintaining readiness. The Army continues to enhance the training 
facilities at Fort Gordon to enable state of the art capabilities for 
training both offensive and defensive operations. Additionally, the 
Persistent Cyber Training Environment, if funded as requested, will 
ensure our soldiers are initially trained to achieve mission readiness 
and subsequently are able to maintain mission readiness through 
recurring individual qualifications and collective training and 
certification events.
    Admiral Moran. The Navy is investing in realistic virtualized 
environments in which to train our cyber and IT workforce. 
Specifically, SPAWAR is developing a virtual training environment for 
training (VE4T) on the Consolidated Afloat Network and Enterprise 
Services (CANES) Network. This will allow training to be delivered to 
any of the Navy standard schoolhouses via a network connection.
    Additionally, for the Navy Cyber Mission Force (CMF) teams, U.S. 
Cyber Command (USCC) mandates Joint Cyberspace Training and 
Certification Standards, which encompass procedures, guidelines, and 
qualifications for individual and collective training. Most of the 
training today is delivered by USCC and the National Security Agency 
(NSA) in a federated but integrated approach that utilizes existing 
schoolhouses and sharing of resources. CMF training specifically 
involves 54 role-specific, intermediate through advanced training 
pipelines using a mix of nearly 100 Joint, NSA National Cryptologic 
School (NCS), and multi-Service courses to prepare officers, enlisted 
and civilians for their CMF work roles. These training events are not 
only aimed at the individual sailors, but also provide operational team 
certifications and sustainment training. Once certified, our team 
training is maintained throughout the year via several key unit level 
exercise events which allow individuals and the collective team to 
demonstrate required skills against simulated adversaries. U.S. Fleet 
Cyber Command/U.S. Tenth Fleet (FCC/C10F) augments the required USCC 
training pipeline in two ways--online skills development and the 
provision of supplemental academics.
    Navy Information Technology forces have a mature training path 
covering network operations and network defense that is integrated with 
the network system's technical authority and covers training 
opportunities prior to and during deployment cycles. Individual 
training for network professionals occurs within the Navy's Education 
and Training system and includes fundamental skills, Journeyman and 
Advanced level network security skills, and individual system 
operations training. Each of the higher level training sets were 
created and are maintained in currency based on a partnership between 
the Navy's training domain and the acquisition community. Further, a 
partnership has been formed to include technical authority influence on 
fundamental system administration skills. Above the individual training 
level, Navy training and readiness accounts for team training and 
readiness through all phases of deployment and operations.
    Navy organic Defensive Cyber Operations (DCO) forces make use of 
much of the same training pipeline that is available to forces 
associated with CMF. While their initial fundamental training paths are 
the same, and they have access to the additional training sponsored 
under USCC, their individual training mandate is maturing. The need for 
additional resources to assure higher level individual skills training 
is under evaluation by the Navy resource sponsor staff. It should be 
acknowledged that the individual skills required for Navy DCO are 
similar to those required for CMF.
    Using the DoD's Enterprise Cyber Range Environment (DECRE) 
resources, provided by the Joint Staff, FCC/C10F utilizes Joint 
Information Operation Range nodes (JIOR) to connect CMF teams with 
ranges which are representative of shipboard networks. These networks 
are used for mission rehearsal platforms and to augment individual 
training for various team work-roles. FCC/C10F has also invested in a 
web-based individual and collective training platform, to augment the 
academic portions of the USCC training pipeline with hands-on skills 
development. The Persistent Cyber Training Environment (PCTE), managed 
by the Department of the Army, is expected to incorporate similar 
distributed training methodologies in module-based systems. When 
necessary, teams seek out and receive additional training based on work 
roles or specific mission requirements.
    From a formal educational perspective, to develop officers to 
succeed in the increasingly complex cyberspace environment, the Navy 
offers the following opportunities for cyber development:

    <bullet>  The U.S. Naval Academy requires introductory cyber 
courses for all freshman and juniors to baseline knowledge. 
Additionally, USNA began a Cyber Operations major in the Fall of 2013. 
Furthermore, the Center for Cyber Security Studies harmonizes cyber 
efforts across the Naval Academy.
    <bullet>  Our Naval Reserve Officer Training Corps' program 
maintains affiliations at 51 of the 180 NSA Centers of Academic 
Excellence at colleges around the country. Qualified and selected 
graduates can commission as Cryptologic Warfare Officers, Information 
Professional Officers, or Intelligence Officers within the Information 
Warfare Community.
    <bullet>  For graduate-level education, the Naval Postgraduate 
School (NPS) offers several outstanding graduate degree programs that 
directly underpin cyberspace operations and greatly contribute to the 
development of officers and select enlisted personnel who have already 
earned a Bachelor's Degree. These degree programs include Electrical 
and Computer Engineering, Computer Science, Cyber Systems Operations, 
Applied Mathematics, Operations Analysis, and Defense Analysis. In 
addition, NPS tenure track professors are required to conduct research 
in their respective areas of expertise; this research keeps them up to 
date and enhances their professional credentials while informing the 
curricula they teach and offering research and thesis opportunities for 
their students.
    <bullet>  The Naval War College is also incorporating cyber into 
its strategic and operational level war courses, at both intermediate 
and senior graduate-course levels. The College also integrates 
strategic cyber research into focused Information Operations IO/
Cybersecurity courses, hosts a Center for Cyber Conflict Studies (C3S) 
to support wider cyber integration across the College, and has placed 
special emphasis on cyber in its war gaming role.

    General Walters. The Marine Corps is responsible for 13 of 
USCYBERCOM's 133 Cyber Mission Force (CMF) teams: one National Mission 
Team (NMT), eight Cyber Protection Teams (CPTs), three Combat Mission 
Teams (CMT), and one Cyber Support Team (CST). These 13 teams are 
aligned against USCYBERCOM (Cyber National Mission Force), USSOCOM, and 
Marine Corps missions. Three of the eight CPTs are service retained and 
oriented to service missions, (23 percent of the total Marine Corps 
CMF).
    Of our 13 teams, nine teams have reached and four teams remain at 
Initial Operating Capability (IOC). All 13 teams are scheduled to reach 
FOC in fiscal year 2018. It's important to note, that all 13 teams 
designated as having reached IOC are employed against real-world 
problem sets and are fully engaged in supporting the mission. It is 
also important to note that achieving FOC is also not an indication 
that work is done. We must continually ensure we are training and 
sustaining the force to ensure we remain agile, adaptable, and ready to 
defeat all enemies.
    To that end, we are moving forward with the creation of a 
cyberspace occupational field. We have learned a great deal in the past 
several years about the training, clearance, and experience 
requirements across the cyber mission force. We know that in order to 
be effective, we must retain a professional cadre of cyberspace 
warriors who are skilled in critical work roles, and we know that many 
of our marines desire to remain part of the cyber work force. The 
Commandant has told us to move out, and we are planning with 
Headquarters, Marine Corps (HQMC) to design a cyberspace occupational 
field to address offensive and defensive team readiness requirements. 
We intend to begin assigning marines to the cyberspace MOS in fiscal 
year 2018. This will significantly improve both readiness and retention 
of the force.
    This year the Marine Corps continued its initial investment in 
specialized tools for defensive cyberspace operations. The Deployable 
Mission Support System (DMSS) hardware and software tools comprise the 
weapons system CPTs use to meet any mission they may be assigned, from 
readiness and compliance visits to incident response or Quick Reaction 
Force missions. This year, we championed an ability to conduct split 
based operations with the DMSS, enabling the CPT lead to forward deploy 
a small element and push information back to a home station ``war 
room'' for remote analysis and remediation. This initiative and concept 
of employment will reduce deployed time and costs and increase our 
ability to collaborate more freely with other CPTs or across the 
mission force.
    We are rapidly establishing relevant operational capability in 
support of the warfighter. We have experienced tremendous growth in 
operational capability over the past year as we have fully supported 
the delivery of operational cyberspace effects under Joint Task Force 
Ares, a USCYBERCOM led effort designed to support C-ISIS efforts in 
U.S. Central Command (USCENTCOM). Our Joint Force Headquarters is 
providing relevant support to more fully integrate planning cyber 
operations, intelligence and fires, and we continue to refine 
procedures with each exercise and operation we support. On the defense, 
our CPTs are contributing to Cyber National Mission Force priorities 
around the globe, and at USSOCOM. Across USCYBERCOM, marines are at the 
point of friction, increasingly relevant and eager to contribute to the 
fight.
    We are also Active participants with other Service components and 
USCYBERCOM in a variety of new processes, infrastructure and tool 
development, acquisition initiatives, training transition, and Tactics, 
Techniques and Procedures (TTP) development for the CMF. We know we 
must continually adapt, innovate, and change to meet future threats.
    Additionally, at the service level, the Marine Corps Cyber Range 
(MCCR) provides the service the ability to conduct realistic, cyber-
related training, offers tailored cyber effects to unit exercises, and 
provides the means to conduct radical / aggressive cybersecurity 
testing on products and capabilities in deployment configurations 
without risk to the Marine Corps Enterprise Network. MCCR is a critical 
component of the 06xx Force Modernization. By leveraging the MCCR, we 
provide a distance education and virtual learning capabilities and more 
specifically a `live-fire' cyber range to support the Marine 
Expeditionary Force (MEF) Information Group and improves training and 
TTPs, and increases effectiveness of cyber effects.
    General Wilson. The Air Force has similar concerns with its 
Information Technology (IT)/cyber workforce. High operational tempo, 
coupled with manpower shortages, especially in our mid-grade officer 
and enlisted ranks, and retention of civilian talent due to retirements 
and exits to industry, have stressed the force. To address training and 
readiness of our cyber forces, the Air Force has integrated cyber into 
operational exercises to hone skills, enhance readiness, and work 
jointly with our Air, Land, Maritime, and Space forces. Additionally, 
we are transitioning from front-loaded training at the beginning of an 
airman's career to initial apprentice level fundamentals followed by a 
career long continuum of training. Furthermore, because the Air Force 
is implementing Enterprise IT as a Service and re-missioning airmen 
from IT support to Cyber Mission Teams, we will require a robust 
learning/training management system, as well as expansion of our cyber 
training ranges, additional secure classrooms, and more instructor 
billets to support increased training throughput and effectiveness.


 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
               2019 AND THE FUTURE YEARS DEFENSE PROGRAM

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                           U.S. Senate,    
                  Subcommittee on Readiness
                            and Management Support,
                               Committee on Armed Services,
                                                    Washington, DC.

THE HEALTH OF THE DEPARTMENT OF DEFENSE INDUSTRIAL BASE AND ITS 
         ROLE IN PROVIDING READINESS TO THE WARFIGHTER

    The subcommittee met, pursuant to notice, at 2:32 p.m. in 
Room SR-232A, Russell Senate Office Building, Senator James M. 
Inhofe, presiding.
    Subcommittee members present: Senators Inhofe, Rounds, 
Ernst, Perdue, Kaine, and Hirono.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. The Subcommittee on Readiness will come to 
order.
    The subcommittee meets today to discuss the health of the 
Department of Defense (DOD) organic industrial base and their 
crucial role in providing readiness to the warfighter.
    You know, General Levy, I can remember back 25 years ago 
when we were talking about the organic capabilities that we had 
to have and the reason for it. And 25 years ago, we made a 
decision that 50/50 was arbitrary and we were going to figure 
out some way to be more sophisticated. Now it is 25 years later 
and nothing has happened. But, nonetheless, it is still just as 
important as it was.
    We are joined this afternoon by Lieutenant General Edward 
Daly, Deputy Commanding General of the Army Materiel Command; 
Vice Admiral Paul Grosklags, Commander of the Naval Air Systems 
Command; Vice Admiral Thomas Moore, Commander of the Naval Sea 
Systems Command; Lieutenant General Lee Levy from Tinker and 
elsewhere; and Major General Craig Crenshaw, Commanding General 
of the Marine Corps Logistics Command. I thank all of you for 
being here. It is very significant what we are doing today.
    I would also like to thank our ranking member, Senator 
Kaine, as well as the rest of our members who represent the 
shipyard industry base so well. I trust that like last year, 
you will keep Vice Admiral Moore quite busy today.
    In February, the subcommittee received testimony from the 
service vice chiefs on the current readiness of our Armed 
Forces. We heard many troubling details about how each of the 
services is currently positioned to respond to the next global 
contingency. Simply put, we are not.
    The National Defense Strategy [NDS] provides the Department 
of Defense a new approach to ensure our national security. 
Several of the lines of effort prioritized by the Secretary of 
Defense in the strategy are directly dependent on the organic 
industry base. It forms the backbone of our NDS, and for that 
reason, it is more important than ever that our organic 
industrial base remains strong.
    Unfortunately, we are facing serious challenges. Last week 
alone, we saw five separate aircraft crashes across the 
services. That was on April 3rd and April 4th. Five of them in 
that period of time. And you know, you have to come to the 
conclusion, without any studies being made, that it is a 
combination of either training or maintenance. These are 
problems that have been suffering during the last 
administration that we are trying to correct now.
    The organic industrial base workforce is also facing 
serious challenges as it ages across the board, and there is a 
lack of skilled personnel. General Levy, you and I have talked 
about this. I think they said at the University of Oklahoma, 
you are in a position to hire every single one that they 
graduate from their engineering school. This is not just 
confined to the State of Oklahoma. We need experienced 
personnel. It is something that we are going to have to 
address. I appreciate your being here.
    I recognize our ranking member, Senator Kaine.

                 STATEMENT OF SENATOR TIM KAINE

    Senator Kaine. Thank you, Mr. Chair.
    Thanks to our witnesses. Three of you testified before us 
last year, and hopefully all five of you get promotions and you 
will not need to come back next year.
    [Laughter.]
    Senator Kaine. But it is good to have you here, and this is 
going to be an important discussion.
    Two months ago, as the chair indicated, we had testimony 
from the vice chiefs about pressing readiness challenges, and 
today I look forward to delving a little more deeply into some 
specific issues. I want to just raise two.
    First, with respect to our industrial facilities, I applaud 
the Navy for delivering the Shipyard Infrastructure 
Optimization Plan. That is very, very helpful. It is a good 
first step toward identifying necessary long-term investments 
for Norfolk, obviously I am very focused on, but the other 
three critical organic shipyards, very helpful. I will have 
some detailed questions about that. But I would like to hear 
about sort of the long-term strategy for executing on the plan.
    We did a 2-year budget deal that I am happy with. I think 
it is encouraging for the Department of Defense, but I am 
concerned about other federal agencies that support our defense 
mission. I am concerned also about the remaining 2 years of the 
Budget Control Act after 2019 and needing a bipartisan strategy 
for eliminating that burden on our defense.
    The ability to hire and train workers is probably the area 
where I am going to ask the most about. I had a little chart 
put on folks' desks. I think they have it. What this shows is 
the average experience of all who work in the Navy shipyards 
and then especially the production workers. You see over time, 
from 2006 to 2017, this average year experience is declining. I 
think that poses some challenges that I would like to hear, 
especially from the Navy, about how we deal with it.
    I thought it was interesting. We are working on the NDAA 
[National Defense Authorization Act] right now, and as we work 
on the NDAA, we ought to be thinking about these workforce 
questions. There may be things we can do in the NDAA to address 
them. I noticed, for example, that when the Trump 
administration delivered an infrastructure plan to Congress 
about a month ago, they actually within the infrastructure plan 
had some bills dealing with a trained workforce because they 
knew just investing in infrastructure, you could have whatever 
investment you wanted, but you are going to have to have 
somebody do the paving, you are going to have to have the 
structural ironworkers. They actually put workforce components 
into the infrastructure proposal that they delivered to us. 
This budget that we got--again, I think it is good for defense, 
but it also means if we are going to be ramping up investments 
in Columbia-class subs or block buying on carriers or other 
things, that workforce is going to be very, very critical.
    In the meeting that I had right before I came here, I was 
with a number of folks in the defense industrial base. If I 
just gave an open-ended question, what do you want to talk 
about, the issue that they are sort of grappling with right now 
is workforce questions. Giving them predictable funding for 
this to your budget is really helpful in that, and if that 
represents a step back toward regular order and they think that 
we are more likely to do that in the future, that will also 
help.
    But it is not just predictability funding. It is also 
strategies. I am on the Health, Education, Labor and Pension 
Committee. We are starting to work on the higher ed 
reauthorizing act. There might be some things we could do in 
the higher ed act to more vigorously promote the kind of career 
and technical training that would feed into the industrial 
base.
    So these are some of the issues that I am most interested 
in hearing you talk about today. I want to thank the chair, and 
I know we are going to have a good discussion.
    Senator Inhofe. Thank you very much, Senator Kaine.
    We would like now to have opening statements and try to 
confine them to about 5 minutes since there are five of you, 
but your entire statement will be made a part of the record. We 
will start with you, General Daly.

  STATEMENT OF LIEUTENANT GENERAL EDWARD M. DALY, USA, DEPUTY 
    COMMANDING GENERAL, UNITED STATES ARMY MATERIEL COMMAND

    Lieutenant General Daly. Good afternoon. Chairman Inhofe, 
Ranking Member Kaine, and distinguished members of the 
subcommittee, I appreciate the opportunity to testify on the 
preparedness of the Army's organic industrial base and its 
critical role in providing and sustaining warfighter readiness.
    On behalf of Secretary Esper and General Milley, thank you 
for your strong support and continued commitment to our 
soldiers, Army civilians, families, and veterans.
    I am honored to be here today with my counterparts from the 
Navy, Marine Corps, and Air Force.
    The Army's organic industrial base, the OIB, is a $14 
billion enterprise consisting of 23 ammunition plants, depots, 
and manufacturing arsenals with a workforce of over 22,000-plus 
professionals.
    The OIB delivers readiness through two key functions: depot 
maintenance and the Army's role as the Department of Defense 
executive agent for conventional munitions. The OIB possesses 
unique and critical industrial capabilities and capacity that 
is not easily replicated in the corporate sector, providing for 
immediate requirements, as well as a base from which to surge 
during periods of crisis.
    While the OIB successfully surged over the last 17 years of 
conflict, it has been largely reactive to emerging 
requirements. To be relevant for the future fight going 
forward, the OIB is now transforming and modernizing to focus 
on the output required to sustain current and future readiness.
    The Army is also improving the effectiveness of the OIB 
through readiness-driven workload forecasting, innovative 
process improvements, and partnerships and collaboration with 
the private industry.
    The Army's organic industrial base was designed to sustain 
the high volume production rates needed to meet World War II 
demand. Over the past several decades, the OIB has been reduced 
from 77 plants, depots, and arsenals to 23 facilities at 
present. Of these 23 facilities, all are at least 50 years old. 
Aging infrastructure poses a risk to the OIB's capacity and 
capability to meet current and future demands. The Army 
recognizes this and as such, has invested over $2 billion to 
modernize antiquated, unreliable, inefficient OIB facilities, 
shortfalls that affect critical systems such as the Abrams 
tank, the Stryker, the Bradley fighting vehicle, and the Apache 
helicopter.
    President Washington once said to be prepared for war is 
one of the most effective means for preserving peace. A strong, 
healthy organic industrial base directly generates the 
readiness that underpins our preparedness.
    I would like to again thank each distinguished member of 
the committee for allowing me to appear before you and for your 
continued support that enables Army Materiel Command to 
maintain and modernize the organic industrial base delivering 
materiel readiness to the joint warfighter at the tactical and 
operational points of need worldwide. Thank you.
    [The prepared statement of Lieutenant General Daly 
follows:]

        Prepared Statement by Lieutenant General Edward M. Daly
                              introduction
    Chairman Inhofe, Ranking Member Kaine and distinguished members of 
the Subcommittee, thank you for the opportunity to testify on the 
preparedness of the Army's Organic Industrial Base (OIB), its critical 
role in providing and sustaining readiness for the Warfighter, and our 
ongoing initiatives in support of its revitalization.
    On behalf of Secretary Esper and General Milley, I would like to 
express our gratitude to Congress for its strong support. As the 
Secretary outlined in his recent testimony before the House Armed 
Services Committee, we face a strategic security environment more 
complex and volatile than any we have experienced in recent memory. The 
Army stands ready to answer the Nation's call--we are a lethal and 
effective force. To maintain our effectiveness, we must continue to 
focus on Readiness, Modernization, and Reform.
    A key component of Readiness is the Army's Organic Industrial Base 
(OIB). This $14 billion enterprise consists of 23 ammunition plants, 
depots, and manufacturing arsenals, with a workforce of 22,000 
professionals. The OIB builds and maintains readiness by executing two 
key functions. The first is depot maintenance: the overhaul and rebuild 
of major systems such as the Abrams, Bradley, Stryker, communications 
equipment, weapons, and other materiel. The second function is the 
execution of the Army's role as the DOD Executive Agent for 
Conventional Ammunition. This includes the manufacture of critical 
conventional munitions, including propellants, energetics, and small 
arms ammunition. It also includes maintaining preferred munitions and 
the loading, assembling, packing, storing, outloading, distributing and 
demilitarization of munitions.
    The past seventeen years of conflict have demonstrated the value 
the OIB provides to Army readiness and to our Nation's security. The 
OIB successfully surged in order to manufacture and sustain the 
warfighting equipment needed to execute contingency operations in 
Afghanistan and Iraq. As we redeployed forces and drew down the Army 
over the past decade, workload reductions contributed to rate increases 
and inefficient operations. The OIB has been largely reactive to 
emerging requirements. This reactive model does not ensure a healthy 
organic capability to maintain core competencies and surge capacity to 
generate combat power.
    To reverse these trends requires change. Today I will discuss how 
the Army is implementing a new, proactive paradigm--one that relies 
upon a business and operational approach, rather than historical 
practice. I will also discuss how the OIB is in the midst of 
transformation as we focus on production output required to support 
sustained readiness; how we manage capabilities and capacity; and how 
we execute continuous capital investments to attain viable, modern 
state-of-the-art industrial facilities. Finally, I will discuss how we 
are improving our effectiveness through the creation of reliable 
forecasts of our workload; innovative product support; exploitation of 
synergies created between the OIB and industry through public-private 
partnerships; and streamlining depot maintenance through automation and 
continuous process improvement initiatives.
       how the oib ensures that the army is ready and maintained
    The OIB brings to bear unique industrial competencies that are not 
easily replicated in the commercial sector. These capabilities provide 
for the Army's immediate needs as well as a base from which to expand 
in times of crisis. One example within the depot maintenance arena 
resides at Watervliet Arsenal in New York. Watervliet Arsenal is the 
Army's Center for Industrial and Technical Excellence for cannon and 
mortar systems and is the Nation's only manufacturer of large caliber 
cannon barrels, breach blocks and breach rings. Another example is 
Anniston Army Depot in Alabama. Anniston returns combat readiness to 
the warfighter, resets the Army's Stryker Combat Vehicles and overhauls 
M1 Abrams Tank engines. With respect to the ammunition industrial base, 
including both organic and commercial segments, the Army has identified 
103 critical capabilities, 25 of these reside solely in the OIB. 
Radford Army Ammunition Plant in Virginia, is the only producer of 
nitrocellulose, a key compound used in making explosives. Holston Army 
Ammunition Plant in Tennessee, is the only manufacturer of High Melting 
Explosive and Research Development Explosive in the United States. 
Holston recently began production of IMX--Insensitive Munitions 
Explosive, the first in a family of ``insensitive munitions.'' 
Insensitive munitions are far more stable than conventional TNT and 
Composition B, and much safer to transport. McAlester Army Ammunition 
Plant in Oklahoma produces bombs for all the services and is the 
principal source of supply for both wartime and training requirements 
across the DOD.
    The OIB has been sustaining continuous operations since 2003. 
During this time, the OIB produced over 21 billion rounds of ammunition 
and reset over 3.9 million pieces of equipment valued at approximately 
$32 billion. Importantly, $5.7 billion of this work was in support of 
other services. This effort has positively impacted Equipment on Hand 
(EOH) readiness rates of units across the Army and assisted in the 
execution of other key readiness initiatives. One example is the Army's 
expansion and reconfiguration of Army Prepositioned Stocks (APS) around 
the globe--significantly increasing the speed of response to combatant 
commanders' requirements by reducing the amount of time it takes to 
issue the equipment to deploying units. A second example is the 
building and equipping of the Army's 15th Armor Brigade Combat Team 
(ABCT) at Fort Stewart, Georgia
    To ensure Army readiness now and into the future, the Army is 
developing a schedule-driven, depot workloading strategy that is 
directly linked to the Army's Sustainable Readiness Model. This 
approach ensures the Army's organic capabilities are focused on meeting 
its highest readiness priorities, and precious resources are optimized 
at the enterprise-level. This approach also yields a predictable and 
stable workload while providing a mechanism to continually evaluate and 
assess risk to the operating force.
    Simultaneously, we are also creating a resilient and responsive 
ammunition industrial base by analyzing storage and outload 
requirements and aligning manufacturing capability, capacity and 
modernization efforts to support it.
         improving the efficiency and effectiveness of the oib
    The Army's Organic Industrial Base was designed to sustain the 
high-volume production rates needed to meet World War II demand. Over 
the past several decades, the OIB has been reduced from 77 plants, 
depots, and arsenals to 23 facilities at present. The aging 
infrastructure poses a risk to the OIB's capability and capacity to 
meet current and future demands as well as surge to support all 
required missions. The Army recognizes that modernization is especially 
critical now and has invested over $2 billion to modernize antiquated, 
unreliable and inefficient machinery and facilities at Government 
Owned-Contractor Operated (GOCO) and Government Owned-Government 
Operated (GOGO) installations. The installation of automation and 
robotics, accompanied by upgrades to facilities and infrastructure have 
enhanced productivity. As productivity and efficiency increase we are 
seeing corresponding decreases in labor, maintenance, and utilities 
costs.
    Likewise with our manufacturing arsenals and depots--over 6 percent 
of these facilities, valued at $2.5 billion--are in substandard 
condition. The Army plans to invest over $1.8 billion, which is needed 
to address inefficiencies in lines that support critical weapon systems 
including Abrams, Bradley, Stryker, Paladin, Apache, Patriot, MRAPs and 
C4ISR.
    Coupled with modernization, the OIB has recently transitioned to 
business systems that use standard, industry-recognized processes. The 
Logistics Modernization Program (LMP) and its Complex Assembly 
Manufacturing Solution (CAMS) are applications built on commercial off-
the-shelf software for Enterprise Resource Planning (ERP) and shop 
floor integration. These tools allow the Army to completely see its 
manufacturing and service operations for the first time. These 
applications also permit the Army to improve the accuracy of its Bills 
of Materials; engage in more efficient production scheduling; enable 
interaction with its supply chain of over 11,000 first, second and 
third tier vendors; and reduce delays for parts. These capabilities 
coupled with the Army's tactical-level ERP called the Global Combat 
Support System--Army (GCSS-A), are increasing the speed at which 
materiel reaches the warfighter, and provides the Army with true 
``factory to foxhole'' asset visibility and auditability.
    The OIB is also executing a number of supply chain initiatives to 
improve its effectiveness. These include improving demand forecasting 
accuracy and imposing tougher performance standards on suppliers. The 
aforementioned efforts improve our ability to purchase, manufacturer, 
and repair critical parts required to support warfighting equipment.
               synergy through public-private partnership
    Public-private partnerships are important in assisting the OIB to 
improve Army readiness. These partnerships allow private sector 
companies to access OIB manufacturing capabilities and permit the 
Government to act as a supplier to commercial industry under certain 
circumstances. Last year, 263 partnerships across the OIB produced $412 
million in additional revenue for the Government and brought with them 
innovative ideas and best business practices.
    There are many exciting examples of these projects. Anniston Army 
Depot continues to partner with General Dynamics to reset Strykers and 
with Honeywell to recapitalize Army M1 tank engines at 25 percent of 
their original cost, saving the Government $45 million annually. Tooele 
Army Depot in Utah, has a joint venture with Safety Management Services 
(SMS), Inc., to operate an on-site commercial laboratory that tests and 
grades explosives. AM General is partnering with Rock Island Arsenal's 
Joint Manufacturing Technology Center in Illinois, and the Army 
National Guard to manufacture M997A3 HMMWV ambulances, and with Red 
River Army Depot in Texas to overhaul older HMMWV models.
    The OIB contributes $3.6 billion to local communities across the 
country and often has a positive effect on economies across multiple 
states. For example, recapitalizing the M1 Abrams Tank requires 
suppliers in 41 states; overhauling an UH-60 Blackhawk helicopter 
involves companies in 19 states; and manufacturing a single 5.56 mm 
bullet brings work to 9 states.
                     streamlining depot maintenance
    The introduction of Lean Six Sigma and continuous process 
improvement has allowed the OIB to realize $5.6 billion in cost savings 
and avoidance since 2012.
    Industrial operations require tremendous water resources and 
energy. The OIB has successfully used Energy Savings Performance 
Contracts and Utility Energy Service Contracts to solicit third party 
investment and save over $30 million annually.
    The Army is actively pursuing advanced manufacturing. Advanced 
manufacturing integrates a number of cutting edge technologies 
including robotics, artificial intelligence, computer learning and 
additive manufacturing to improve products or processes.
    Manufacturing organizations successfully employing advanced 
manufacturing share a common attribute. They have all recruited and 
retained a workforce possessing Scientific, Technical, Engineering and 
Math (STEM) skills far above the national average. This requirement 
aligns closely with those manufacturing skills required by the OIB to 
sustain readiness as it moves into the latter half of the 21st Century, 
including: materials engineers, capacity planners, chemists, test 
pilots, industrial radiograph operators, and electroplaters. Our 
laboratories and Research, Development and Engineering Centers actively 
work with local high schools and universities to support STEM 
initiatives and expose students to rewarding careers within the OIB. We 
are particularly grateful for direct hiring authorities provided by 
Congress, which enable us to more efficiently hire skilled and talented 
workers.
    Additive Manufacturing (AM) is a technology that could 
revolutionize the way in which our arsenals and depots maintain, 
repair, and recapitalize equipment. AM enables the quick replication of 
obsolete and difficult to obtain parts, this translates to reduced down 
time and higher operational readiness rates. The Army continues to 
participate in the private sector Additive Manufacturing Users Group 
which includes original equipment manufacturers. Thus far, AM 
capabilities have been installed at 18 sites across our Army. Fourteen 
are located within the OIB. Rock Island Arsenal--Joint Manufacturing 
Technology Center (RIA-JMTC) has been designated as the Army's Organic 
Industrial Base Additive Manufacturing Center of Excellence. RIA-JMTC 
is charged with establishing a data library and institutionalizing the 
most effective technologies. As we continue to explore this promising 
technology, our expectation is to deliver this capability to the point 
of need on the battlefield, getting equipment quickly back into action 
while eliminating wait time and transportation costs.
    These efforts to streamline depot maintenance have been recognized 
both inside and outside of the DOD. Collectively the OIB has earned 47 
ISO Quality Certifications, 31 Shingo Manufacturing Awards for 
Excellence, and 26 DOD Value Engineering Awards.
                                closing
    I would like to thank each distinguished member of the Committee 
for allowing me to offer this testimony today. To quote President 
George Washington, ``To be prepared for war is one of the most 
effective means of preserving peace.'' Consistent, predictable, funding 
enables the OIB to optimize resources and to best support the Army. 
Your continued support enables us to equip and sustain the best 
fighting force in the world.

    Senator Inhofe. Thank you, General Daly.
    Admiral Grosklags?

 STATEMENT OF VICE ADMIRAL PAUL A. GROSKLAGS, USN, COMMANDER, 
            UNITED STATES NAVAL AIR SYSTEMS COMMAND

    Vice Admiral Grosklags. Chairman Inhofe, Ranking Member 
Kaine, distinguished members of the subcommittee, thanks for 
the opportunity to appear before you today to talk about naval 
aviation readiness and the health of our industrial base.
    As I testified last year, naval aviation faces readiness 
challenges, and while we are making some definitive progress, 
we also have a long way to go in returning Navy and Marine 
Corps aviation to the required level of readiness across the 
force. A critical component in our efforts to achieve this 
readiness turnaround is the performance and the health of our 
organic industrial base, typically called aviation depots, but 
in our case, we call them naval aviation fleet readiness 
centers, or FRCs.
    As I discussed last year, they are continuing a steady 
recovery from years of uncertain and limited funding while 
facing an increasing workload not only driven by the continued 
high utilization of our aircraft but also by the aged and 
degraded material condition of the aircraft that are being 
inducted into maintenance.
    Today I am pleased to be able to report that fiscal year 
2017 marked the first time in over 5 years that our FRCs were 
largely able to meet the fleet demand signal for production of 
aircraft and engines. They produced 485 out of 487 expected 
aircraft, including critically meeting the requirement for 69 
F-18 A through D aircraft and delivering actually two more than 
the required or expected number of F-18E and F aircraft. This 
was done while also improving their turnaround time by 5 
percent.
    Now, over the last 2 years, I have also been able to reduce 
the number of aircraft requiring in-service depot-level repairs 
and in doing so have returned aircraft directly back to the 
fleet available for them to use to meet mission requirements.
    Now, the improved performance in these two specific areas 
are the good news. The not so good news is that our FRCs are 
not performing as needed in the area of component repair and 
overhaul, which represents about 20 percent of their workload. 
To date in fiscal year 2018, they are lagging their production 
plan, and there are a number of actions we are taking obviously 
to improve their performance in this area, including workforce 
hiring, developmental training, quality and manufacturing 
process improvements, and infrastructure upgrades. It is this 
latter area in particular, infrastructure, where the history of 
constrained resources has had the biggest negative impact and 
potentially where the additional resources identified in 2018 
and 2019 can have the biggest positive impact.
    Today, much like the Army, 50 percent of our FRC component 
test equipment--so the individual test equipment for a PC gear 
that has to be tested at the FRCs--is greater than 25 years 
old. This equipment is also housed in facilities with an 
average age of 58 years, and 64 percent of our facilities are 
actually greater than 67 years old. So think about 
Jacksonville, Florida in the summer with facilities without air 
conditioning trying to do avionics maintenance and think about 
paint hangars trying to do painting of aircraft in Norfolk that 
leak when it rains. Think about facilities dealing with 
hazardous material in North Island where the ventilation system 
fails on a weekly basis. Those are the types of things that our 
workforce is dealing with. So the modern facilities and 
equipment are vital to ensuring that our organic industrial 
facilities have the capability and the capacity to not only 
improve current performance but to support the next generation 
of aircraft engines and components such as the F-35.
    So the bottom line is that our workforce has made 
significant progress over the last 2 years, but we have a long 
ways to go and we need to take the next step by providing the 
tools and the infrastructure needed for that workforce to 
continue to improve their performance. Naval aviation 
leadership looks forward to working with this subcommittee and 
the larger Congress to achieve this end state.
    I would very much appreciate your continued support of our 
sailors and marines.
    I look forward to your questions.
    [The joint prepared statement of Vice Admiral Grosklags and 
Vice Admiral Moore follows:]

     Joint Prepared Statement by Vice Admiral Paul A. Grosklags and
                      Vice Admiral Thomas J. Moore
    Mr. Chairman, Ranking Member Kaine, and distinguished members of 
the Subcommittee, we appreciate the opportunity to testify on organic 
industrial base issues, the current state of Navy readiness, the 
progress we have made over the past year and the challenges we face 
today and in the future. Before we begin, we would like to thank 
Congress for your support of the Bipartisan Budget Act of 2018 and the 
fiscal year (FY) 2018 Consolidated Appropriations Act. This legislation 
provides the predictability and stability in funding that allows us to 
continue the work we started in fiscal year 2017 to restore the Navy's 
organic industrial base.
    Our Navy provides the Nation with timely, agile, and lethal options 
to win wars, deter aggression and maintain freedom of the seas. Today's 
dynamic maritime environment, coupled with proliferating threats from 
Nation-state actors and terrorist organizations, requires a global 
presence of Naval forces not seen in the past 25 years. However, as a 
result of Budget Control Act (BCA) funding caps, years of Continuing 
Resolutions, and associated budget uncertainty, the Navy has been 
challenged in its ability to adequately address the full range of 
investments required to fully support near term commitments. The 
resultant confluence of high demand for Naval forces, constrained 
funding levels, and budget uncertainty, impeded our ability to build, 
maintain and modernize the workforce and infrastructure to support 
current and future readiness at the levels the Navy and DOD require.
    In our testimony to this committee last year, we described the 
challenges of restoring readiness, and how the funds requested in 
President's Budget for Fiscal Year 2018 would support that recovery. 
Today, with your help, we have stemmed the tide of readiness 
degradation. The Fiscal Year 2017 Request for Additional Appropriations 
(RAA) helped us arrest some of our most critical readiness problems. We 
executed 13 more ship depot maintenance availabilities, increased 
aviation depot throughput with 35 additional air frames, increased our 
investments in ship and aircraft spares, and funded much needed shore 
infrastructure projects. The fiscal year 2018 budget and President's 
fiscal year 2019 budget submission will reverse previous trends, 
improving readiness.
    The Fiscal Year 2018 Consolidated Appropriations Act continues to 
strongly support our readiness recovery efforts, which include 
increased investments in infrastructure, equipment recapitalization and 
modernization. The Operation and Maintenance account flexibilities 
provided are key to ensure the most efficient and effective use of 
taxpayers' dollars and further support our efforts to restore 
readiness.
    The Navy's 2019 President's Budget continues to build upon the 
foundations enacted in the fiscal year 2017 and fiscal year 2018 
defense appropriations. It funds afloat readiness to historically high 
levels, and continues the course for full readiness recovery, while 
simultaneously investing in modernization, increased capacity, 
lethality and improvements in infrastructure that are necessary to 
maximize naval power. The majority of our Readiness accounts are funded 
to 100 percent of the requirement or maximum executable levels. It 
includes funds that would support 57 ship maintenance availabilities 
across the public and private shipyards and funding to support 100 
percent of the required ship operations necessary to ensure ships and 
crews get the dedicated time at sea to train and hone skills. In 
addition, the budget request would fund aircraft depot maintenance and 
aviation spares, at significantly increased levels to allow Navy to 
induct 652 airframes and 1,887 engines, reduce part shortages, and 
improve flight line availability of operational aircraft. We look 
forward to working with this committee and with the entire Congress to 
ensure continued support in future budgets for adequate and predictable 
funding for readiness.
                            naval shipyards
    Having combat-capable ships forward-deployed around the world is 
predicated on having ready ships. Readiness includes ships that are 
properly maintained and modernized over their service life. At any 
given time, the Naval Sea Systems Command (NAVSEA) has under its care 
approximately one-third of the battle force as they undergo maintenance 
and modernization availabilities. For that reason, NAVSEA's number one 
priority remains the on-time delivery of ships and submarines to the 
Fleet, from both new construction and maintenance availabilities. 
Whether a ship is in a public Naval Shipyard or a private shipyard, 
NAVSEA is focused on executing the planned work on time and on cost so 
our warfighters have the most capable platforms and systems they need 
to defend our Nation.
    Last year, we testified before this Committee about how shortfalls 
in the size of the needed workforce, coupled with reduced workforce 
experience levels (about 50 percent of the workforce has less than five 
years of experience) and shipyard productivity issues were impacting 
Fleet readiness through the late delivery of ships and submarines. The 
capacity limitations and the overall priority of work toward our 
Ballistic Missile Submarines (SSBNs) and Aircraft Carriers (CVNs) 
resulted in our Attack Submarines (SSNs) absorbing much of the burden, 
causing several submarine availabilities that were originally scheduled 
to last between 22 and 25 months to require 45 months or more to 
complete. This situation reached a boiling point last summer when, in 
order to balance the workload, the Navy decided to defer scheduled 
maintenance availability on the USS Boise (SSN 764) that will 
effectively take it off-line until 2020. Ultimately the Boise's 
availability was contracted to the private sector and will begin this 
year. The Navy will continue to consider the private sector for future 
maintenance work during peak workload periods in our Naval Shipyards 
and to ensure we maintain the health of the private sector nuclear 
industrial base.
    As we testify this year, we are on an improving trend. We have 
hired 19,200 people across our four Naval Shipyards from fiscal year 
2013 through fiscal year 2017 and are on the path to reaching our goal 
of having 36,100 full time shipyard employees by the end of fiscal year 
2019. The growing and better trained workforce is beginning to have a 
positive impact. In 2017, all four CVN availabilities were completed on 
time and we significantly reduced the delays in delivery of our 
submarine force. More work remains as we continue to train this 
workforce, improve our planning, material availability, and execution 
performance, but we are on the right track.
    People alone will not provide the throughput and productivity 
needed to meet the maintenance and readiness requirements today into 
the future. As outlined in our recent report to Congress on the Naval 
Shipyard Development Plan, we must also make substantial investments in 
our four nuclear capable shipyards to ensure we have 21st Century Naval 
Shipyards ready for the challenges of maintaining a growing fleet. This 
plan has three key investment priorities over the next 20 years. This 
includes repairing and upgrading our public shipyard dry-docks to 
accommodate future Virginia-class Payload Module submarines and the new 
FORD Class carriers, recapitalizing the equipment to replace aging 
equipment with up-to-date technology, and optimizing the layout of the 
shipyards by moving and upgrading facilities closer to the actual work 
to improve productivity and throughput. We look forward to working with 
the Congress in the execution of this plan.
    The challenges facing our private sector non-nuclear surface ship 
repair base are similar to those seen in our Naval Shipyards with the 
private sector also facing capacity versus workload challenges and the 
need to make investments to upgrade facilities, equipment, and dry 
docks. The lack of stable and predictable budgets in an era of 
Continuing Resolutions over the past ten plus years has had an even 
more detrimental impact on the stability and predictability of work and 
how the private sector approaches hiring and investments in their 
facilities. The Navy is committed to working collaboratively with 
industry to provide them a stable and predictable workload in a 
competitive environment moving forward so they can hire the workforce 
and make the investments necessary to maintain and modernize a growing 
non-nuclear fleet. As the Navy executes readiness recovery, and begins 
to grow capacity to provide the Navy the Nation Needs, our industry 
partners must grow capacity in stride. We are as dependent on their 
capabilities and capacity as we are on the public depots. We know from 
hard experience that workload to capacity mismatch creates delays in 
maintenance completion, increasing costs and reducing time for training 
and operations. As we look to the future, we see the potential for 
these conditions to exist. To that end, the Navy has begun working with 
industry to build a similar plan that is detailed in the public 
shipyard report to Congress.
    As we build the Navy the Nation Needs, we must also ensure that we 
have the maintenance capacity and infrastructure needed to ensure our 
growing fleet is maintained and modernized on-time and on-budget to 
deliver forward deployable combat ready ships. Our ongoing efforts to 
hire more people and invest in our Naval Shipyards, combined with the 
Navy's continuous dialogue with industry, lays the foundation required 
to maintain today's force while also looking to future requirements. We 
have challenges ahead of us, but we are on an improving trend that will 
ensure we have the capacity today and into the future to maintain and 
modernize the Navy the Nation needs.
                 naval aviation fleet readiness centers
    Commander, Fleet Readiness Centers (COMFRC) oversees three depots, 
ten intermediate level and 25 tenant sites. Our workforce comprises 
19,000 shore-based aviation maintenance workers working to deliver 
flight-line readiness by providing Maintenance, Repair and Overhaul 
(MRO) of Navy and Marine Corps aircraft, engines, components and 
support equipment, as well as logistics and engineering support to Navy 
and Marine Corps squadrons throughout the world. Our highly skilled 
workforce spans five countries and territories, 13 states, and is made 
up of approximately 10,000 civilians, 6,000 sailors and marines, and 
3,000 contractors.
    Continuous high operational tempo, chronic underfunding and 
financial uncertainty have real and lasting consequences. The 
capability and capacity of our Fleet Readiness Centers (FRCs) are still 
recovering from the impacts of the 2011 Budget Control Act, fiscal year 
2013 sequestration driven furloughs, and years of chronic reduced 
funding.
    Despite these challenges, the Navy and Marine Corps are working to 
stem the tide of Naval Aviation readiness degradation. Across the FRCs, 
we are focused on three primary Lines of Effort (LOE): (1) Aircraft 
production; (2) In-Service Repairs; and (3) Organic component 
production. The enablers for these three LOEs are a qualified 
proficient workforce; facilities and infrastructure; and supply.
    Sustained improvement in the readiness of our Naval Aviation forces 
requires successful execution of multiple ongoing activities across 
each of these LOEs, as well as optimal and predictable resourcing.
    In particular, we must maintain a focus on increasing throughput to 
put aircraft back in the hands of our warfighters faster, investing in 
our FRC workforce and infrastructure, and achieving optimal funding of 
our ``enabler'' sustainment accounts.
    To increase throughput, we are focusing on readiness efforts such 
as In-Service Repairs (ISRs). These are emergent, unscheduled repairs 
that take place in the field, rather than planned maintenance completed 
at a depot. Annually, FRC artisans complete more than 3,000 ISRs around 
the world. Before 2015, these repairs were managed locally with use of 
existing staffs and equipment. Since then, we have incorporated better 
management tools to have corporate visibility into the work at the 
sites and quickly assigned artisans, engineers, equipment and material 
to where the work is building up. As a result we have seen an average 
``Work-in-Progress'' status reduction of 23.8 percent since fiscal year 
2016.
    We are now meeting Fleet aircraft production goals. During fiscal 
year 2016 and 2017, the FRCs have eliminated production aircraft 
backlog through the use of Critical Chain Program Management. Now we 
are focused on component production through the use of Drum Buffer Rope 
to systematically release work into the industrial shops.
    In fiscal year 2018, our FRCs continue to rebuild their workforce 
to recover from sequestration, and in direct response to increased 
aircraft and component workload. At the beginning of fiscal year 2013, 
the end strength for engineers was 1,306 compared to the January 2018 
end strength of 1,802. The end strength for logisticians at the 
beginning of fiscal year 2013 was 536 compared to the January 2018 end 
strength of 667. The fiscal year 2013 beginning end strength for 
artisans and industrial workforce was 6,305 compared to the January 
2018 end strength of 6,815.
    Our fiscal year 2018 hiring goals are structured to hire artisans 
to meet fleet production demands, particularly in the area of organic 
component production, and also include targets for engineers and 
logisticians to support readiness recovery initiatives.
    Direct Hiring Authority provided by Congress has been vital to our 
workforce rebuilding efforts, and we request your support in providing 
continuation of that support authority, which currently expires in 
September 2018. To attract the best talent, we are also using 
incentives such as the Special Wage Increase in the San Diego area. 
However, across the FRCs, normal workforce attrition, regional 
competition and economic conditions continue to challenge hiring plans. 
In addition, once hired, it takes up to 18 months to fully train and 
certify an artisan. We have established an apprenticeship program 
across the enterprise to build a workforce structure that produces 
skilled tradespersons capable of filling key artisan, managerial and 
supervisory positions.
    Increasing the trained workforce size is only one piece of the 
puzzle. Our skilled and diverse artisans must have the proper equipment 
and modern facilities to execute their work. Furthermore, proper 
equipment and facilities are essential to ensuring we have the capacity 
to support next generation aircraft that provide the tactical edge over 
our adversaries.
    Infrastructure--particularly Military Construction (MILCON)--is a 
significant challenge. For many years while working in a resource-
constrained environment, we did not maximize the Navy Working Capital 
Fund investment in infrastructure and equipment readiness. We are now 
at a point where we must maximize our internal Navy Working Capital 
Fund investment.
    Finally, creating a path to continued full funding of aviation 
sustainment accounts which support FRC production and overall flight-
line readiness is imperative. These accounts support activities ranging 
from procurement of new and repaired spare parts, maintaining the 
currency of technical and repair manuals, and updating the maintenance 
plans used in the FRCs and on the flight line. As we have painfully 
experienced over the last few years, being underfunded and 
``unbalanced'' in these accounts has resulted in significantly 
decreased flight-line readiness.
    We look forward to continuing to work with Congress to provide the 
Fleet Readiness Centers with the resources necessary to recover Naval 
Aviation readiness.

    Senator Inhofe. Thank you very much.
    Admiral Moore?

  STATEMENT OF VICE ADMIRAL THOMAS J. MOORE, USN, COMMANDER, 
            UNITED STATES NAVAL SEA SYSTEMS COMMAND

    Vice Admiral Moore. Mr. Chairman, Ranking Member Senator 
Kaine, and distinguished members of this committee, thank you 
for the opportunity to discuss Navy readiness, in particular 
our readiness in our ship depots today.
    Last year, I testified before the committee about how 
shortfalls in the size of the needed workforce, coupled with 
reduced workforce experience levels and shipyard productivity 
issues were impacting fleet readiness through the late delivery 
of ships and submarines. The capacity limitations and the 
overall priority of work toward our ballistic submarines and 
aircraft carriers resulted in our attack submarines absorbing 
much of the burden, causing several submarine availabilities 
that were originally scheduled to last between 22 and 25 months 
to require 45 months or longer to complete. This situation 
reached a boiling point last summer when, in order to balance 
the workload, the Navy decided to defer the scheduled 
maintenance availability of USS Boise that will effectively 
take it off line until 2020.
    As we testify this year, we are on an improving trend. We 
have hired 19,200 people across our four naval shipyards 
between 2013 and 2017 and are on a path to reach our goal of 
having 36,100 full-time shipyard employees by the end of fiscal 
year 2019. The growing and better trained workforce is 
beginning to have a positive impact. In 2017, all four CVN 
aircraft carrier availabilities were completed on time and we 
significantly reduced the delays in the delivery of our 
submarine force. More work remains as we continue to train this 
workforce, improve our planning, material availability, and 
execution performance, but we are on the right track.
    However, people alone will not provide the throughput and 
productivity needed to meet the maintenance and readiness 
requirements today and into the future. As outlined in our 
recent report to Congress on the Naval Shipyard Optimization 
Plan, we must also make substantial investments in our four 
nuclear-capable shipyards to ensure we have the 21st Century 
naval shipyards ready for the challenges of maintaining a 
growing fleet.
    The challenges facing our private sector non-nuclear 
surface ship repair base are similar to those seen in our naval 
shipyards with the private sector also facing capacity and 
workload challenges and the need to make investments to upgrade 
facilities, equipment, and dry docks. The lack of stable and 
predictable budgets over the past 10 years has had an even more 
detrimental impact on the stability and predictability of the 
work in the private sector and how the private sector 
approaches hiring and investments in their facilities. The Navy 
is committed to working collaboratively with industry to 
provide them a stable and predictable workload in a competitive 
environment moving forward so that they can hire the workforce 
and make the investments necessary to maintain and modernize a 
growing non-nuclear fleet.
    Additionally, I have tasked my staff with developing a 
companion plan to the Naval Shipyard Optimization Plan on the 
private sector so that we can provide the Navy leadership of 
where we need to make investments in the private sector so the 
private sector is poised as well to handle the size of the 
growing fleet.
    As we build the Navy the Nation needs, we must also ensure 
that we have the maintenance capacity and infrastructure needed 
to ensure our growing fleet is maintained and modernized on 
time and on budget to deliver forward deployable combat-ready 
ships. Our ongoing efforts to hire more people and invest in 
our naval shipyards, combined with the Navy's continuous 
dialogue with industry, lay the foundation required to maintain 
today's force while also looking to the future. We have 
challenges ahead of us, but we are on an improving trend that 
will ensure we have the capacity today and into the future to 
maintain and modernize the Navy the Nation needs.
    I thank you for the opportunity to talk to you today about 
Navy readiness, and I look forward to your questions.
    Senator Inhofe. I appreciate it. Thank you very much.
    General Levy?

     STATEMENT OF LIEUTENANT GENERAL LEE K. LEVY II, USAF, 
  COMMANDER, AIR FORCE SUSTAINMENT CENTER, UNITED STATES AIR 
                     FORCE MATERIEL COMMAND

    Lieutenant General Levy. Chairman Inhofe, Ranking Member 
Kaine, distinguished members of the subcommittee, thank you for 
the opportunity to again testify on the readiness of your 
United States Air Force. On behalf of the Secretary, the 
Honorable Heather Wilson, our Chief of Staff, General Dave 
Goldfein, we are grateful for your support and commitment to 
our 670,000 Active, Guard, Reserve, civilian airmen, their 
families, and our veterans.
    About this time last year, I had the privilege of appearing 
before the subcommittee to talk about this very topic. Today, 
your Air Force Sustainment Center, a $16 billion a year global 
enterprise, delivers combat power. We support joint and 
coalition forces at the beginning, middle, and end of every 
single operation. We secure our Homeland by enabling continuous 
surveillance and air defense, and critically, we also sustain 
two of the three legs of our Nation's strategic nuclear triad. 
We accomplish these missions with a fleet averaging 28 years of 
age, an Air Force that is too small for the missions it has 
been tasked with, and an aging infrastructure, as my colleagues 
also referred to, that continues to present challenges absent 
necessary upgrades and, in some cases, replacement.
    That said, our total force airmen are dedicated, and nearly 
43,000 airmen across the Sustainment Center in 28 locations 
around the globe that I have the privilege to lead, our 
Nation's sons and daughters, as the Air Force Sustainment 
Center Commander--they continually amaze me every single day 
with their ability to innovate, achieve, but more importantly, 
deliver results.
    Make no mistake. The United States Air Force is ready to 
fly, fight, and win, but I am concerned with our ability to 
sustain our Air Force for tomorrow's fight. Our capability to 
deter, respond to, and eliminate threats relies upon our 
ability to proactively and continuously develop advanced air, 
space, and cyber capabilities while simultaneously honing the 
readiness and lethality of the logistics and sustainment 
enterprise to meet evolving requirements and ever-increasing 
demand signals.
    Achieving this requires a healthy organic industrial base. 
Our organic industrial base simply serves a national insurance 
policy. It underwrites our Nation's ability to respond rapidly 
and persevere against threats that may challenge us and our 
allies.
    As you previously heard, workforce hiring challenges, 
unpredictable, inadequate, and insufficient funding, aging 
infrastructure, emerging software challenges, cybersecurity, 
and weapon systems sustainment are all challenges that impact 
our readiness and the health of our organic industrial base 
and, by extension, the readiness of our United States Air Force 
and the joint team.
    I would say our civilian hiring system remains ill-suited 
for the 21st Century and bears strategic readiness 
implications. We are transitioning to an information age 
fighting force, recognizing that our ability to modify key 
software in our weapon systems will be a decisive capability in 
the conflicts of tomorrow.
    To that end, we compete with industry for a limited pool of 
science, technology, engineering, and math (STEM) workforce 
candidates. We are thankful for the congressionally approved 
direct hire authority, but this is limited in temporary 
authority. To remain relevant and ready, we need a more 
efficient system to recruit and hire our future airmen, and I 
will venture to say that my colleagues would say the same thing 
about their soldiers, sailors, and marines.
    Additionally, trained mechanics are growing increasingly 
scarce. Thus, we rely heavily on former military technicians 
separating or retiring from service and seeking government 
employment. In these instances, the current 180-day waiting 
period to hire military retirees presents a challenge.
    We are addressing these challenges and many more such as 
the defense supply chain that is growing increasingly brittle 
with such innovative technologies as additive manufacturing in 
order to provide your Air Force an edge against peer 
competitors. This requires rapid reverse engineering capability 
and a workforce that understands how to leverage it. It also 
requires intellectual property and access to those intellectual 
property rights that continue to be a challenge in an 
increasingly litigious environment. It is simply that 
important.
    I would close my remarks by sharing a quote from our Chief 
of Staff. As recently published in the National Defense 
Strategy, we face the reemergence of great power competition. 
While we did not seek this competition, let there be no doubt 
in this room and around the world, your airmen stand ready to 
defend the Homeland, deter nuclear conflict and nuclear 
readiness, own the high ground in any conflict with air and 
space superiority and project global vigilance, reach, and 
power with our joint teammates, allies, and partners.
    Again, thank you for allowing us the opportunity to be with 
you today, and I very much look forward to your questions.
    [The prepared statement of Lieutenant General Levy 
follows:]

        Prepared Statement by Lieutenant General Lee K. Levy, II
                              introduction
    Chairman Inhofe, Ranking Member Kaine, distinguished Members of the 
Subcommittee, I would like to thank you for this opportunity to testify 
on the readiness of your United States Air Force. On behalf of our 
Secretary, the Honorable Heather Wilson, and our Chief of Staff, 
General David Goldfein, we are grateful for your support and commitment 
to our 670,000 Active, Guard, Reserve, and civilian airmen, along with 
their families and veterans that have faithfully served.
    It was about this time last year that I had the privilege of 
speaking with you on this very topic. We discussed the fact that 
without pause, the United States Air Force delivers global combat power 
to deter and defeat our Nation's adversaries; we support joint and 
coalition forces at the beginning, middle, and end of every operation; 
and we secure our Homeland via continuous surveillance and air defense 
and of course we operate two of the three legs of our Nation's 
strategic nuclear triad. As you're aware, we're doing this with a 
smaller force, a fleet that has an average age of 28 years, and an 
aging infrastructure that continues to present challenges absent 
necessary upgrades, or in some cases replacement. That said, our Total 
Force Airmen (Active Duty, National Guard, Air Force Reserve and Air 
Force civilians) are dedicated. The nearly 43,000 airmen across 28 
locations around the globe that I have the privilege to lead as the Air 
Force Sustainment Center Commander continue to amaze me with their 
ability to innovate and achieve. They persevere through these times of 
increasing requirements to deliver combat power to warfighters by 
adding service life to weapons systems and creating additional 
capabilities through innovative modernizations and upgrades. Make no 
mistake, the United States Air Force is ready to fight, but my concern 
regarding our ability to sustain our Air Force for tomorrow's fight is 
very real. Every day the threats to this Nation and our interests 
increase. Our capability to deter, respond to, and eliminate these 
threats relies upon our ability to proactively and continuously develop 
advanced air, space, and cyber capabilities while simultaneously honing 
the readiness and lethality of the logistics and sustainment enterprise 
to meet evolving requirements. This can only be accomplished through a 
vibrant and heathy organic industrial base. This industrial base serves 
as a national insurance policy that underwrites our Nation's ability to 
respond rapidly and persevere in depth, against threats that may 
challenge us.
    The Air Force Sustainment Center's mission is to deliver combat 
power for America. It is the engine that drives readiness for the Air 
Force. The Center's three air logistics complexes, three air base wings 
and two supply chain wings directly support combatant commanders with 
depot-level maintenance, supply chain management and power projection 
for the combatant commands. As the Air Force global supply chain 
manager we plan, source, manage, and deliver multi-billions of dollars 
in parts annually to the combatant commands. This suite of organic 
industrial base capabilities enable not only our AF but the joint team, 
other government agencies including NASA, as well as 63 coalition and 
partner Nations.
    The Air Force Sustainment Center remains critically involved in, 
and essential to, sustaining our Nation's nuclear enterprise. Our 
sustainment of components for two of three legs of the nuclear triad is 
vital to our Nation maintaining a credible nuclear deterrent. We 
directly enable bombers, inter-continental ballistic missiles, dual 
capable fighters, air launched cruise missiles, and Navy command and 
control aircraft that communicate with submerged nuclear assets.
    The organic industrial base is the country's national security 
insurance policy. It represents protection and coverage for today in 
the form of readiness for our joint force, while also enabling 
sustained combat operations and force regeneration at the outset of 
future conflicts. Simply put, it mitigates risk to the Nation with 
strategic depth, in times of crises, with flexible and scalable 
response. The Air Force organic industrial base is much different than 
in the past. We've broken out of the individual islands of capability 
that operate independently with isolated impact to work accomplished in 
a particular zip code. We now operate Air Force logistics and 
sustainment as a global interconnected eco-system where an action in 
one area has an impact on the other side of the planet. The supply 
chain is no longer bifurcated into ``wholesale'' and ``retail'' buckets 
of work, but is instead managed across the spectrum of sourcing, repair 
and delivery to the supported commander at the point of need. Organic 
depot maintenance accomplished at our three Air Logistics Complexes is 
a ballet of sophisticated theory-of-constraints and guided processes, 
with the complexes themselves operating in a symbiotic, interdependent 
manner, forming a logistics and sustainment network that underpins Air 
Force readiness. This is the logistics kill chain needed for a 21st 
Century military to deter our adversaries and reassure our allies.
    Traditionally, we think of sustaining the force as maintaining 
hardware or `bending metal.' If you consider the highly digitized, 
interconnected Air Force of tomorrow, we will instead manipulate ones 
and zeroes. As software becomes increasingly pervasive throughout our 
weapons systems, test systems and support equipment, our ability to 
manage and sustain it organically will be critical. Even today, many of 
the weapons systems sustained within the Air Force Sustainment Center 
require a vast amount of technology to operate. As an example, the 
newest aerial refueling tanker, the KC-46A, requires millions of lines 
of code to operate; thus, our ability to maintain a skilled workforce 
going forward is critical. Doing so, however, remains an ever-present 
challenge.
    Last year I expressed my appreciation for your support in 
increasing Air Force end strength, while recognizing that we remain 
stretched thin as we meet our national security requirements. Over the 
past two and a half decades, the Air Force has experienced a 30 percent 
end strength reduction across the Total Force. To improve readiness and 
attain manning levels matching our mission requirements, we must 
increase our Active Duty, Guard, and Reserve end strength, to include 
growing the Active Duty force. We appreciate your continued support in 
this endeavor.
                               challenges
    The Air Force Sustainment Center, with its organic industrial base, 
provides essential enablers in the air, space, and cyber domains with 
ever-increasing demand signals. Our readiness challenges persist in the 
areas of predictable, sufficient funding, workforce hiring, aging 
infrastructure and weapon system sustainment.
                          workforce challenges
    Manning challenges, particularly in our civilian workforce, 
continue to impact our ability to keep pace with current workloads, as 
well as prepare for emerging workloads like the F-35 and KC-46A. As 
Chief of Staff of the Air Force, General David Goldfein, recently 
testified at the House Appropriations Defense Subcommittee hearing for 
the fiscal year 2019 Air Force Budget, ``The security landscape we face 
has become more competitive, complex and dangerous. In air, space, and 
cyberspace, potential adversaries are rapidly leveling the playing 
field. We need the talent to compete and defend against those 
threats.'' Within the Air Force Sustainment Center, we depend on an 80 
percent civilian workforce; 89 percent if you include contractors, our 
``commercial airmen.''
    I have spoken previously, and passionately about our `fifth-
generation Air Force' requiring a `fifth-generation workforce.' Few 
people realize just how ubiquitous Science-Technology-Engineering-Math 
(STEM) is in influencing our workforce and the way we do business in 
other areas including: energy and hazardous materials reduction and 
elimination; environmental remediation; safety; financial and resource 
management; healthcare; structural, mechanical, and computer 
engineering--it is a key to defending our infrastructure. Our 
requirements for a STEM educated workforce, as well as advanced 
manufacturing and technical skills, have rapidly increased and will 
continue to do so. The sophisticated software packages and software-
intensive weapons systems that we possess require a sound application 
of technical skillsets to keep our fleet flying in air, space, and 
cyberspace.
    Yet, our civilian hiring system remains ill-suited for the 21st 
Century. We are limited in effectively competing with industry for a 
qualified workforce, and the ability to hire engineers, scientists, 
software developers, and cyber experts remains a strategic concern. As 
a case in point, our requirement for software engineers continues to 
grow annually at a rate of 10-15 percent. Between Federal agencies and 
industry, we simply do not have enough qualified applicants to meet the 
shared demand. Thus, we must remain resilient in our recruiting 
endeavors to ensure that we can maintain a relevant and ready status as 
we transition to an information-age fighting force; recognizing that 
our ability to modify key software in our weapons systems will be a 
decisive capability in the conflicts of tomorrow. Additionally, we need 
to do our part to ensure that we are educating and inspiring the youth 
of America to aspire to join the STEM workforce.
    Across the Air Force Sustainment Center we have made a commitment 
to attract, excite and educate the future STEM workforce. For example, 
our personnel partner with schools on robotics and technology teams and 
provide support through volunteer hours, mentoring and grants. These 
efforts have reached tens of thousands of children and more than a 
thousand educators. This is good for our communities and our Nation, 
not just our Air Force.
    Further, last year was a dynamic year for change as we made 
adjustments in our mechanisms to maximize the benefits Defense 
Acquisition Workforce Development Fund provides for recruiting, 
retaining, training, and developing our scientist and engineer 
workforce. Our ability to use this funding has been critical to 
remaining competitive with industry. We also worked with Headquarters, 
Air Force Materiel Command, to expand the use of the DOD Civilian 
Acquisition Workforce Personnel Demonstration Project (AcqDemo) to 
approximately 5,700 non-bargaining employees within the Air Force 
Sustainment Center. This pay system offers greater flexibilities and 
competitive salaries to compensate our technical workforce according to 
labor market considerations. Most importantly, our ability to compete 
for top scientist and engineering talent is dependent on the 
combination of three things: mission, salary, and benefits. We have a 
tremendous mission and are implementing new ways to showcase our 
mission to prospective scientists and engineers through additional 
internships and innovative partnerships with universities.
    On the hiring front, the Air Force Sustainment Center drove hard to 
maximize Direct Hire Authority within the Air Force Logistics 
Complexes, authorized by Congress. Direct Hire Authority was added to 
the Expedited Hiring Authority process, and is currently being used for 
almost two-thirds of the external hiring actions in over 100 different 
occupational series. A total of 874 employees have been appointed under 
Direct Hiring Authority and 212 under Expedited Hiring Authority within 
the Air Logistic Complexes with an average end-to-end time of 72 days. 
Utilizing a constraints-based management system, efforts are ongoing to 
reach our 40-day Direct Hire Authority hiring goal. Concurrently, we 
are tirelessly working to reduce traditional hiring timelines. Over the 
course of the last four years we have done a tremendous job to reduce 
this timeline--a hiring end-to-end average of 280 to 115 days. But 
there is much more to be done. Extending Direct Hire Authority and 
expanding it to more job series would enable us to go further in 
obtaining the best talent the Nation has to offer.
    As you know we rely on a very large labor force of highly skilled 
technicians and mechanics. Our data shows that the population of 
trained mechanics is simply not as available as in the past, and that 
it is predicted to grow increasingly scarcer as we move into the 
future. While we work very closely with vocational training centers 
around our bases, we rely heavily on former military technicians that 
separate or retire from Military Service and seek a government civilian 
position. Thus, another challenge that we face is the 180-day waiting 
period to hire military retirees. Revising the current 180-day waiting 
period to hire military retirees would allow us quicker access to fully 
qualified, trained personnel and reduce the ramp-up time of hiring a 
brand new employee.
    Continued unpredictable appropriations for the Department of 
Defense has considerable impact on our hiring and partnering. As 
previously reported, volatile and uncertain funding discourages many 
companies from investing in advanced technologies or sustaining 
existing capabilities that support the Department of Defense. 
Additionally, government furloughs and repeated continuing resolutions 
are not reassuring to potential employees. Industry partners are dis-
incentivized to bid on contracts when budgets are unpredictable or it 
is not cost-effective for them to manufacture small quantities of 
parts.
                       diminishing manufacturing
    As our weapon systems age we are seeing increased first time 
demands for structural parts and other subsystems. For example, over 
the past six months, 37 percent of critical parts shortages, those that 
ground aircraft, were first time demands. This failure pattern, coupled 
with irregular appropriations and the consolidation and reduction of 
the Defense industrial base in the early 1990's, presents a significant 
sustainment problem to the Air Force. Additionally, when we reach 
outside of our organic capabilities, more than half of the items we 
manage rely on a single-source vendor for manufacture or repair. The 
result is a slow but steady increase in production lead time for items 
we manage, with increased costs, and decreased readiness.
    When viewed with the demands of worldwide readiness, future pilot 
production needs, an evolving global trade environment, and an era of 
uncertainty in the amount and timing of appropriations, our dedicated 
Air Force Sustainment Center professionals continue to perform a 
delicate balancing act ensuring sustainment of warfighter equipment and 
weapons systems. We continue to work with industry leaders to watch, 
learn and leverage technology, develop advanced capabilities for the 
future, advance manufacturing and repair capabilities, as well as 
maintenance repair and overhaul to help us sustain our Air Force.
                      public private partnerships
    The Air Force Sustainment Center--with its organic industrial 
base--is the Nation's readiness and war sustaining insurance policy. 
Throughout the life cycle of a weapon system, our relationship with 
industry is integral to the success of our warfighters. However, we 
must be clear in our approach, evaluating any relationship against its 
ability to: increase readiness, decrease costs, infuse new technology 
into our industrial base, and impact our ownership of the technical 
baseline. These principles help shape where we invest, and where we 
divest of partnered activity. They are applied to support strategic 
decisions and ensure we have clarity of purpose to exploit 
opportunities, mitigate risks and hold industry accountable, ultimately 
ensuring the best outcome for our warfighters. Our first responsibility 
is to the Nation . . . to be effective in combat.
                           innovation centers
    The Air Force Sustainment Center, through external partnerships and 
organically, is in the process of establishing Innovation Centers at or 
near each of its Air Logistics Complexes. These centers will be focused 
on inserting agile manufacturing technologies into the production 
environment, and allow the workforce to reverse engineer, re-design, 
prototype, and qualify Technical Data Packages for weapon system 
components, tooling, fixtures, and parts to improve availability and 
reduce weapon system sustainment costs. Additionally, it can provide 
stop-gap solutions while waiting for contract award and/or first 
article testing. These centers will be a shared collaboration space for 
the Air Force Sustainment Center, Air Force Life Cycle Management 
Center, Air Force Nuclear Weapons Center, Defense Logistics Agency, 
industry, academia, and other government entities, in order to maximize 
lessons learned while solving complex problems with new innovative 
methods and equipment. While initially focused on additive 
technologies, the Innovation Centers will also explore other emerging 
potential manufacturing solutions that could include composites, 
robotics, laser processing, and manufacturing.
                         additive manufacturing
    Agile manufacturing technologies, such as additive manufacturing, 
support the Air Force Future Operating Concept by providing the Air 
Force an edge against our adversaries through a smaller deployed 
footprint, more agile/efficient maintenance and modification, and 
faster supply chain sourcing. Agile manufacturing technology is 
especially well-suited to sustaining low quantity part production 
because it is not hampered by high startup costs associated with 
traditional manufacturing methods. By growing a cyber secure library of 
qualified parts that can be printed across an Air Force network of 
certified printers we enable a more agile and efficient logistics 
supply chain that can quickly deliver the right part on demand. This 
will have a direct and appreciable impact on a weapons systems mission 
capable rates.
    As an example, the Reverse Engineering and Critical Tooling (REACT) 
cell at our Oklahoma City Air Logistics Complex has been solving parts 
supportability challenges using additive manufacturing since 2013 with 
great success. REACT improved local manufacturing support in fiscal 
year 2017 by supporting 70 different components and reducing flow time 
to the customer by 350 days, and with a cost avoidance of more than 
$367,000.
    While additive manufacturing presents itself as a viable solution 
to rising costs associated with Diminishing Manufacturing Sources, the 
process requires a rapid reverse engineering capability and a workforce 
that understands how to leverage it in order to provide a responsive, 
resilient parts supply chain. It also requires access to Intellectual 
Property (IP) that the department currently does not possess. These 
challenges remain a barrier.
                    artificial intelligence / cyber
    One of the most daunting challenges remains in the area of 
cybersecurity, specifically the roles of artificial intelligence and 
data security. The budding artificial intelligence capabilities on the 
commercial market promise faster, predictive, and more accurate 
decisions for our supply chain and engineers that troubleshoot aging 
weapon systems and our industrial plant. Adapting and implementing 
artificial intelligence systems to our legacy data systems holds great 
promise, but will require significant investment.
    To counter cyber-attacks, we are working to secure our industrial 
depot maintenance equipment. We have implemented processes and devoted 
resources to protect our organic manufacturing capability, responsible 
for aerospace quality parts, against similar threats. The cyber threat 
also extends to our Nations secrets. The Air Force and our industry 
partners must continue to strive to secure our intellectual property 
against exfiltration to and exploitation by our adversaries.
                            nuclear support
    The Air Force Sustainment Center remains essential in sustaining 
our Nation's nuclear enterprise, from the depot level maintainer in the 
Nation's missile fields to managing the nuclear supply chain. As the 
Secretary of the Air Force, the Honorable Dr. Heather Wilson recently 
testified, ``The Nuclear Posture Review reaffirms the importance of the 
triad and nuclear command and control and communication, and says that 
it is our responsibility as the military to maintain a safe, secure and 
effective nuclear deterrent.'' We thank you for your budgetary support 
to ensure we can maintain this responsibility at optimal levels.
                 shaping future logistics capabilities
    Today's evolving warfighting concepts require a fundamental change 
to the logistics environment. Within this transformation, a most 
critical element is a logistics command and control capability that 
truly ensures the effective employment of resources. Only ten years 
ago, the focus of logistics command and control was directed at task 
organizing and logistics mission assignments. Command and control was 
not automated and was functionally centric and non-integrated. 
Information was derived from after-the-fact reporting focused on 
transactional activity and latent/static white board displays of assets 
and resources. The predominant characteristic of logistics--
responsiveness--was achieved by maintaining large stockpiles to meet 
every possible requirement. Logistics capabilities may have been 
responsive, but they were also cumbersome. Few logisticians spoke in 
terms of command and control, and even fewer spoke in terms of 
situational awareness and decision support.
    The new environment demands a logistics command and control 
capability that emphasizes situational awareness and decision support 
to meet commanders' emphasis on speed and agility. Operational speed 
and agility means logistics forces will need to cover greater 
distances, while lacking secure lines of communication. Tempo will be 
the key element of operations and thus logisticians can no longer count 
on (or cause) the traditional operational pauses that allowed the 
logistics effort to catch up. Logistics can become an enabler of tempo 
only if logisticians can observe, orientate, decide and act based on 
situational awareness and rapid analysis of courses of action founded 
in real-time information. Warfighters develop requirements; logistics 
must match resources to meet those requirements.
    Command and control seeks to reduce the amount of uncertainty 
through situational awareness. However, reducing uncertainty comes with 
a cost in time. The challenge is to find the optimum balance, reducing 
uncertainty within the minimum time. The operational concept for 
logistics command and control is to enhance the capabilities of the 
agile combat support enterprise by providing a system that improves 
logistics situational awareness while reducing the decision-making 
cycle time.
    By implementing multi-domain logistics command and control, we will 
no longer think about one combatant command or region at a time. It 
will create complete global asset visibility and decision support tools 
to best assign and allocate limited global resources to meet immediate 
theater needs. This new way of operating will allow us to integrate 
with global and theater planning, articulate risk to the combatant 
commanders, provide intelligent logistics command and control in anti-
access and area denial environments, prioritize and synchronize 
resources, set and re-set the theaters, and interact with a global 
distribution network.
                                closing
    This committee, more than anyone else, knows that the world is more 
dangerous and unpredictable than it has ever been and we are 
continually surprised this unpredictability. In every instance of 
crisis, the organic industrial base has responded by providing 
solutions to meet unanticipated demands. We must continue to invest now 
in the organic industrial base if we expect its performance in the 
future to meet the needs of an increasingly sophisticated . . . 
contested . . . and lethal . . . battlespace in the 21st Century. 
Adequate, consistent, and predictable funding to preserve, maintain and 
modernize our critical logistics and sustainment capabilities 
underwrite our ability to produce readiness that guarantees that we 
will win whenever and wherever our Nation calls.
    I would like to thank each distinguished member of the committee 
for allowing me to offer this testimony today. Your continued support 
enable our true Total Force Airmen to drive our joint team's readiness 
for not only tonight's fight but for tomorrow and what lies beyond. 
Thank you.

    Senator Inhofe. Thank you, General.
    Before we hear from General Crenshaw, since Senators Ernst, 
Perdue, and Rounds all have a hard stop at the same time, 
Senator Kaine and I have agreed to withhold our questions until 
after they have had theirs at the conclusion of the remarks 
from General Crenshaw.
    General?

STATEMENT OF MAJOR GENERAL CRAIG C. CRENSHAW, USMC, COMMANDING 
            GENERAL, MARINE CORPS LOGISTICS COMMAND

    Major General Crenshaw. Chairman Inhofe, Ranking Member 
Kaine, and distinguished members of the Senate Armed Services 
Subcommittee on Readiness, I appreciate the opportunity to 
testify on an important aspect of Marine Corps warfighting 
readiness and our industrial depot. Industrial depot 
capabilities help ensure that your Marine Corps and our marines 
are ready today to succeed at difficult tasks and return home 
safely to their families. The workforce believes this 
profoundly and is mindful that what they do is important and 
that every day a marine's life depends on their success. This 
is why we sincerely thank you for your continued support that 
enables our success.
    As we look to the future, we see our depot as a pacesetter, 
modernizing to meet challenges while embracing the technologies 
of the 21st Century. Through our Marine Corps Logistics Command 
of the 21st Century and the depot of the 21st Century 
initiatives, the Marine Corps is posturing itself to execute 
its title 10 responsibility with logistics solutions that 
embrace evolving technologies and business processes in order 
to provide readiness that achieves Marine Corps Logistics 
Command's top priority which is supporting the warfighter.
    To communicate the value of our depot in providing the 
readiness to the warriors, I will touch briefly on four areas: 
depot maintenance, our workforce, innovation, and facilities.
    The Marine Corps ground weapons systems depot is centrally 
managed by Marine Depot Maintenance Command and is comprised of 
two production plants: one in Albany, Georgia and the other in 
Barstow, California. Each plant delivers its own distinct 
capability to the Marine Corps industrial base while 
reinforcing broader industrial base capabilities of the 
Department and the Nation. Both plants sustain competitive 
capability to repair our most valuable ground combat weapon 
systems, such as amphibious assault vehicles and our light 
armored vehicles. In addition, each plant specializes as the 
center of excellence for specific systems for the Marine Corps 
and other Department of Defense customers.
    Geography is also an important consideration for our 
plants. Strategically located near major east and west coast 
operational commands in California and North Carolina, our 
depot capabilities are collocated with our supply management 
and distribution centers in order to provide integration and 
efficient movement of equipment, including war reserves. Our 
Barstow production plant is situated with one of the largest 
railheads in the Department of Defense and astride some major 
interstate highways. Our Albany plant production plant, in 
addition to being collocated with the Marine Depot Maintenance 
Command and Marine Corps Logistics Command headquarters, also 
enjoys access to robust transportation infrastructure, as well 
as east coast seaports such as Charleston, South Carolina and 
Jacksonville, Florida, home to the Marine Corps maritime 
prepositioning program. I share this background so that you can 
understand our organization and that our location is integral 
to the success of our mission of sustaining readiness.
    The funding Congress provides to the Marine Corps depots is 
essential to readiness. Those funds are used to make sure the 
equipment marines need is provided when it is needed, where it 
is needed, and it moves, shoots, and communicates as intended. 
In fiscal year 2018, Marine Corps depot maintenance was funded 
to 80 percent of identified maintenance requirements. To 
optimize the impact on those funds and mitigate the gap, we use 
a conditions-based methodology and prioritize depot repair 
requirements based on warfighting value. These methods allow us 
to keep pace with the ever-present readiness challenges that 
have accumulated over the last 17 years of conflict.
    I must be frank about the challenge that you can help us 
with. One uncertainty is the fiscal environment has exacerbated 
this challenge. For each of the past 2 fiscal years, we 
received funding in the third quarter. Funding delays disrupt 
our maintenance production cycle and pressurizes the supply 
chain that supports production. It would be of great assistance 
to our effectiveness and efficiency if we could receive funding 
at the beginning of the fiscal year. The production plan that 
depends on timely resources is complex and diverse.
    Our depot would not be what it is today without the highly 
qualified experience of our workforce. The 2018 National 
Defense Strategy rightly identifies recruiting, developing, and 
retaining a high quality workforce as essential for warfighting 
success. The Marine Corps is building a balanced, competent, 
and adaptive workforce through recruitment, development of 
skilled artisans and employees who possess the right skills to 
accomplish our mission. We do this in many ways. For example, 
the strong relationship we have with our technical colleges and 
university, Albany State University and Albany Technical 
College. We have access to vital local talent that we can draw 
upon to sustain a workforce that increasingly requires a high 
level of technical skills. Specifically, we are grateful to 
Congress for providing direct hire authorities, which are a 
critical asset in the competitive environment of talent 
acquisition.
    Innovation is inherent and fundamental to marine tradition, 
doctrine, and leadership. Innovation is essential to the 
industrial capability we need and paves the path to the future 
readiness. At the service level, our Marine Corps Warfighting 
Lab, our Next Generation Logistics, and Installation-Works 
organizations are at the cutting edge of military innovation. 
These staff organizations are collaborating with an array of 
internal and external partners across the major categories. One 
of those categories is additive manufacturing. Across the 
Marine Corps, we have over 70 3D printers. Each of our 
production plants recently took delivery of a large-scale 3D 
metal printer. Our vision is to leverage this technology and 
produce targeted, positive readiness impacts. We are also 
seeking innovation and constant improvement through 
partnerships with academia. Marine Corps Logistics Command's 
relationships with outstanding academia institutions such as 
Georgia Institute of Technology and Penn State University 
exemplify how we are working to leverage the best in class 
supply chain manufacturing.
    My last topic is facilities. Modern, high quality, 
distributed industrial facilities are essential elements in 
maintaining a viable Marine Corps depot maintenance capability. 
We became acutely aware of this in January 2017 when the base 
at Albany was struck by a catastrophic EF-3 tornado. Your 
timely response has been invaluable to the restoration of our 
operations at our depot and other affected areas of Marine 
Corps Logistics Base Albany. Your fiscal year 2018 support to 
fund a military construction project for a tornado damaged 
combat vehicle storage facility in Albany is greatly 
appreciated as well.
    We are also very grateful for the fiscal year 2018 funds to 
build a combat vehicle repair facility in Barstow.
    Senator Inhofe. General Crenshaw, you have to wind up real 
quick.
    Major General Crenshaw. Yes, sir.
    The Marine Corps depot maintenance capability underwrites 
warfighting readiness in direct support of dedicated men and 
women. It is through your support that we continue to be 
successful. On behalf of all marines, sailors, and many 
deployed harm's way today and their families and the civilians 
that support their service, thank you for the opportunity to 
discuss our organic industrial base and its role in supporting 
the readiness of our Marine Corps.
    [The prepared statement of Major General Crenshaw follows:]

           Prepared Statement by Major General Craig Crenshaw
                              introduction
    Chairman Inhofe, Ranking Member Kaine and distinguished members of 
the Senate Armed Services Subcommittee on Readiness, I appreciate the 
opportunity to testify on an important aspect of Marine Corps 
warfighting readiness, our industrial depot. Industrial depot 
capabilities help ensure that your Marine Corps and our Marines are 
ready today to succeed at difficult tasks and return home safely to 
their families. The workforce believes this profoundly and is mindful 
that what they do is important and that every day a Marine's life 
depends on their success. This is why we sincerely thank you for your 
continued support that enables our success.
    As we look to the future, we see our depot as a pacesetter, 
modernizing to meet the challenges while embracing the technologies of 
the 21st Century. Through our ``Marine Corps Logistics Command of the 
21st Century'' and ``Depot of the 21st Century'' initiatives, the 
Marine Corps is posturing itself to execute its title 10 
responsibilities with logistics solutions that embrace evolving 
technologies and business processes in order to provide readiness that 
achieves Marine Corps Logistics Command's top priority of supporting 
the warfighter. To communicate the value of our depot in providing the 
readiness that warriors require, I will touch briefly on four areas: 
depot maintenance, our workforce, innovation, and facilities.
    The Marine Corps' ground weapons systems depot is centrally managed 
by Marine Depot Maintenance Command, and is comprised of two production 
plants: one in Albany, Georgia and the other in Barstow, California. 
Each plant delivers its own distinct capability to the Marine Corps' 
industrial base while reinforcing the broader industrial base 
capabilities of the Department and the Nation. Both plants sustain a 
competitive capability to repair our most valuable ground combat weapon 
systems, such as Amphibious Assault Vehicles (AAV) and Light Armored 
Vehicles (LAV). In addition, each plant specializes as a ``Center of 
Excellence'' for specific systems for the Marine Corps and our other 
Department of Defense customers.
    Geography is also an important consideration for our plants. 
Strategically located near our major east and west coast operational 
commands in California and North Carolina, our depot capabilities are 
collocated with our supply management and distribution centers in order 
to provide integration and efficient movement of equipment including 
war reserves. Our Barstow production plant is situated with one of the 
largest railheads in the Department of Defense and astride major 
interstate highways. Our Albany production plant, in addition to being 
collocated with the Marine Depot Maintenance Command and Marine Corps 
Logistics Command headquarters, also enjoys access to robust 
transportation infrastructure as well as major east coast seaports such 
as Charleston, South Carolina and Jacksonville, Florida--home to the 
Marine Corps' maritime prepositioning program. I share this background 
so that you can understand our organization and that our location is 
integral to the success of our mission of sustaining readiness for the 
Marine Corps.
                           depot maintenance
    The funding Congress provides to the Marine Corps' depot is 
essential to readiness. Those funds are used to make sure the equipment 
Marines need is provided when it's needed, where it's needed, and that 
it moves, shoots and communicates as intended. In fiscal year 2018, 
Marine Corps depot maintenance was funded to 80 percent of the 
identified maintenance requirement. To optimize impact of those funds 
and mitigate the gap, we use a conditions based methodology and 
prioritize depot repair requirements based on warfighting values. These 
methods allow us to keep pace with the ever-present readiness 
challenges that have accumulated over the last 17 years of conflict.
    I must be frank about one challenge that you can help with. Our 
uncertain fiscal environment has exacerbated this challenge. For each 
of the past two fiscal years, we received funding in the 3rd quarter. 
Funding delays disrupt our maintenance production cycle and pressurize 
the supply chain that supports production. It would be of great 
assistance to our effectiveness and efficiency if we could receive 
funding at the beginning of the fiscal year. The production plan, that 
depends on timely resources, is complex and diverse. In fiscal year 
2017, we remanufactured and repaired over 400 different kinds of 
equipment and returned over 8,000 items to operating forces--in 
addition to thousands of additional items that went into our strategic 
programs such as war reserve and prepositioning. The core of our 
productivity is consistently dedicated to our primary readiness 
drivers--Amphibious Assault Vehicles, Light Armored Vehicles, tanks, 
and lightweight howitzers. These systems comprise 50 percent of our 
fiscal year 2019 depot maintenance budget. Readiness of these and other 
critical systems will remain a service priority and underpin our 
overall ground equipment readiness strategy.
                               workforce
    Our depot would not be what it is today without a high quality, 
experienced workforce. The 2018 National Defense Strategy rightly 
identifies recruiting, developing and retaining a high-quality 
workforce as essential for warfighting success. The Marine Corps is 
building a balanced, competent, and adaptive workforce through the 
recruitment, retention and development of skilled artisans and 
employees who possess the right skills to accomplish our mission. We do 
this in many ways. For example, through strong relationships with 
colleges and technical schools such as Albany State University and 
Albany Technical college, we have access to vital local talent pools 
that we can draw upon to sustain a workforce that increasingly requires 
high levels of technical skill. Specifically, we are very grateful to 
Congress for providing Direct-Hire Authorities, which are critical 
assets in the competitive environment of talent acquisition. These 
authorities are an essential tools that allows us to level the playing 
field with industry in order to more quickly fill critical positions 
that require top talent and high demand skills. These hiring 
authorities will become even more important and effective going forward 
as we strive to develop the 21st Century industrial workforce needed by 
our Nation and our Marines.
                               innovation
    Innovation is inherent and fundamental to Marine tradition, 
doctrine and leadership. Innovation is essential to the industrial 
capability we will need and paves the path to future readiness. At the 
Service level our Marine Corps Warfighting Lab, Next Generation 
Logistics (NexLog), and Installation-Works (I-Works) organizations are 
at the cutting edge of military innovation. These staff organizations 
are collaborating with an array of internal and external partners 
across four major categories. One of those categories is additive 
manufacturing. Across the Marine Corps, we have over 70 3D printers. 
Each of our production plants recently took delivery of a large-scale 
3D metal printer. Our vision is to leverage this and other technologies 
to produce targeted, positive readiness impacts. We are also seeking 
innovation and constant improvement through partnerships with academia. 
Marine Corps Logistics Command's relationships with outstanding 
academic institutions such as Georgia Institute of Technology and Penn 
State University exemplify how we are working to leverage best in class 
supply chain, additive manufacturing and analytical expertise to 
enhance readiness and efficiency while posturing for the future.
                               facilities
    My last topic is facilities. Modern, high quality, and distributed 
industrial facilities are an essential element in maintaining a viable 
Marine Corps depot maintenance capability. We became acutely aware of 
this in January 2017, when the base at Albany was struck by a 
catastrophic EF-3 tornado. Your timely response has been invaluable in 
the restoration of operations at our depot and at other affected areas 
of Marine Corps Logistics Base Albany.
    Your fiscal year 2018 support to fund a military construction 
project for a tornado damaged combat vehicle storage facility in Albany 
is greatly appreciated. We are also very grateful for the fiscal year 
2018 funds to build a combat vehicle repair facility in Barstow. That 
badly needed facility will improve the productivity of the plant and 
significantly increase the quality of the work place for our artisans. 
We are also looking comprehensively at the future. To that end, we have 
initiated an industrial infrastructure strategy to clearly articulate 
the long term vision, priorities and pathway necessary to equip and 
sustain the industrial facilities that support our Marines and enhance 
the combat readiness of our Corps.
                               conclusion
    The Marine Corps' depot maintenance capability underwrites 
warfighting readiness in direct support of the dedicated men and women 
of our Corps. Its value is realized every day by forward deployed 
marines and sailors providing security around the globe, and its value 
is most apparent when the rigor of sustained combat operations drive 
surge operations throughout the industrial base of the Department and 
the Nation. The support of Congress, to our depot maintenance program 
and facilities, to our workforce and to the innovation that postures us 
for success now and in the future, is essential. On behalf of all of 
our marines, sailors--many deployed and in harm's way today--and their 
families, and the civilians that support their service, thank you for 
the opportunity to discuss our organic industrial base and its role in 
supporting the readiness of the Marine Corps.

    Senator Inhofe. Thank you, General Crenshaw.
    We will have 5-minute rounds. Senator Ernst?
    Senator Ernst. Thank you. I guess it is ladies first.
    General Daly, it is great to see you again. Thanks so much 
for your wonderful support at Rock Island Arsenal.
    About 15 years ago, I was running convoys with my soldiers 
through Kuwait and Iraq, and at that time, I was driving in a 
canvas-sided, canvas-top, zip-down vinyl window humvee. We all 
remember those days.
    But then all of a sudden, we started seeing the development 
of IEDs [improvised explosive devices], and more and more of 
those came out on the roads. At that point, we were using 
sandbags then to basically up-armor our own vehicles because 
there was not such a thing in our company as an up-armored 
vehicle. That is really where our arsenals came into play at 
that time and filled a critical role for the men and women that 
were on the roads in Iraq and, in turn, Afghanistan as well. 
They rapidly filled a need that the United States Army and the 
other components needed with up-armor kits. They did that in 
the drop of a hat. So we are very, very thankful for that.
    Unlike depots that perform maintenance on existing 
equipment on a more predictable basis and which are guaranteed 
a large percentage of Army maintenance, arsenals do not have a 
predictable workload. They do not have that type of supply.
    Can you talk briefly about the critical capabilities our 
arsenals provide to our national security efforts and what we 
can do to increase their workload? Because they are so valuable 
to us in our time of need.
    Lieutenant General Daly. Senator, that is a great question. 
Thanks.
    In terms of our strategy going forward for our arsenals, as 
you pointed out, the ebb and flow of that workload--there are 
critical capabilities within the arsenals that are needed to 
support the warfighter and readiness not only for the Army but 
for the Joint Force. As you know Watervliet in terms of what 
they do, in terms of manufacturing gun tubes and cannons, but 
also the Joint Manufacturing Technology Center at Rock Island 
is very, very critical in terms of their capabilities. As you 
know, we are increasing their workload.
    The initiatives that we have ongoing right now with AM 
General in terms of humvees but across the board--we are 
working hard at looking at the critical manufacturing 
capabilities needed at those arsenals and how we workload them 
predictably over the future. We are developing this 
comprehensive strategy that looks at that, that maximizes their 
abilities, and again going back to the workforce, utilizes our 
artisan skill set to be able to provide those capabilities to 
the warfighter.
    Senator Ernst. Just as follow-up please, can you provide us 
with an update on implementing guidance for a make or buy 
analysis when it comes to our DOD procurement?
    Lieutenant General Daly. I can, Senator. In fact, a make or 
buy policy was just signed by the Assistant Secretary of the 
Army for Acquisition, Logistics and Technology on the 15th of 
March. What we are looking at now is the comprehensive strategy 
and implementation plan associated with it. So it goes much 
more beyond just cost in terms of evaluation criteria. This 
gets at your point in terms of make or buy and the value of our 
arsenals. We expect that our implementation plan will be done 
within the next 30 to 60 days, and we look forward to sharing 
that with you.
    Senator Ernst. Excellent. I appreciate that very much, 
General. Thank you.
    I will yield back my time.
    Senator Inhofe. Senator Perdue?
    Senator Perdue. Thank you.
    Any hearing where the witnesses either outnumber or match 
the number of Senate members in here, you know it is an 
interesting topic. Thank you, guys, for all being here.
    I have 5 minutes. I am going to be very brief.
    Aside from the funding issues that we have all talked about 
before, the CRs [continuing resolutions] and what it does to 
you guys, sequestration, the Budget Control Act, I would like 
each of you to respond to one question. That is, would you rate 
your readiness capability right now within your command 0 to 
10, 10 being ready to go to war tonight or best in class, 
however you want to do it? But then give us three priorities 
that you are working on right now that would bring that back up 
to where you want it to be. Each of you, if you will. General 
Daly, do you want to start? Admiral Moore, he was trying to get 
you to go first.
    Vice Admiral Moore. I am happy to go.
    Senator Perdue. Do you want to do that? That is fine. You 
guys are filibustering my 5 minutes here.
    Vice Admiral Moore. I am happy to go first.
    So I think we are probably at a 6 or a 7 where we are 
today, which is probably better than the 3 or 4 I would have 
rated it at last year because we have started to grow the size 
of the shipyards, and we are almost at the capacity that we 
need to get to.
    A challenge remains. I really liked the slide that Senator 
Kaine handed out. I actually like the logo on the upper left-
hand corner there as well. I have seen the slide before.
    If you are talking the three challenges that we have, so, 
one, as we grow the size of our depots, the average age of the 
workforce has gone down. So we have a relatively inexperienced 
workforce compared to where we have been today. Now, that will 
start to stabilize and come back up as we sort of get to the 
level that we need to be at and just kind of hire at the level 
that we attriting at. So that would certainly be one of them.
    The second thing is I think in the naval shipyards and in 
my private depots that are doing surface ship repair, we are 
competing with the big tier one yards, Electric Boat, Newport 
News Shipbuilding, et cetera. As we ramp up to build new ships, 
we are competing for the same talent to repair the ships as 
they are as well. So there is a competition for the talent 
going on out there, and I think it is something that we are 
going to have to collectively address with industry to ensure 
we are getting the skilled labor that we are going to need on 
both sides, on the new construction side and on the repair 
side.
    Thirdly, I would tell you the third most important thing is 
a stable and predictable workload or stable and predictable 
funding, if you will, as we move forward. That is the one thing 
that really prevents the private sector from making the long-
term investments they need to be able to manage the growth to 
355 on the new construction side but also the repair work that 
is going to come along with that.
    So those would be the three things that I think would be 
the biggest challenges for me going forward.
    Senator Perdue. Thank you.
    Vice Admiral Grosklags. Senator, I will be brief.
    The first is infrastructure, which I touched on earlier. 
That includes both the facilities themselves, as well as the 
support equipment and tooling that lets the workforce do their 
job.
    The second is getting the skilled workforce that we need, 
the challenges with engineering, logisticians, but it is 
primarily for us with the skilled artisan in some of the very 
specific trades. So somebody asked earlier--that direct hiring 
authority is absolutely critical to us for that.
    The third thing is transforming our workforce and our 
workplace and our depots, our Fleet Readiness Centers, into a 
digital organization and getting out of the paperwork business, 
which is what we are mired in right now.
    So infrastructure, workforce, and digital transformation.
    Senator Perdue. Thank you.
    Lieutenant General Levy. Sir, thanks for the opportunity to 
comment on that.
    So you asked for a score, so I will give you one. I would 
give it an 8, 8 and climbing. But it is something we focus on. 
But I would offer that it is not simply the depot or the air 
logistics complex system. I would offer that it is the entire 
logistics kill chain that we integrate.
    To that point, there are parts of that that I would tell 
you that keep us from being better than we are today and things 
that we are focusing on.
    First and foremost for us would be software. If we are 
going to be a fifth generation Air Force, we need a fifth 
generation workforce, and that includes software sustainment 
capabilities. We treat software like hardware today, and we do 
not understand that our ability rapidly adjust software to meet 
emerging threats and protect against our own vulnerabilities is 
a challenge that we need to close the gap on very quickly 
inside of the larger industrial base. In my organization alone, 
3,500 software engineers. So there is lots of work to do there 
in terms of how we accelerate our software velocity.
    The second thing I would offer in my universe would be the 
supply chain. It is extraordinarily brittle. The industrial 
base is very small, both organic and commercial, and it 
presents some rapid expansion challenges for us in times of 
conflict.
    Lastly, I would be remiss if I did not also say workforce, 
workforce, workforce. The quality, the nature, the ability to 
hire, recruit, and retain. We do not have the right 21st 
Century mindset for a 21st Century workforce across the entire 
skill set base in the DOD, and we really simply need to change 
that.
    Thank you, sir.
    Senator Perdue. Thank you.
    Major General Crenshaw. Sir, one of the things--the 
number--I would say 7. Again, there is certainly room for 
continued improvement.
    As I look at the areas of priority and focus, this kind of 
goes back to my opening statement. People are important, and we 
have to have a viable workforce, one that is educated, one that 
is trained. Part of that is how do we train them in a manner 
that they are able to understand the new environment they are 
going to be operating in. We have kind of done that within the 
command, kind of explained to them what their future looks 
like. We are going to have to educate them in order to take on 
the new challenge.
    We need infrastructure to make that happen. Again, a lot of 
our buildings, much as the other services, are old buildings. 
We need to institute ways to make them a building of the future 
which has all the efforts of wifi, you name it when it comes to 
what the new building looks like.
    And then really the other one, sir, kind of capsulates on 
both, the interests of innovation. Because we recognize the 
environment of our workforce, we recognize the challenge of the 
workforce and the facility, how do you create an environment of 
innovation that causes people to understand how they fit into 
the organization. Once you get the buy-in as we see it from our 
workforce, that we will have the right skill set, right focus 
for our 21st Century Marine Corps.
    Senator Perdue. Thank you, sir.
    Lieutenant General Daly. Senator, from an Army perspective, 
we are in the process of refining our comprehensive strategy 
for revitalization of the organic industrial base. So I would 
give it a 7 and climbing. In fact, that report--I know it was 
due to Congress here based on section 326 of the NDAA.
    So three things that we are really focused on here, and it 
was mentioned by the other members of the panel here. One is 
workforce, the artisan skilled workforce that quite frankly is 
worth their weight in gold. With a workforce that in our case 
within the Army, 50 percent of the artisan workforce is over 
the age of 50 years old. And so to maintain that artisan 
workforce going forward is critically important. As you know, 
it takes several years to train and get an artisan to the level 
of competency that we need them at.
    The second piece that was mentioned but it is also for us, 
infrastructure and facilitization. So not just the buildings 
but obviously state-of-the-art 21st Century depot maintenance 
equipment to be able to improve efficiencies and increase 
efficiencies on the production line.
    Then the third is the way we are doing business in terms of 
change, and that is really developing and refining the way we 
workload our arsenals and depots and really to focus it on a 
workload that drives readiness to support the joint warfighter, 
and using business systems and innovation to do that, and in 
our business systems, looking at production planning, looking 
at auditability, and then looking at supply/demand forecasting. 
That would be overarching what we are focused on in this 
comprehensive strategy.
    Senator Perdue. Thank you, sir. Thank you all.
    Mr. Chairman, thank you for your discretion. Thank you.
    Senator Inhofe. Thank you, Senator Perdue.
    Let me just ask one general question here. You heard in the 
opening statement--my opening statement--we had a little 
colloquy with General Levy. I would like to know from each one 
of you. You are having the same problems. I hear from both 
sides, and I have even talked to our universities about this 
thing in terms of the problem with engineers. The quote that I 
used came from General Levy several months ago that they could 
hire every graduate that came out of Oklahoma University. How 
about the rest of you? Are you having the same problems?
    Lieutenant General Daly. Mr. Chairman, I would like to take 
that question first.
    In terms of the organic industrial base wage-grade 
workforce, quite frankly I think we have all the direct 
authorities for hiring that we need. So the six that were 
brought into the NDAA recently we feel very, very comfortable 
with. So between direct hiring authorities and then the 
Pathways programs, I could just give you a quick data point. To 
this point, we have hired about 147 with those new direct hire 
authorities, and then for the Pathways program, about 108 in 
the last year and a half. We see that increasing exponentially 
based on these new authorities going forward, again to get at 
the artisan workforce.
    In terms of STEM, we have really taken a proactive approach 
within the Army. Quite frankly, again there I think we have all 
the authorities we need as well. So we are engaging with 
colleges and universities. We are attending conferences, Beta 
Conference, the Woman of Color and STEM Conference, Hispanic 
engineer conferences. Quite frankly, this past year we have 
made almost 100 job offers on site at those conferences, as 
well as at colleges and universities. So I think we are given 
the authorities now to be able to hire both wage-grade 
employees for our artisan workforce, but also STEM employees as 
well right now.
    Senator Inhofe. So I think the short answer is no.
    How about you, Admiral Grosklags?
    Vice Admiral Grosklags. Yes, sir. On the engineering side 
of the house, we are hiring significantly more engineers for 
our FRC support this year than we have in the past.
    Senator Inhofe. Are you finding it, though?
    Vice Admiral Grosklags. To date, we are doing okay. As I 
mentioned in response to Senator Perdue's question, we are 
actually having a harder time with certain skill sets in our 
depot artisans, particularly in areas where there is a lot of 
competition like San Diego and where there is a very high wage 
rate. Our engineering workforce is spread around the country, 
and to date, we have been able to hire the engineers that we 
need. But it takes a lot of work.
    Senator Inhofe. Admiral Moore?
    Vice Admiral Moore. Yes, sir. On the engineering side of 
the house, we have to work hard to get them, but we are not 
finding on the engineering side of the house that we are 
challenged to find the engineers that we need in the depot.
    Senator Inhofe. General Crenshaw?
    Major General Crenshaw. Sir, today we are fine with them. 
As we look at are we going to envision our new depot, what is 
it going to look like, there will be a requirement for 
additional engineers. But today we are fine with it, sir.
    Senator Inhofe. Senator Kaine?
    Senator Kaine. Thank you to the witnesses.
    Admiral Moore, I want to ask you about this chart first 
since you noticed my NAVSEA [Naval Sea Systems Command] in the 
upper left. You can look at this chart two ways. So tell me 
what this chart says to you. It clearly shows that the average 
years of experience of shipyard workers and production workers 
is coming down. That could also be a sign of health if it 
showed a workforce where everybody was near retirement, now we 
are successfully bringing in younger people, and that is 
bringing the average years of experience down. So do you look 
at that chart as exemplifying a problem or some positives or a 
little bit of a mix?
    Vice Admiral Moore. Well, I think if you look at the chart, 
it was a negative probably up from fiscal year 2006 to fiscal 
year 2011 because that was an era where we were not hiring and 
we were losing experienced workers.
    I think that what you are seeing from 2011 on--and you will 
notice in 2016 and 2017, it has leveled out. I think it is a 
positive because we have ramped up substantially, and we are 
going to be at 36,100 by the end of calendar year 2018. At that 
point, then I adjust the faucet so that the attrition, which is 
about 6 percent historically, matches the people I am hiring. 
And so you will start to see, I suspect, starting in fiscal 
year 2018----
    Senator Kaine. It will start to come back up.
    Admiral Moore.--you start to see this number come back up. 
So I think this is kind of a tale of two cities here, probably 
not a good news story for the first half of the chart, but 
probably a reflection of a pretty good news story going forward 
that we have recognized that we have got to bring the capacity 
of the depots back up. This was a necessary outcome of hiring 
the people.
    Senator Kaine. Excellent.
    I want to ask you about the shipyard infrastructure 
optimization plan. That plan suggested significant additional 
investment, $21 billion over the course of a number of years. 
This is going to be an optimization and modernization while you 
are also using the shipyards for normally scheduled maintenance 
availabilities.
    Talk to us about sort of how you plan to execute over this 
long period of time if we do what we need to do budget-wise and 
what will sort of the metrics and measurements be to determine 
whether those dollars are being invested the right way to get 
us where we need to be.
    Vice Admiral Moore. Yes, sir. Thanks for the question.
    So we, as we go, make the investments in the yard. This is 
the first time that we have put an integrated plan together 
that looked across all four yards.
    We know where the investments are going to be made year to 
year. What we will do is we will make sure that the work in 
that particular depot in that year--we will make sure, for 
instance, if I am working on a dry dock at Norfolk Naval 
Shipyard in 2022-2023, we will clear out dry dock work to the 
left and right of that so we will not interfere with that.
    But undoubtedly, there is going to be some impact to 
productivity. It is kind of like--my analogy is--I have been 
living here for 19 years, and when I first moved here, they had 
not built the mixing bowl yet and you still had to get to work 
every day. But somehow they were able to figure out how to go 
build the mixing bowl, at the same time allowing----
    Senator Kaine. I was the governor when we built the mixing 
bowl.
    Vice Admiral Moore. You sure did a great job. I think it 
was on cost and under schedule.
    [Laughter.]
    Vice Admiral Moore. So we will have to be sensitive to 
watching productivity in particular when we are moving and 
building new shops and moving the workforce in the yards. We 
will have a plan to do that.
    As far as the long-term metrics on how this plan goes, we 
are going to manage this like a shipbuilding program, not like 
four individual shipyards. So we are standing up a program 
office, which will have the authorities to go manage this. I am 
going to be the person responsible for the plan. The Chief of 
the Naval Installations Command and Facilities Command will all 
work for me so that we can integrate all the pieces together.
    So two things. Near term what we will measure is our 
ability to get things under contract and meet program 
milestones, and then as we start the work, we will measure 
productivity in the shipyards and throughput. So we will be 
able to show you, as we start working on these projects and as 
we start to recapitalize the yards--you will see the cost 
performance and the throughput in these individual yards 
improve. Ultimately, when we finish the plan, we believe that 
the plan itself eliminates 6 percent of wasted time in the 
shipyards just traveling to and from the buildings to the 
docks. So the long-term plan will provide substantial savings 
and throughput, and we should be able to execute the same 
amount of depot work that we are today with probably a smaller 
workforce than we have today going forward, and I think that 
would be good news for all of us.
    Senator Kaine. I have one, Mr. Chair, that is going to 
require a little bit of an answer. So why do I not allow 
Senator Rounds to go first?
    Senator Inhofe. That would be great.
    Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman. Thank you, 
Senator.
    Vice Admiral Moore, you talked about this in your opening 
statement a little bit, but I would like to pursue it a little 
bit more. When you and I met back in September of 2017, we 
discussed the attack sub maintenance delays. Of particular 
concern to me at the time were the delays facing the USS Boise. 
I understand that insufficient public shipyard capacity has led 
to cost inefficiencies and delays and that the Navy was 
rescheduling some of the planned maintenance to private 
shipyards. I believe the USS Boise was rescheduled from a 2016 
public shipyard planned maintenance to, if I am correct, to a 
2019 private shipyard availability. Now, you talked about this 
briefly earlier in your comments.
    Would you mind giving us some more information both on the 
delays surrounding the Boise, where it is at right now, and 
then also as well the other nuclear attack subs that may also 
be experiencing similar delays and what the plans are to 
eliminate those delays?
    Vice Admiral Moore. Thanks, Senator, for the question.
    So there are no other Boise-like submarines out there. So 
we have gone back and looked at the rest of the submarine fleet 
and ensured ourselves from an engineering standpoint and where 
they are going to be loaded in the yard that we do not have the 
delays that we saw on Boise.
    You know, there is no reason that Boise should have 
happened. The Navy should have been able to predict far enough 
in advance that we did not have the capacity at our naval 
shipyards to do that work.
    So today, Boise is going to go to Newport News Shipbuilding 
starting in January 2019--you are correct--and we will deliver 
in the 2020 time frame. So we are talking about a substantial 
period being off line.
    We have gone back and looked at the rest of the submarine 
fleet. We have also recognized that when we do not have the 
capacity in the yards, we need to go look to the private 
sector. We have four submarine availabilities right now, USS 
Helena, USS Columbus and Boise at Newport News Shipbuilding, 
and USS Montpelier up at Electric Boat [EB]. Both Newport News 
Shipbuilding and Electric Boat have told the Navy they are 
happy to provide capacity when we reach a situation when we do 
not have the workload.
    So as we move forward, we absolutely have the ability to 
predict when I have too much work for the capacity in the 
shipyards I have. That is going to be minimized by our growing 
the workforce from around 30,000 up to 36,100. But we know far 
enough in advance that if I do not have the capacity, we should 
move to go put that work into the private sector where the 
capacity exists.
    Senator Rounds. I have got to ask this, and perhaps I am 
misunderstanding. But it seems that last time that we were in 
this room and talking about these issues, there were at that 
time several other nuclear attack subs that were in the same 
position or coming up on the same position as the Boise. The 
Boise had been docked not in dry dock or not in depot, but had 
been docked for more than 3 years. Perhaps my information is 
off by a year. But I am just curious. What changed from last 
September until now that allows us to feel confidence that the 
backlog at the depot or at the facilities has been addressed? 
Because we had those private facilities and public facilities 
at that time as well. What changed in terms of management style 
or management directives?
    Vice Admiral Moore. So I think it is two. It is certainly a 
management directive that we look further out than we did 
before. So that is why you have the four submarines in there 
today. We are looking very closely, as we head out into 2020, 
2021, and 2022, where we have a significant amount of work, is 
there opportunity to perhaps put some of these submarines into 
the private sector at Newport News and Electric Boat. In fact, 
it may have a benefit to both Newport News and EB as they have 
a requirement to start ramping up their workforce as they start 
to build Columbia and the two carriers. So there is a benefit 
there.
    To your first question on what has changed since last 
November is we have done a detailed engineering analysis of 
each submarine, and I can tell you there are no Boise-like 
submarines out there. There are a handful of submarines which 
will have a delay getting into a yard on the order of months, 
single digit months, less than 5 months, versus the Boise, 
which was years. So we have the capacity in the shipyards to go 
put these submarines into the availability, and we will not 
have another case of a submarine sitting pier-side for years 
like Boise has before we start the work on her.
    Senator Rounds. Very good.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you.
    Senator Kaine?
    Senator Kaine. Yes. Just one last question that I wanted to 
ask, and it is really for each of you.
    There has been some indication that committee members have 
heard that the Department is considering outsourcing some of 
the depot and other organic industrial base facilities to 
private contractors for cost savings or other reasons. I would 
like each of you to talk about that as we seek to rebuild the 
military and improve readiness. Do you think that we need to 
outsource more work to contractors? Is that sort of the plan 
that is in place in any of your responsibilities, or is there 
more of a focus on strengthening the Government yards, depots, 
and workforce? It could be a little bit of both. So I am 
curious.
    Lieutenant General Levy. Senator, thank you for the 
question.
    So from an Air Force perspective, we are actually bringing 
work into the organic industrial base. What we find is that we 
have been more cost effective and we have achieved greater 
throughput through our efficiencies, through our ability to 
implement across my logistics enterprise, the command I am 
lucky enough to lead, called the ``art of the possible.'' That 
is how we manage the horizontal enterprise. By doing that, we 
have created efficiencies, cost savings, throughput 
improvements, readiness increases, all the numbers that you 
would look for in that kind of activity. What that has done is 
it has created some competition in the marketplace where in 
some cases there has not been competition. We have raised our 
performance, and that has given us capacity and capability and 
desire to bring work in.
    A great case in point at Robbins Air Force Base. By 
improving the performance on some of the C-130 lines, we 
increased the capacity and drove the cost down such that we 
could go back to the Air Force and say, you want to put 
infrared countermeasure systems on those airplanes? Okay, we 
now can do that more affordably and we have the real estate, if 
you will, to bring those airplanes and do it when previously 
the Air Force did not have the money allocated and did not have 
the time available in the production flow.
    So we have been able to do things like that across the 
enterprise not just for airplanes but for software--and we can 
talk about that extensively--but also for commodities. I would 
also tell you that at least in our organization, 70 percent of 
what I do is for the Air Force. The other 30 percent is for my 
teammates here to either side of me, for example, Navy and 
Marine F-135 engines for the F-35 at Tinker, and I could go on 
and on supporting the F-18's, et cetera.
    So that increase in performance and improvement in capacity 
allows us to help the joint team as well, not just the Air 
Force team. So not much desire at all to move it to the 
commercial space. It is actually quite the opposite because of 
performance, efficiency, and effectiveness reasons.
    Senator Kaine. How about our other witnesses?
    Major General Crenshaw. Sir, again, a great question. 
Thanks for allowing me to have a chance to speak on it.
    I think there is value when you look at, in some cases, 
surges, how the industrial base or commercial can support you. 
But I think as the Marine Corps, being able to support the 
Marine Corps, being able to be able to deliver as required to 
support our Commandant's requirement, at the same time as I 
spoke to earlier, as a depot and arsenal, we have numbers of 
groups. I look at where is the best place to go to get work 
done. The Army does a lot of work for the Marine Corps at 
Anniston. The Army does our tanks. At Letterkenny, they do work 
for us and Tobyhanna, even to include the Navy and the Air 
Force. So we do have, I believe, a good commission that kind of 
outlines where are the best places to put the resources based 
on type of work that needs to be done. But I think there is 
value when it comes to maybe surge capability that we cannot 
field, for whatever reason it may be, that we rely on the 
commercial industry to provide that gap for us.
    Senator Kaine. Please, Admiral Moore.
    Vice Admiral Moore. Yes. First and foremost, the most 
important thing is to make sure that the public organic depots 
are sized properly to handle the work. So there is no plan to 
outsource significant amounts of work to the private sector.
    Having said that, you would like a level workload. That is 
the best, and we do have an obligation to manage the entire 
industrial base. Where there is opportunity in a year where we 
may have more work than we would typically have in a normal 
year, I think it would make sense for us to go look to the 
private sector as a way to kind of balance that out. But there 
are no plans, in the name of cost savings, to outsource work.
    Senator Kaine. Thank you, Admiral Moore.
    Vice Admiral Grosklags. Senator, there is certainly no 
overarching plan one way or the other, quite honestly. We deal 
with each individual case kind of on its own merits both from a 
business as well as a risk management perspective, whether or 
not we want to keep that work inside the Government. One area 
where we have started establishing more commercial capability 
is second sources of component repairs that we do at our 
organic sites to help with some of the workload. But if I look 
across our expectations for our organic workload for the next 5 
years, it is not going to go up or down dramatically over that 
time period. It is fairly consistent.
    The other thing we are seeing more of, quite honestly, are 
public-private partnerships where we and industry are teaming. 
One or the other has the lead, but we are working together to 
get capabilities back out to the fleet.
    General Levy mentioned, I think one of the areas where we 
are trying to pull actually more work into the Government is in 
software, and we would really, I think collectively with the 
Air Force, like to get our arms around the F-35.
    Senator Kaine. Got it.
    General Daly?
    Lieutenant General Daly. Senator, I appreciate the 
question.
    Just as was mentioned earlier, I think it comes down to the 
exact type of work. There are some specific critical 
manufacturing and depot capabilities that only exist in the 
organic industrial base, for one, and then looking at where our 
centers of excellence are in our 23 organic industrial base 
facilities, whether they are in maintenance or ammunition.
    The second piece is in terms of private-public 
partnerships. Right now, we have about 263 private-public 
partnerships valued in terms of revenue at about $263 million. 
So that is situations where we have companies that are 
operating in our depots hand in hand. Obviously, it affects 
cost. It affects quality. It shares best practices and then 
drives innovation as well.
    Then the third piece is the joint workload that we just 
talked about. So we do, as you know, a significant amount of 
joint work. If you look at Anniston, for example, mentioned 
with M-1 tank engines, the M-1's--and our joint work right now 
is about $5 billion over the past several years with about $500 
million programmed for this upcoming year.
    So it is really a balance of all to really get at the 
complexities and the totality of the capabilities in the 
industrial base.
    Senator Kaine. Great. Thank you for that full answer.
    Senator Inhofe. Senator Perdue?
    Senator Perdue. Thank you again.
    I just have one closing question. I do not need a response 
from all of you, but I would like you to think about this. This 
is bigger than your responsibility, but you guys have the 
backbone of our kinetic responsibility of getting ready to 
fight again.
    But also in the other two domains, we mentioned space, 
General Levy. Nobody has mentioned cyber today. I will hold 
that to the side.
    But in terms of the leadership continuity, each of you are 
laying in plans right now that will go beyond your tenure. That 
is the normal thing at your level. You are the up and comers of 
our DOD leadership, but you will be on a new responsibility as 
these plans come to fruition.
    Are we in a moment of crisis that we need to review that at 
this level of leadership? I am not talking about chain of 
command progression, et cetera, et cetera. But this is a 
difficult question. A new leader comes in. New priorities are 
set. A new focus is made, and all of a sudden we might lose the 
continuity that you guys are laying in right now. This is 
coming from a guy that has been a turnaround guy doing exactly 
what you are doing right now. If you had changed the top guy in 
the middle of that process, I guarantee you it would slow that 
process down, change directions. It would be an inefficient use 
of resources.
    My challenge within the DOD structure of moving individuals 
through their career at this level--we are all at very senior 
levels here. How would you respond to that today? I mean, how 
should we think about that here in terms of trying to--I know 
our biggest responsibility is getting the funding. We got that 
and we are on it. I consider that the most important thing in 
the United States Congress today is to fix that one thing. But 
aside from that, I am looking at something here that--please 
address the continuity of leadership as you go through a 
multiyear effort to get this thing turned around. Anybody. 
Admiral, you reached first.
    Vice Admiral Moore. I should have let the marine go first.
    [Laughter.]
    Vice Admiral Moore. So I think it depends on the job. So if 
you are talking major business-oriented job like a systems 
command or a program executive officer, I think having longer 
tenure agreements to stay in these jobs makes sense. I was the 
program executive officer for an aircraft carrier for 5 years. 
So that is a substantial amount of time to really try to go 
make change. I do not know if I will be in this job for 5 
years.
    But I think there are particular jobs which are very 
business-oriented, if you will, and change-oriented, talking 
about management plans. Those jobs probably require us to stay 
in those jobs a little bit longer than we would, say, in some 
of the fleet operational jobs where you have got to go build a 
skill set pretty quickly to move up to the four-star rank.
    Senator Perdue. Sorry. But the turnover at your level is 
not necessarily the entire story. You have got big staffs that 
run this too. And so you do not turn everybody over at the same 
time. Is that correct? I mean, for the most part.
    Vice Admiral Moore. That is correct. At the systems 
command, 90 percent of the systems command is civilian. So I 
have a very strong leadership team there that provides some of 
that continuity as well. So there is a balance there. It is not 
a wholesale change-out. I may move but a lot of the senior 
leadership at the systems command will stay in place.
    Senator Perdue. General Crenshaw, do you have something?
    Major General Crenshaw. Sir, just from the Marine Corps 
perspective, if you look at this, it is really much broader 
than at the level that I am at at this command level. It is a 
top-driven issue. We do not operate independently in terms of 
what that cyber plan is. It is less about the individual who is 
in command. It is more of a process, what type of things we 
have in place that allow that focus to stay.
    Marine Corps Cyber Command kind of has that overarching 
responsibility in terms of how do we fight this and what are 
the right process and policies and training that is required 
that goes into the various commands at different levels. So it 
is not an independent command. It is more of a Marine Corps 
process and overarching approach and how you get after that. So 
almost anyone can come in and fill the shoes and continue to 
move because the process in place allows us to get after that 
issue of cyber threat, sir.
    Senator Perdue. Thank you.
    Senator Inhofe. Thank you, Senator Perdue.
    First of all, the line of questioning that Senator Kaine 
came up with talking about the core capability, no one said it, 
but let us go back historically. The reason for that is--it is 
a security reason that we have to keep that capability there. I 
can remember back when--I have been around long enough--there 
were a multitude of contractors and all of that. Then when it 
became smaller and smaller, to me that became more important 
because we do not want to be in a position where we are held 
hostage.
    I would just ask you a yes or no question. Do you think 
right now with the requirements that we have concerning core 
capability that is adequate in your minds?
    Lieutenant General Daly. Mr. Chairman, I think it is 
adequate right now.
    Vice Admiral Grosklags. Adequate and appropriate.
    Vice Admiral Moore. Yes.
    Lieutenant General Levy. Yes, Mr. Chairman, I think so.
    Major General Crenshaw. Yes, sir.
    Senator Inhofe. Even though it was totally arbitrary.
    We had a hearing yesterday, and we talked about the--well, 
I would say the aircraft--the problems that we have right now. 
We have the KC-46 is going to be coming on board. We have had 
the KC-135 for 61 years. We have discontinued the production of 
a KC-17--or C-17. When you are looking at this and we are 
looking at the fact that the KC-46 is still down the road--and 
this would be for you, Admiral Grosklags and you General Levy--
do you think the math is going to work on that? And is that not 
going to have the effect of increasing your workload? Are you 
going to be capable of handling that? Because the big question 
that was before our committee yesterday is the math working in 
terms if we are going to be able to keep the equipment going 
long enough until help has arrived with the KC-46. What do you 
think about your capability of doing that? Because the older 
the vehicles get, the longer it takes to maintain.
    Lieutenant General Levy. So, Senator, thanks for the 
question.
    You are spot on. Absolutely, the older the equipment gets, 
the more it takes to maintain and the more it requires us to 
plan and be thoughtful and the more it requires us to manage 
the industrial base to support that weapon system. So I will 
give you a vignette on the KC-135 and then I will connect it to 
your KC-46 question specifically.
    So the single source repair for the KC-135 for modification 
and for maintenance repair and overhaul for depot maintenance 
is Tinker Air Force Base. Last year, they did 73. They are on 
track to do 75 this year. That is a pretty significant number 
of airplanes. All the while the workload package, the amount of 
work, if you will, the hours, however you want to measure it, 
has almost doubled--almost doubled--but yet we have held the 
amount of time that they have remained in the facility fairly 
constant, accommodated that almost doubling of workload, and 
still met the warfighter requirements to produce the aircraft 
availability that he or she needs to fly.
    Senator Inhofe. You see that is the past. I am projecting 
forward.
    Lieutenant General Levy. So if past is prologue for us and 
I look at the trend lines, I would say we are absolutely poised 
to continue to support the KC-135 while the KC-46 comes on 
board. I think that is your specific question, sir.
    Senator Inhofe. Well, it is. Right now, they are talking 
about 179 is the figure they are using in the KC-46. But we 
always know that--you know, it is going to fall behind that. We 
know that. But go ahead.
    Lieutenant General Levy. So as the sustainment guy, I will 
not necessarily speak to the requirements side of that. I will 
leave that to Air Mobility Command and U.S. Transportation 
Command [TRANSCOM]. That is maybe a little bit out of my lane.
    But to your question about can we keep the 135 going as the 
KC-46 comes on board I think is sort of your question for us as 
professional sustainers, the answer is yes. As you know, the 
Air Force has a plan to keep the KC-135 in the inventory till 
the 2040s time frame. So we are on path. We are on course, on 
glide slope to do that.
    Senator Inhofe. Admiral?
    Vice Admiral Grosklags. Senator, it is kind of an 
interesting question. When I look at the new platforms we have 
coming on line--take P-8, for example, where there are certain 
pieces of equipment on that aircraft, certain parts that we are 
100 percent organic. There are other parts such as the engines 
and big chunks of the airframe, because it is a commercial 
derivative aircraft, that it makes much more sense to use 
commercial capabilities that already exist out in the private 
sector. So that is one instance.
    F-35 is another great example where General Levy and our 
organization are working with the program office to try and 
increase the speed with which we transition that work from the 
private sector into our organic depots. I think it is important 
to note we have the ability to surge or increase our capacity. 
We just need a couple years to do it, whether it is facilities 
or as we have talked today about workforce. So bringing a new 
airplane on line or new type model series or taking something 
that is in the commercial sector today and bringing it into the 
organic sector does not concern me at all as long as we have 
got the amount of time we need to plan and get adequate 
workforce and tooling in place.
    Hopefully that answers your question. I think it depends on 
the airplane.
    Senator Inhofe. Yes, it does. This comes from the hearing 
we had with TRANSCOM yesterday. So I knew we were going to be 
in this today.
    All I have left is one. I want to get this on record for 
each one of you to respond to two things. You had to be going 
through a real era of trauma before we took care of the fiscal 
year 2018 and fiscal year 2019. What I would like to get from 
each one of you, if we are not able to continue to do that, 
because that stops in fiscal year 2020--now, if that should 
happen, what is going to happen to you at each of your 
facilities if we do not rectify that and continue that past the 
end of fiscal year 2019?
    Lieutenant General Daly. Mr. Chairman, if we do not 
continue beyond 2019----
    Senator Inhofe. So it goes back, you know, what happens if 
we do not.
    Lieutenant General Daly. I am sorry, Mr. Chairman.
    Senator Inhofe. Well, you know the consequences if we 
cannot continue what we did in 2018 and 2019 into future years.
    Lieutenant General Daly. Yes, sir. If we do not continue 
beyond 2019, there will be significant adverse impacts to the 
organic industrial base.
    Senator Inhofe. Okay. Try to be a little more specific.
    Vice Admiral Grosklags. My answer is going to be less about 
the organic industrial base and more about the readiness of the 
fleet because in the end the organic industrial base there is 
to ensure that we have that readiness. What you have seen up 
until the fiscal year 2017 additional funding and then into 
2018 and 2019 is that the state of naval aviation readiness has 
degraded significantly over the last 7 or 8 years. That is due 
in large part to the fact that our readiness accounts, which 
include support for our fleet readiness centers, have been 
funded well less than the requirement.
    I will give you a great example. Just spares for aircraft 
across that 8-year period was funded to an average of 72 
percent of the requirement for 8 years. That is like skipping 
two full years of funding spares at all. That is the type of 
impact that will continue to perpetuate itself if we cannot get 
a consistent budget after 2019. It is both consistency as well 
as--people have mentioned--getting it on time at the beginning 
of the fiscal year.
    Senator Inhofe. The reason I am asking this, we want to get 
something started on the record now to prepare for that 
possibility.
    Vice Admiral Moore. Thank you, Senator, for the question.
    I agree with everything that Admiral Grosklags said, and I 
would additionally add that we are already seeing some of this 
in the private sector right now because they know the money is 
there in 2018 and 2019. They are not sure it is there in 2020 
and 2021. Therefore, they can see the workload in 2020 and they 
should be hiring just like I am hiring in the naval shipyards, 
and they are hiring at a much slower pace because they are not 
sure the money is going to be there in 2020. So they are not 
hiring and they are not making the investments in the private 
sector surface ship facilities. We are already starting to see 
a little bit of a backlog in work in private sector surface 
ship maintenance because of their reluctance to make the long-
term investments and hiring necessary because they do not know 
if there is any stability in the plan beyond 2019.
    Senator Inhofe. Excellent.
    Lieutenant General Levy. Mr. Chairman, so I would agree 
with everything my colleagues said.
    So we have been managing in this unusual fiscal 
environment. We have a 2-year agreement that adds funding. The 
majority of it, at least in the Air Force, is for 
modernization, which we very desperately need. It helps us with 
readiness. Please, do not misunderstand me. We are grateful for 
that. But we have the same concerns particularly in the 
industrial base, both the commercial and the organic industrial 
base, where I see, just like Admiral Moore opined, commercial 
industries somewhat reluctant to take risk because they are not 
sure that there will be the opportunity in 2020 and beyond. And 
so they are hedging.
    What that does for us from a readiness perspective is that 
sort of diminishes the value of the money you have given me 
today--right--because the vendor says I am not sure you are 
going to be there in 2020. I am not so sure how much I am going 
to respond to you today even though you have money today. That 
runs a readiness risk. So in one or two little examples, it is 
not particularly impactful, but what I would tell you is across 
the $9 billion of the supply chain that I manage for you every 
year, it is corrosive. When that corrodes, it affects fleet 
readiness, and when that affects fleet readiness, pilots do not 
fly. When pilots do not fly, they leave the Air Force. All of 
these things are very interconnected from the budget to the 
industrial base, both organic and commercial, all the way to 
our readiness of our Air Force, sir.
    Senator Inhofe. Excellent answer.
    General Crenshaw?
    Major General Crenshaw. Chairman, sir, thank you.
    I could not have stated it any clearer than what has been 
said earlier.
    I would add it is all about readiness. For the Marine 
Corps, it is. We are trying to maintain some legacy systems 
today as we wait for our new ACVs [amphibious combat vehicles] 
to come on board, other new tech equipment. And so not having 
that dedicated funding and deliberate funding can reduce our 
readiness, as well as General Levy talked to, there is a 
possibility of our workforce. So what do they do? As they start 
to read the tea leaves as well, do we have a probability of the 
workforce moving to another sector where the organic base now 
does not have that workforce to meet the potential workload of 
the future. So all those are different variables that we kind 
of look at as we address the funding issue as we go forward, 
sir.
    Senator Inhofe. We saw the problem that you had with the F-
18 during this past 4 years.
    All right. We do not have any more questions. We appreciate 
very much--I really wanted to get this on record, though, 
because people are kind of shrugging their shoulders. They are 
not too sure. There is a lot of competition with defending 
America. I do not think there should be but there is. So we 
want to prepare for it now.
    I appreciate all of you and the statements you made and the 
help you are to us.
    We are adjourned.
    [Whereupon, at 3:57 p.m., the committee was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator David Perdue
                            workforce issues
    1. Senator Perdue. Lieutenant General Levy, in your written 
testimony, you discussed the antiquated hiring process for the civilian 
workforce and the need to recruit and hire a ``fifth-generation 
workforce'' with an emphasis on Science, Technology, Engineering, and 
Math. Can you tell me, how long on average, does it take you to hire a 
scientist, an engineer, or a trained mechanic?
    Lieutenant General Levy. Scientists and engineers (S&E) average 97 
days; trained mechanics average 114 days.

    2. Senator Perdue. Lieutenant General Levy, what is causing this 
delay, and have you been able to overcome the hurdle of last year's 
civilian hiring freeze?
    Lieutenant General Levy. With regard to the hiring freeze, due to 
the rapid approval process and exemptions the Depots did not have 
problems recovering. However, our Air Base Wings and supply chains are 
still recovering. Delays in Hiring: Overall the hiring process is slow 
to need as our average time to fill an S&E and FWS position in 
comparison with industry is significantly higher. We must continue to 
drive the timeline down through our Art of the Possible initiatives. In 
addition:

    <bullet>  S&E: The main challenge is keeping the candidate 
interested and engaged during the recruitment process while waiting for 
a firm job offer. Air Force Sustainment Center (AFSC) was 134 S&Es 
short of its hiring target of 417 in fiscal year 2017 and will most 
likely fall short of the 560 target in fiscal year 2018.

    <bullet>  Federal Wage Grade Positons: Due to low unemployment and 
the changing landscape (i.e. higher levels of skills to support new 
technology, etc.), a trained mechanic is hard to find. We have a 
shrinking candidate pool as industry is paying higher salaries and 
making firm job offers to students prior to graduating the Vocational 
Technical Schools.

    3. Senator Perdue. Lieutenant General Levy, does the slow hiring 
process impact your ability to recruit new and talented people?
    Lieutenant General Levy. Yes on all fronts. We are facing a supply/
demand crisis in a variety of different series. Whereas industry can 
compensate (i.e. salary increases, higher bonuses, etc.) if they face a 
shortage to meet their demands, the Department of Defense does not have 
the flexibility to react in a corresponding fashion in either the 
General Schedule (i.e. Science & Engineering, child care, air traffic 
controllers, firefighters, etc.) or the Federal Wage System (mechanics, 
Non-Destructive Inspection inspectors, etc.).

    4. Senator Perdue. Lieutenant General Levy, how can you stay 
competitive in the market for these highly qualified people?
    Lieutenant General Levy. There must be a multi-prong approach to 
this problem:

    <bullet>  OPM's Federal Wage Classification Standards, established 
in 1965, have had only minor revisions that have not kept up with the 
pace of technology and/or skills requirements. This is not progressive.

    <bullet>  We must recognize that the Federal Wage System employee 
skill sets, as well as the technology to operate in those environments, 
have changed. We must have the ability to develop a flexible, fluid 
process to classify positions that rapidly respond to our changing 
environments, enabling our supervisors to compete and pay for the 
talent they require.

    <bullet>  We must protect our benefits for our civilian workforce. 
There are numerous studies published which show the fifth generation 
workforce values quality of life issues more than higher salaries. 
Preserving existing core benefits, and exploring other opportunities 
for expansion, is a critical piece to our success.

    <bullet>  Expand flexibilities in support of school loan repayment 
programs, increasing funding for tuition assistance, moving costs to 
attract out of state candidates, recruitment/retention guidelines, 
graduate programs leading to Master's and, in some cases, PhD degrees 
paid for by the Department. Increase internship programs such as Palace 
Acquire, SMART Scholars, etc.

    5. Senator Perdue. Lieutenant General Levy, how would competitive 
salary and benefits for the STEM workforce improve the Air Force's 
ability to hire and retain a highly skilled civilian workforce?
    Lieutenant General Levy. The AFSC loses quality Science & 
Engineering candidates due to low starting salaries for our engineers 
in comparison to industry. We have made some advances with the onset of 
Acquisition Demonstration as we have established pay setting guidance 
based on local market conditions. However, due to limited budgets and 
unemployment conditions, we still fall short. We have combined the 
flexible pay setting with recruitment bonuses to help us fill the 
majority of our positions. A competitive salary, combined with 
increased quality of life benefits and additional flexibility in work 
hours would enhance our ability to effectively compete for, and retain, 
these talented individuals.

    6. Senator Perdue. Lieutenant General Levy, what more can be done 
on our end to help you hire the right people faster?
    Lieutenant General Levy. Defense Acquisition Workforce Development 
Fund (DAWDF) funds are sporadic in delivery making early recruitment 
initiatives within our Science & Engineering community difficult. We 
need Congress to help advocate the continued support of this funding as 
it helps us deploy our critical outreach programs, offer incentives in 
sometimes budget constrained environments, and retain/ develop our 
acquisition workforce. Initiate the security clearance process at the 
time of the tentative job offer; not waiting until the firm job offer 
is made. Many tentative job offers are made months in advance of the 
firm job offer. These months can be well spent clearing the selectee 
for the level of security needed. For example, the wait time for an F-
22 employee security clearance is approximately 200 days after the 
person's effective date. If the selectee starts the security process at 
the tentative job offer stage, this could cut the time down to an 
average of 80 days.

    7. Senator Perdue. Lieutenant General Levy, as you know, SASC 
granted Direct Hiring Authority for depots. To what extent have all the 
DOD maintenance depots begun using the Direct Hiring Authority to hire 
new personnel?
    Lieutenant General Levy. Over the last 6 months Direct Hiring 
Authority accounted for 89 percent of our external hiring actions; 1398 
personnel were on-board within an average of 79 days. Note: The 
remaining 11 percent were brought on board through veteran's hiring 
authorities (VRA, VEOA), Schedule A (30 percent disabled vet program, 
persons with disabilities), as well as traditional hiring.

    8. Senator Perdue. Lieutenant General Levy, has this authority been 
a useful and necessary tool used during recent hiring actions, and to 
what extent has this hiring tool been more beneficial or useful in 
certain regions of the country than others?
    Lieutenant General Levy. Direct Hire Authority has helped us 
revolutionize the way we hire in a number of ways. First, it has 
brought the supervisors directly in touch with the applicant where they 
can evaluate their skills and assess if the person is the best fit 
within their organizations. Secondly, it has enabled us to integrate 
our on-boarding (fingerprint, drug testing, and medical) processes into 
our hiring events. For example, we recently hosted a hiring event at 
Robins Air Force Base where we issued 44 firm job offers in 
approximately 2.5 hours. This included meeting with the applicant, 
working them through the on-board process, HR qualifying them, and 
tendering the job offer. Finally, it has provided the avenue to marry 
our forecasting with real time needs, gaps, and competencies as well as 
gauge our successes through our consolidated metrics.

    9. Senator Perdue. Lieutenant General Levy, given this authority, 
how do depots prioritize what critical skills and positions they plan 
to use this authority to hire for?
    Lieutenant General Levy. We have annual and supplemental 
requirement and determination reviews during the year which provide a 
baseline for future workload and how much manpower is required. This 
assessment enables us to prioritize critical skill sets if needed. In 
addition, our Depots work very closely with our Human Resource 
professionals to 'walk the wall' using Art of the Possible principles 
on a weekly basis. These meetings identify each gate in the hiring 
process to identify constraints. Additionally, they work through any 
affects this may have on hiring critical skills. Overall, Direct Hiring 
Authority has provided us with the authority to hire all skill sets. 
Use of these mechanisms allows us to manage very well.

    10. Senator Perdue. Lieutenant General Levy, do you believe an 
extension is warranted for this authority?
    Lieutenant General Levy. Based on our demonstrated success--a 
Direct Hiring Authority extension is critical to our ability to deploy 
combat power. Since Direct Hiring Authority was instituted, we have 
maintained a 95 percent manning rate. Of note, just three years ago we 
were at a 77 percent manning rate.

    11. Senator Perdue. Lieutenant General Levy, what other initiatives 
could assist in decreasing the hiring timeline associated with on-
boarding new staff?
    Lieutenant General Levy. The critical nature of classification 
impacts our ability to respond to changing conditions and enables us to 
offer competitive salaries. We must have Congressional support to 
tackle the Federal Wage Classification Standards and re-engineer how we 
classify our positions. When positions are classified correctly we can 
decrease timelines because we are recruiting for needed skill sets 
rather than those that we have to accept, which subsequently bears a 
cost on our mission as we have to then spend time training personnel to 
meet the required/desired qualifications.

    12. Senator Perdue. Lieutenant General Levy, I've heard from people 
at the Robins Air Logistics Complex that the current direct hiring 
authority could be expanded to cover civilian engineers conducting 
plant service and planning. Would you agree that this would be 
beneficial?
    Lieutenant General Levy. The Department appreciates the many 
personnel flexibilities and authorities that Congress has provided the 
DOD, including those granting direct hire for certain occupations 
supporting national security missions. DOD's existing direct hire 
authorities have allowed for additional flexibility and efficiency; 
however, the number of stand-alone authorities-each with varying scopes 
of coverage, waivers of law, usage restrictions, and expiration dates-
has increased variability and complexity, creating challenges within 
the DOD for simplified, efficient, and standardized use. The Department 
would prefer a comprehensive and streamlined direct hiring authority to 
meet all hiring needs. DOD hiring policies and processes must be as 
expeditious, clear, and concise as possible to enable DOD components to 
acquire new talent when needed.
                     albany--tornado damage to mclb
    13. Senator Perdue. Major General Crenshaw, in January 2017, 
Albany, Georgia was impacted by not one, but two tornados. As you know, 
the Marine Corps Logistics Base suffered hundreds of millions of 
dollars in damage to equipment and facilities. Could you give us the 
total dollar amount of that damage?
    Major General Crenshaw. Total equipment and facilities related 
costs for clean-up, emergency repairs, permanent repairs to equipment 
and construction = $396.8 million ($208 million--Facilities) ($188.8 
million--Equipment)

    14. Senator Perdue. Major General Crenshaw, what is the status of 
the recovery and repair at Albany?
    Major General Crenshaw. Our regeneration effort following the 
tornado covered two broad areas, our equipment and our facilities.
    Equipment: Approximately 47,390 pieces of equipment were impacted 
by the tornado. To date we have returned over 75 percent (35,587) back 
to ready-for-issue condition. The funding you provided to support these 
actions has been critical in rapidly getting us the resources necessary 
to perform this work.
    Facilities: There were 64 structures damaged and in various stages 
of disrepair. Approximately 65 percent of the repairs have been 
completed. Twenty facility repairs have been completed to date, 44 
facility repairs are ongoing, and four facilities were destroyed.

    15. Senator Perdue. Major General Crenshaw, what was the impact of 
Congress's inability to pass the 2018 budget on time on the recovery 
efforts in Albany?
    Major General Crenshaw. Funding delays caused by Continuing 
Resolutions (CRs) resulted in delayed procurement of parts, equipment, 
and services needed to recover and repair damaged property which 
ultimately slowed our recovery efforts.
       albany--net zero facility and private-public partnerships
    16. Senator Perdue. Major General Crenshaw, Marine Corps Logistics 
Base Albany is on track to be DOD's first Net Zero installation. This 
is a major accomplishment that improves our warfighting readiness by 
enhancing energy security, energy resiliency, and energy efficiency. 
MCLB Albany's ability to become Net Zero relies heavily on crucial 
public-private partnerships with the local community. What is the 
status of MCLB Albany's Net Zero initiative?
    Major General Crenshaw. Energy security: MCLBA will be the first 
installation in the Marine Corps to achieve Net-Zero energy status. The 
base is on track for Net-Zero by Spring 2019 when it will produce as 
much electricity from renewable energy sources as it consumes. 
Therefore, we will no longer be dependent on the electrical grid.
    Energy resiliency: MCLBA will be the first installation in the 
Marine Corps to have a fully functional and accredited Smart Grid. 
MCLBA energy resiliency consists of (1) Hardened against attack--
Information Assurance, (2) Ability to quickly restore power from 
internal system failure, and (3) Ability to quickly restore power from 
external grid failure.
    We have a fairly resilient grid now, as evidenced by the Jan 17' 
hit by an EF-3 tornado which severely damaged the base, but key 
facilities were up on generators within hours. However, much of the 
back-up power was diesel and was manually operated. The Smart Grid the 
base is currently installing will be automated and have the ability to 
open and close electrical switches to re-route power, start and stop 
generators, load shed non-essential services (such as reduce cooling 
and heating in facilities), etc . . . It includes all required cyber-
security measures (hardware and software) and has been reviewed by the 
MCICOM G-6/CIO in preparation for full IA accreditation.
    Energy efficiency: MCLBA has a large portfolio of cutting edge 
energy technologies to reduce overall energy consumption. An example is 
Bore Hole Thermal Energy Storage (BTES). The traditional chillers and 
boilers which heated and cooled my HQ building (800+ personnel) were 
replaced in summer 15' with a ground source heat pump (GSHP) system 
which included controls and dry cooling towers. The system was heavily 
modeled with technology which has proven very successful in the 
Netherlands and South Africa but is very new to the U.S. It has 
achieved a 52 percent annual reduction in overall energy consumption 
and a 100 percent reduction of water usage (the traditional cooling 
towers were removed).

    17. Senator Perdue. Major General Crenshaw, how important have 
public-private partnerships been to the Net Zero initiative?
    Major General Crenshaw. MCLBA relies on Energy Savings Performance 
Contracts (ESPC) to reduce energy consumption and improvements to vital 
equipment and infrastructure. Without this type of partnership MCLBA 
would not be able to fund energy projects to provide the base with 
energy resiliency as well as reducing energy usage. This also allows us 
to tap into outside resources which have far more experience doing 
these projects than the Government has. This partnership allows us to 
move forward without having to compete with other programs for funds 
that are needed elsewhere.

    18. Senator Perdue. Major General Crenshaw, what is the importance 
of our installations and industrial base being energy resilient and 
having robust energy security, and can you describe the cost savings 
achieved?
    Major General Crenshaw. A secure supply of energy is critical to 
enable our bases and stations to fulfill the role of force projection 
platforms and support the training the necessary to make Marines 
successful on the battlefield. To achieve this resilience, the Marine 
Corps is moving beyond the assumption that ``energy will always be 
there,'' adopting a proactive approach to improving its energy security 
posture by reducing dependence on external suppliers of vital energy 
resources through conservation, efficiency, and on-site generation, as 
well as improving the resilience of energy infrastructure against 
physical and cyber vulnerabilities.
    A prime example is Marine Corps Logistics Base (MCLB) Albany which 
is a leader within the Department of Defense in utilizing third party 
financing agreements to implement innovative technology solutions to 
ensure the resilience of mission operations. Through an ongoing Energy 
Savings Performance contract (ESPC) with Chevron, methane gas from the 
Dougherty County landfill is piped aboard the Depot and converted into 
electricity and process steam to directly support the Maintenance 
Center. Included is the capability to support functions during a 
commercial grid outage. The resilience aspects of this project were on 
display in January 2017 when despite a direct strike by an EF3 tornado, 
the Maintenance Center was back on-line within hours of the event. 
Energy resilience solutions should not be limited to traditional 
standby or emergency generators. They can include integrated, 
distributed, or renewable energy sources; diversified or alternative 
fuel supplies; and movements to alternative locations, as well as 
upgrading, replacing, and maintaining current energy generation 
systems, infrastructure, and equipment. Cost savings can be attributed 
to reduced number of power outages and improved command and control 
capabilities allowing for greater support of critical mission 
requirements.

    19. Senator Perdue. Major General Crenshaw, what lessons learned 
from MCLB Albany's successes have you or will you share with other 
installations across all the Services?
    Major General Crenshaw. I would say be sure to do ample research 
and question anyone who tries to sell a one-size-fits-all product or 
service. Ask the hard ball questions: Where have you done this before; 
Show us the measured results delivered from your company and bottom 
line guarantees with your service.
               cross-service information/workload sharing
    20. Senator Perdue. Vice Admiral Grosklags, this time last year 
nearly 2/3s of the Navy's F/A-18 Hornets were grounded because of 
maintenance backlogs. Overall, more than half of the Navy's aircraft 
were grounded. We're starting to fix the money issue but fixing these 
maintenance backlogs is still going to take time and a lot of manpower. 
Cross depot maintenance within the organic industrial base may also be 
crucial in avoiding readiness issues in the future with programs like 
the F-35 Joint Strike Fighter. I believe we could find extra capacity 
for these backlogs through expanding cross-service depot maintenance 
operations, which is why I secured language in last year's NDAA that 
directed the Secretary of Defense to assess the feasibility of 
expanding cross-service depot maintenance within the organic industrial 
base to avoid future backlogs. Can you update the subcommittee on what 
steps have been taken to examine cross-service depot maintenance for 
the F-18?
    Vice Admiral Grosklags. The Navy has two tools to service F/A-18 
maintenance across inter-service depots. The first is a Depot 
Maintenance Inter-Servicing Agreement (DMISA) that puts an entire 
aircraft into another service's depot for repair. The second is a 
component-level repair where another service provides a component 
repair capacity until the Navy's workload has increased to meet demand. 
There are currently no Active DMISAs. DMISAs would be helpful if we had 
a capacity issue (facilities for example), but since this is not the 
case, an agreement to have another service or even another depot work 
on the aircraft would only bring us to the same problem more quickly. 
The F/A-18 Program Office (PMA-265), has been approved to move a 
portion of the component workload as needed to meet production goals 
organically.

    21. Senator Perdue. Lieutenant General Daly, Vice Admiral 
Grosklags, Vice Admiral Moore, Lieutenant General Levy, and Major 
General Crenshaw, have the Services conducted the required study on the 
use of cross-depot maintenance?
    Lieutenant General Daly. The Army, along with its sister Services, 
is involved in extensive inter-Service collaboration within the DOD's 
Organic Industrial Base (OIB). This coordination includes:

    1)  a variety of meetings and information sharing groups;

    2)  the active and continuous coordination of actual depot 
maintenance assignment of all DOD Component Services' depot maintenance 
workload via the Depot Source of Repair (DSOR) determination process as 
outlined in DODI 4151.24; and

    3)  the Maintenance Inter-Service Support Management Offices 
(MISMOs), through its established network and their location within the 
depot maintenance and repair structure of each of the Services, 
provides a conduit for opportunities to collaborate and share best 
practices.

    Vice Admiral Grosklags and Vice Admiral Moore. We are not aware of 
a requirement to have the Services conduct a study on the use of cross-
depot maintenance.
    Lieutenant General Levy. Yes, the study was completed. The results 
were sent forward by the Assistant Secretary of Defense for Logistics 
and Materiel Readiness in March 2018, entitled, Report to Congress On 
Sharing of Best Practices for Depot-Level Maintenance Among the 
Military Services.
    Major General Crenshaw. The Marine Corps partners with our sister 
service depots to sustain our ground equipment to the point that we 
view the DOD depots as a system and not as individual capabilities. We 
are currently having our Tanks repaired at Anniston Army Depot, our 
radars are repaired at Tobyhanna Army Depot, and our High Mobility 
Artillery Rocket Systems (HIMARS) are repaired at Letterkenny Army 
Depot. We also source Tactical Shelters and Defense Advanced GPS 
Receivers (DAGRs) to Hill Air Force Base, and Raids and Recon equipment 
is repaired at Naval Surface Warfare Center in Panama City. Our Marine 
Depot Maintenance Command conducts depot repairs at our Production 
Plant in Albany, Georgia, or Barstow, California, for the Air Force on 
their Mine-Resistant Ambush Protected (MRAP) vehicles, High Mobility 
Multipurpose Wheeled Vehicles (HMMWVs) for the Army National Guard, and 
Tactical Power Generation sets for the Regular Army. Additionally, we 
rebuild Paxman engines at our Barstow Production Plant for the Coast 
Guard and the Navy which, propel their coastal patrol fleet.

    22. Senator Perdue. Lieutenant General Daly, Vice Admiral 
Grosklags, Vice Admiral Moore, Lieutenant General Levy, and Major 
General Crenshaw, how could the Services benefit from cross-service 
depot maintenance in the future and with future platforms?
    Lieutenant General Daly. We collaborate with each other through the 
Depot Source of Repair (DSOR) process to identify the best overall 
location for maintaining a new weapon system depot maintenance 
requirement. Each Service submits to the other Services their new 
program depot maintenance requirements for review. This process has 
several goals, to include: 1) identifying the overall best location for 
the performance of depot maintenance requirements; 2) creating 
transparency in the process; 3) limiting locations to the minimum 
necessary number to support readiness requirements; and 4) helping 
ensure compliance with the ``CORE'' laws (10 USC 2460/ 2464/ 2466 & 
etc.)
    Second, looking forward, we expect to continue reaping the above 
benefits and even greater rewards. Areas for future improvement 
include: greater manufacturing within the Organic Industrial Base 
(OIB), especially the Army Arsenals and all DOD depot maintenance 
facilities, as well as, expanded efforts in the Joint Technology 
Exchange Group to share innovation, technology improvements and sharing 
of best practices in the maintenance fields. As our inter-Service cadre 
become more experienced and continue to expand their influence, a 
synergistic effect will occur and create greater cooperation between 
the Services. This is already underway and will have its greatest 
effect on future weapon platforms.
    Vice Admiral Grosklags. OSD has a program, the Joint Depot 
Maintenance Program, that has been employed for years to formally 
execute the Depot Maintenance Interservice (DMI)/DSOR process. It's a 
collaborative program whereby a requiring service formally coordinates 
across other services to nominate a specific depot activity for its 
weapon system support. Once it receives concurrence from all services, 
then funds can be expended to stand up that depot capability. The DMI/
DSOR process is codified in a fairly new instruction, DODI 4151.24. In 
addition, the Navy has OPNAVINST 4790.14B that also provides guidance 
regarding the formal DSOR process to the Systems Commands. Lastly, 
within the last year, the Joint Group on Depot Maintenance developed a 
Memorandum of Agreement between the services to leverage joint 
industrial capabilities and processes for depot level maintenance and 
manufacturing needs. We always look to leverage capabilities of the 
other Services to help optimize a program manager's investment in depot 
sustainment support.
    Vice Admiral Moore. OSD has a program, the Joint Depot Maintenance 
Program, that has been employed for years to formally execute the Depot 
Maintenance Interservice (DMI)/DSOR process. It's a collaborative 
program whereby a requiring service formally coordinates across other 
services to nominate a specific depot activity for its weapon system 
support. Once it receives concurrence from all services, then funds can 
be expended to stand up that depot capability. The DMI/DSOR process is 
codified in a fairly new instruction, DODI 4151.24. In addition, the 
Navy has OPNAVINST 4790.14B that also provides guidance regarding the 
formal DSOR process to the Systems Commands. Lastly, within the last 
year, the Joint Group on Depot Maintenance developed a Memorandum of 
Agreement between the services to leverage joint industrial 
capabilities and processes for depot level maintenance and 
manufacturing needs. We always look to leverage capabilities of the 
other Services to help optimize a program manager's investment in depot 
sustainment support.
    Lieutenant General Levy. The Services will benefit from cross-
service depot maintenance relationships in the future by sharing 
business practices and processes, such as the capital investment 
program and public private partnerships, as well as exploring sister 
service capabilities before potential contract to non-organic entities 
with engagement of continued DMISAs. This brings efficiencies to the 
Department by capitalizing on existing organic capabilities, reducing 
CORE shortfalls, and achieving cost-effective readiness by increasing 
throughput and reducing costs. By utilizing cross-service depot 
maintenance practices, we are able to quickly match available 
capabilities to the emergent requirements. Internal to the Department 
of Defense, we are able to share information that one Service may have 
(i.e., Tech Data) and collaborate on the development of technologies 
and best practices improving our overall readiness and effectiveness.
    Major General Crenshaw. Continuing to collaborate with our sister 
service depots is an operational imperative given the need to conserve 
the resources that Congress provides. We have a Maintenance 
Interservice Support Management Office at our Logistics Command that 
interfaces with the joint community continuously. The joint body is 
responsible for Depot Maintenance Inductions and determining which 
service depot is best suited to perform depot maintenance on a specific 
piece of equipment, based on several factors including capacity and 
capability. We look to see which service has a niche for a certain 
platform, and that capability weighs heavily on the decision. 
Additionally we are working in a shared environment where collaboration 
is the daily theme. Our Depots share innovation, technology, and best 
practices with each other through the Joint Technology Exchange Group 
to ensure that we are operating at peak levels, and staying on the 
cutting edge along with our industrial partners in the civilian sector. 
So we plan to continue this collaborative theme well into the future as 
we continue to modernize our equipment sets and try to squeeze the most 
out of the resources with which we have been entrusted. We have had 
great success in this area over the years and will continue to enjoy 
that flexibility in the years to come.
                    jstars--legacy fleet maintenance
    23. Senator Perdue. Lieutenant General Levy, I understand that 
JSTARS maintenance is done by a private contractor, and not at one of 
your depots. However, I was very concerned to see the DOD Inspector 
General's audit report regarding the maintenance of the E-8C JSTARS 
fleet. The report found that the Air Force overpaid in contracts for 
this work, and that the contractor did not meet aircraft availability 
metrics needed for aircraft operators to meet their mission 
requirements from 2011 to 2015. Do you think it would make sense to 
bring maintenance for the JSTARS fleet into the Air Force depot system?
    Lieutenant General Levy. E-8C JSTARS aircraft are a high-demand 
asset needed in theater today. We must find ways to increase aircraft 
availability. Adding an organic Program Depot Maintenance capability 
would help accomplish that goal. This initial induction should help 
prove that the concept will work.

    24. Senator Perdue. Lieutenant General Levy, what types of cost 
savings could you achieve, especially with JSTARS fleet being located 
next to the Warner Robins Air Logistics Complex at Robins Air Force 
Base?
    Lieutenant General Levy. Inducting an aircraft, and potentially 
others down the line, at Robins AFB may offer numerous advantages: the 
program office, operational wings, functional check flight crews, and 
Air Combat Command's flight test detachment are all located at Robins 
AFB; the community has significant expertise with JSTARS; the community 
of potential JSTARS mechanics is fairly broad; and transportation costs 
would be reduced.

    25. Senator Perdue. Lieutenant General Levy, is this something we 
should consider doing when the current contract expires?
    Lieutenant General Levy. Despite more than two years of intense 
focus on the contractor's depot performance, the amount of time 
aircraft are kept in depot remains too high. We have to find ways to do 
better and to increase overall depot capacity. Other JSTARS may be 
inducted in the future.
            usmc--use defense logistics agency for services
    26. Senator Perdue. Lieutenant General Daly, Vice Admiral 
Grosklags, Vice Admiral Moore, Lieutenant General Levy, and Major 
General Crenshaw, the Military Services have, to varying degrees, 
transferred retail supply, storage, and distribution functions at their 
depot-level industrial sites to the Defense Logistics Agency (DLA) and 
achieved some efficiencies. Specifically, Air Force Air Logistics 
Complexes (ALC) and Navy Fleet Readiness Centers (FRC) transferred all 
retail supply, storage, and distribution functions to DLA over the 
course of several years, which has led to a number of benefits, 
including a 20 percent reduction in on-hand inventory and a 10 percent 
reduction in backorders at the Air Force ALCs over a 5-year period. By 
contrast, the Army and Marine Corps have retained most supply functions 
at their depots and DLA manages inventory at the Navy shipyards while 
still using Navy systems and processes, rather than those of DLA. What 
steps are the Military Services pursuing in collaboration with DLA to 
improve the efficiency and effectiveness of retail supply, storage, and 
distribution functions at the depots and shipyards?
    Lieutenant General Daly. Since BRAC 2005, DLA is using Army systems 
and processes rather than those of DLA at five of our industrial sites. 
Army and DLA have created a team of subject matter experts and have 
identified three Courses of Action (COAs) in determining a rough order 
of magnitude (ROM) for DLA providing full retail support at the Army 
organic industrial sites. Currently, this team is mapping out the 
business processes for these COAs and will present ROM assessment and 
updated COA analysis with recommendations to Senior Army Leadership for 
decision August 2018.
    Vice Admiral Grosklags and Vice Admiral Moore. The Navy's transfer 
of supply, storage and distribution functions within the depots and 
shipyards to DLA have been completed. The Navy and DLA continue to 
finalize a Strategic Memorandum of Agreement (SMOA) to align the 
command and control structure within the shipyard to improve the 
efficiency and effectiveness of supply support functions executed by 
both DLA and Navy.
    The Navy and DLA have a Performance Based Agreement (PBA) that 
provides senior leader engagement in an overarching framework for 
continuing cooperation, coordination and alignment of resources in 
support of Navy logistics. The PBA highlights key strategic and 
partnering efforts that affect DLA's collective ability to provide 
effective, efficient and best value to Navy FRCs. The PBA outlines the 
governance framework for the Navy-DLA Partnership Council, which 
provides senior level engagement and summarizes performance metrics 
(e.g., Total Customer Orders, Material Availability, Unfilled Customer 
Orders, and Aged Unfilled Customer Orders) and goals that both parties 
agree to use to measure success and support readiness. These 
performance metrics and goals are reviewed on a regular basis to ensure 
coordination of the repair and availability of parts and materials that 
could reduce fleet aircraft availability, directly impacting on the 
Department of Navy's ability to carry out the national defense 
strategy.
    Lieutenant General Levy. See Appendix A--Bullet Background Paper--
AFSC Collaboration with DLA.
    Major General Crenshaw. The Marine Corps has already transferred 
some functions to DLA, has additional integration planned, and is 
assessing the potential for further incorporation of DLA support at the 
tactical level within the Operating Forces.
    In 2009, Marine Corps Logistics Command (MARCORLOGCOM), the 
organization responsible for depot level repair in the Marine Corps, 
transferred depot-level industrial retail storage and distribution 
functions to the Defense Logistics Agency (DLA).
    Given the success of the 2009 transition efforts to DLA and 
recommendations from a 2016 GAO audit (GAO-16-450), in October 2018, 
LOGCOM launched a continuous process improvement (CPI) event to develop 
a Business Case Analysis (BCA) that would provide an objective, third-
party perspective on the merits of transferring the depot-level 
industrial ``Supply'' functions to DLA. Based on the results of the 
BCA, LOGCOM intends to move forward with transferring industrial supply 
functions to DLA in order to gain additional efficiencies in support of 
depot-level maintenance.
    In addition to the efforts ongoing at LOGCOM, we are evaluating 
opportunities to leverage DLA capabilities to gain efficiencies within 
our operating force retail supply management units at the tactical 
level. We've conducted process improvement events at both Marine Forces 
Command and Marine Forces Pacific and are currently evaluating the 
outcomes. While there are some potential efficiencies to be gained 
through partnering at the retail level, we are working with DLA to 
ensure our forces maintain the right level of flexibility to provide 
effective support for exercises, deployments and contingency 
operations--especially during periods of reduced funding. I am 
confident we can find the right balance between DLA and organic 
capability. Most recently, at the USMC-DLA Service Day in early June, 
expanding DLA inventory partnership opportunities was the subject of 
detailed discussion. Both the Deputy Commandant for Installations and 
Logistics and the Director, DLA emphasized the value of increasing our 
interoperability and leveraging DLA resources.

    27. Senator Perdue. Lieutenant General Daly and Major General 
Crenshaw, why have the Army and Marine Corps been reluctant to transfer 
aspects of the noted functions to DLA and are there plans/efforts 
underway to do so?
    Lieutenant General Daly. Army and The Defense Logistics Agency 
(DLA) have a collaborative team that is working to identify 
opportunities to improve effectiveness, efficiency, and cost of 
managing depot support inventories. The team is reviewing cost 
efficiencies between DLA and Army systems' integration, and are 
analyzing solutions to develop mutual key performance indicators and 
metrics for optimum DLA retail support.
    Major General Crenshaw. The Marine Corps has already transferred 
some functions to DLA, has additional integration planned, and is 
assessing the potential for further incorporation of DLA support at the 
tactical level within the Operating Forces.
    In 2009, Marine Corps Logistics Command (MARCORLOGCOM), the 
organization responsible for depot level repair in the Marine Corps, 
transferred depot-level industrial retail storage and distribution 
functions to the Defense Logistics Agency (DLA).
    Given the success of the 2009 transition efforts to DLA and 
recommendations from a 2016 GAO audit (GAO-16-450), in October 2018, 
LOGCOM launched a continuous process improvement (CPI) event to develop 
a Business Case Analysis (BCA) that would provide an objective, third-
party perspective on the merits of transferring the depot-level 
industrial ``Supply'' functions to DLA. Based on the results of the 
BCA, LOGCOM intends to move forward with transferring industrial supply 
functions to DLA in order to gain additional efficiencies in support of 
depot-level maintenance.
    In addition to the efforts ongoing at LOGCOM, we are evaluating 
opportunities to leverage DLA capabilities to gain efficiencies within 
our operating force retail supply management units at the tactical 
level. We've conducted process improvement events at both Marine Forces 
Command and Marine Forces Pacific and are currently evaluating the 
outcomes. While there are some potential efficiencies to be gained 
through partnering at the retail level, we are working with DLA to 
ensure our forces maintain the right level of flexibility to provide 
effective support for exercises, deployments and contingency 
operations--especially during periods of reduced funding. I am 
confident we can find the right balance between DLA and organic 
capability. Most recently, at the USMC-DLA Service Day in early June, 
expanding DLA inventory partnership opportunities was the subject of 
detailed discussion. Both the Deputy Commandant for Installations and 
Logistics and the Director, DLA emphasized the value of increasing our 
interoperability and leveraging DLA resources.
                               __________
             Questions Submitted by Senator Lindsey Graham
             small arms industrial base--medium machine gun
    28. Senator Graham. Lieutenant General Daly, the Army has 
acknowledged that the M240 provides a unique and vital capability for 
the service. I understand that the Army intends to continue to operate 
the weapon well into the future. Sustaining this weapon technology and 
the industrial base that produces it is of critical importance to US 
national security. However, I am concerned that the current plan for 
the program, as reflected in the fiscal year 2019 budget and Future 
Years Defense Plan, does not provide sufficient resources to maintain 
and sustain the M240 industrial base. The M240 manufacturing process 
requires specialized facilities and a highly trained and skilled work 
force. A lack of sufficient production volume could result in a 
complete shutdown of the manufacturing capability, which would be very 
difficult to re-establish given the highly specialized nature of the 
process. Can you respond to the following questions?
    Lieutenant General Daly. Yes

    29. Senator Graham. Lieutenant General Daly, how does the Army 
intend to sustain the M240 production capacity and industrial base for 
the projected life of the program until a replacement is developed and 
fielded?
    Lieutenant General Daly. Army is at its Army Acquisition Objective 
on all M240 systems. Sustainment is done via organic overhaul at 
Anniston Army Depot. PM Soldier Weapons funded a limited survey 
conducted by TACOM on the M240B weapon system to assess the condition 
of the fleet for high tempo units to determine if weapon replacement is 
warranted. TACOM Weapons Equipment Specialists visited Ft. Bragg and 
Ft. Leonard Wood. PM Soldier Weapons has the results and will use that 
information to determine whether to pursue funding in support of weapon 
overhaul/rebuild, or identify funding necessary for replacement 
weapons.

    30. Senator Graham. Lieutenant General Daly, what would be the 
operational impacts of an M240 production shutdown?
    Lieutenant General Daly. The current Fabrique National (FN) M240L 
contract is being extended through May 2020 in order to accommodate 
other Service buys, additional Army procurement as directed by Congress 
and spare receiver procurement to support weapons overhaul at Anniston 
Army Depot. The Army has procured enough M240 series to equip all units 
to their authorization. The Army has met its acquisition objective for 
M240 weapons and conducts weapon overhaul (as needed) at Anniston Army 
Depot to keep inventory levels sufficient to meet readiness 
requirements.

    31. Senator Graham. Lieutenant General Daly, what does the original 
equipment manager report the annual cost is to maintain the production 
line?
    Lieutenant General Daly. The Rough Order of Magnitude to maintain 
M240 production at the minimum sustaining rate of 150 weapons per month 
is $12-$15 million per year.

    32. Senator Graham. Lieutenant General Daly, in the event of a 
production line shutdown, how long would it take to reestablish the 
line?
    Lieutenant General Daly. Last year Fabrique Nationale (FN) did 
state that restarting a cold production line would take 44 months and 
cost $16.8 million.

    33. Senator Graham. Lieutenant General Daly, what is the current 
Ready for Issue (RFI) M240 Inventory and how does the Army maintain and 
assure RFI status while the system is stored in inventory?
    Lieutenant General Daly. There are approximately 1,572 M240s in the 
Army inventory. TACOM utilizes Logistics Modernization Program (LMP) to 
track and monitor the M240 series inventory.
             Questions Submitted by Senator Jeanne Shaheen
                 workforce at portsmouth naval shipyard
    34. Senator Shaheen. Vice Admiral Moore, I have studied the report 
to Congress on extending the service life of select Los Angeles-class 
submarines and I am in support of this effort to reduce the expected 
shortfall in fast attack submarines. The proposed service life 
extension effort spans a decade from 2021 to 2031 and it is proposed 
that the work be performed at the Portsmouth Naval Shipyard. Given that 
our public naval shipyards, particularly Portsmouth, are the foremost 
experts at overhauling and refueling submarines, this makes sense. 
While the report details infrastructure investments needed to support 
this effort, what actions are being taken to ensure that the Portsmouth 
Naval Shipyard has a sufficiently sized and experienced workforce that 
is ready to efficiently carry out this important mission?
    Vice Admiral Moore. To properly align Portsmouth Naval Shipyard's 
(PNSY) workforce and capacity, the Navy reassigned five availabilities: 
three Los Angeles-class inactivations, one Los Angeles-class Docking 
Selected Restricted Availability, and one Virginia-Class Extended 
Docking Selected Restricted Availability to the other shipyards to 
ensure PNSY was not overloaded during the five planned Los Angeles-
class engineered refueling overhauls (ERO).
    As the Navy developed its fiscal year 2019 to fiscal year 2023 
future years defense plan, it determined that it needed to increase the 
size of the workforce across all NSY in order to execute the expected 
workloads in fiscal year 2019 to fiscal year 2020. The subsequent 
realignment of availabilities to support the Los Angeles-class EROs to 
PNSY necessitated an additional nominal increase in the manpower 
requirement in fiscal years 2020 to 2022 to sufficiently size the 
workforce to match this additional workload. Based on NSY ability to 
hire, onboard, and train new employees, we are confident PNSY will be 
able to increase employment to match the workload. The ability to hire 
is based on the shipyard's ability to accommodate new hires into 
training and development pipelines and facility constraints in 
accommodating a larger workforce. This hiring effort is already in 
place and underway.
    To ensure a proficient and capable workforce, PNSY has a robust 
full scale training and qualification program for new and existing 
employees who will be performing work on the EROs including reactor 
servicing. PNSY is already performing reactor servicing work on the S8G 
prototype. This work allows employees to achieve and maintain 
qualifications and establish proficiency for reactor servicing--an 
essential element in conducting a successful ERO. Finally, PNSY has an 
ongoing element of nuclear and non-nuclear workload on Los Angeles-
class submarines that fosters employee hands-on, deck-plate level 
experience. The consistent schedule of EROs allows personnel to 
continually train, qualify, and perform work on multiple EROs.
            private sector maintenance of attack submarines
    35. Senator Shaheen. Vice Admiral Moore, in your advance opening 
statement you indicated that deferred maintenance of the USS Boise 
attack submarine reached a boiling point in the Summer of 2017 and that 
in order to balance the workload, the Navy opted to contract 
maintenance of the USS Boise to the private sector. Further, you stated 
``The Navy will continue to consider the private sector for future 
maintenance work during peak workload periods in our Naval shipyards 
and to ensure we maintain the health of the private sector nuclear 
industrial base.'' How does the Navy define ``peak workload periods'' 
in order to determine whether the maintenance of our attack submarines 
will be conducted by our public shipyards or private companies?
    Vice Admiral Moore. The Navy defines peak workload periods as times 
that require excessive overtime work or creates such a workload peak 
that a project's duration would significantly exceed its notional 
duration. During these periods, the Navy will reassess the naval 
shipyard workload to identify opportunities to better balance 
maintenance work across the nuclear enterprise.

    36. Senator Shaheen. Vice Admiral Moore, how many public shipyard 
overload periods does the Navy project to see over the next five years?
    Vice Admiral Moore. The Navy is actively and continuously manages 
the public shipyard workload to eliminate potential overload periods 
across the FYDP. The Navy has undertaken workforce right-sizing and 
workload-to-capacity matching efforts at the public naval shipyards to 
improve accuracy in assessing overall executability, arrest year-to-
year carryover of workload, improve on-time maintenance delivery, and 
best support Fleet operational requirements. The Navy also considers 
using the private sector industrial base when balancing maintenance and 
modernization requirements.
                               __________
           Questions Submitted by Senator Kirsten Gillibrand
         enhancing the cybersecurity of small defense suppliers
    37. Senator Gillibrand. Lieutenant General Daly, Vice Admiral 
Grosklags, Vice Admiral Moore, Lieutenant General Levy, and Major 
General Crenshaw, we can all agree that the country's small 
manufacturers play an important role in the defense supply chain. For 
that reason, I am concerned that so many of these companies face 
significant cybersecurity vulnerabilities that threaten our national 
security. Further, as of December 2017, Department of Defense (DOD) 
suppliers must comply with new, tougher cybersecurity requirements to 
continue doing business with the Government. The federal Hollings 
Manufacturing Extension Partnership (MEP) Program has interacted with 
over 1,000 small manufacturers regarding DOD's cybersecurity 
requirements, and have found a significant lack of awareness of these 
new requirements and a deficiency of financial and technical resources 
required to manage cybersecurity risks. If this goes unaddressed, 
defense supply chains face a higher likelihood of serious and 
exploitable vulnerabilities, as well as a substantial reduction in the 
number of suppliers compliant with Department of Defense requirements, 
and thereby eligible to provide products and services to the Department 
of Defense. Please provide an explanation for what your respective 
service branch is doing to help small manufacturers in your defense 
industrial base come into compliance with DOD's new cybersecurity 
requirements.
    Lieutenant General Daly. The Army does provide guidance to Small 
Manufacturers through the Army Small Business Office on how to leverage 
the assistance available to them through the Manufacturing Extension 
Partnership (MEP) program. Examples like the U.S. Army Tank and 
Automotive Command (TACOM) provide tools and hyperlinks on its public 
facing website to help small manufacturers locate their respective MEP 
center. The Army recognizes the challenge Small Manufacturers face 
meeting the recent cybersecurity requirements associated with being a 
part of the Department of Defense's supply chain. We are also aware of 
recent success stories Small Manufacturers, in our supply chain, have 
experienced by reaching out to their local MEP for assistance.
    References: https://www.tacom.army.mil/sbo/newsevents.html http://
www.in- dustryweek.com/technology-and-iiot/small-manufacturer-solves-
cybersecurity-puzzle.
    Vice Admiral Grosklags and Vice Admiral Moore. The Naval Sea 
Systems Command (NAVSEA) is working to make sure small manufacturers 
are aware of DOD cybersecurity requirements. Outreach has included 
cybersecurity sessions at last year's NAVSEA Small Business Industry 
Day and additional planned cybersecurity sessions at this year's 
upcoming Small Business Industry Day. In addition, we provide expertise 
to respond to questions on cybersecurity from suppliers and to guide 
suppliers toward low or no cost options to address DOD cybersecurity 
requirements. This includes the free-to-the-public Cybersecurity 
Evaluation Tool (CSET) Tool developed by the Department of Homeland 
Security (DHS), which provides easy to use checklists for suppliers to 
self-assess their compliance with National Institute of Standards and 
Technology (NIST) Special Publication 800-171 requirements for 
Protecting Controlled Unclassified Information in Nonfederal 
Information Systems and Organizations.
    The Naval Air Systems Command (NAVAIR) is working through its 
program offices, Cyber Detachment, Contracts Department, and Small 
Business Office to ensure small manufacturers are aware of new DOD 
cybersecurity requirements. This outreach has included involving the 
Cyber Detachment early and upfront in the program planning and 
requirement development phase to guarantee cybersecurity requirements 
are understood and levied upon large and small manufacturers 
contractually. In addition, NAVAIR's Contracts Department, Cyber 
Detachment, and Small Business Office are establishing relationships 
with small manufacturers to provide informed answers to questions on 
cybersecurity, to include low or no cost options to address DOD 
cybersecurity requirements. This includes the free-to-the-public CSET 
Tool developed by the DHS.
    Lieutenant General Levy. See Appendix C--Cyber Insecurities.
    Major General Crenshaw. DOD Contracting personnel follow 
contractual cybersecurity requirements implemented through the Defense 
Federal Acquisition Regulation Supplement (DFARS). Specifically, DOD 
contracting personnel incorporate cybersecurity-related clauses into 
applicable contracts (such as DFARS clause 252.204-7012 ``Safeguarding 
Covered Defense Information and Cyber Incident Reporting''). In 
addition, DOD contracting personnel enforce compliance with contract 
terms and conditions after contract award, which may include 
cybersecurity requirements.
    DFARS Clause 252.204-7012 ``Safeguarding Covered Defense 
Information and Cyber Incident Reporting'' leverages security standards 
such as those identified in National Institute of Standards and 
Technology (NIST) Special Publication (SP) 800-171 ``Protecting 
Controlled Unclassified Information in Nonfederal Information Systems 
and Organizations.'' NIST SP 800-171 standards help small businesses 
meet cybersecurity responsibilities to protect DOD's supply chain, and 
improve the security posture of their information systems and networks.

    38. Senator Gillibrand. Lieutenant General Daly, Vice Admiral 
Grosklags, Vice Admiral Moore, Lieutenant General Levy, and Major 
General Crenshaw, given MEP's national network of assistance for small 
manufacturers and focus on helping such companies improve their 
cybersecurity, do you see cross-government partnership opportunities 
between DOD and MEP to improve small defense manufacturers 
cybersecurity?
    Lieutenant General Daly. Yes, the Army does see possibilities for 
cross-government partnerships between the Department of Defense (DOD) 
and the National Institute of Standards and Technology (NIST) to 
improve small defense manufacturers' cybersecurity. The NIST has 
partnered with the Department of Commerce to implement Manufacturing 
Extension Partnership (MEP), and the DOD already has a Memorandum of 
Understanding with the Department of Commerce that creates the 
Institutes for Manufacturing Innovation that leverages DOD authorities 
and resources that allow the DOD to seek contract proposals from MEP 
network partners. These are, again, opportunities to raise awareness 
and provide guidance to small manufacturers. Reference: https://
www.nist.gov/sites/default/files/documents/mep/about/MOU-NIST-OSD-
Signed-Executed-2015.pdf Background: The Hollings Manufacturing 
Extension Partnership (MEP) is based at the National Institute of 
Standards and Technology (NIST). The National Program Office (NIST MEP) 
which provides the Federal Government funding for the MEP National 
Network is located in Gaithersburg, MD. The MEP National Network 
comprises the NIST MEP, 51 MEP Centers located in all 50 states and 
Puerto Rico, and it's over 1,300 manufacturing experts at over 400 
service locations, providing any U.S. manufacturer with access to 
resources they need to succeed. MEP is a public-private partnership, 
designed from inception as a cost-share program. Federal appropriations 
pay one-half, with the balance for each Center funded by state/local 
governments and/or private entities, plus client fees. This cost-share 
model contributes to MEP's success. A GAO study found that because 
client fees give manufacturers a higher stake in the outcome of 
services, the positive impact on their businesses is greater. 
Meanwhile, public funding allows smaller manufacturers to afford 
services. NIST MEP uses 2 CFR 200 to monitor and govern the recipients' 
use of Federal funds.
    Vice Admiral Grosklags and Vice Admiral Moore. The Naval Sea 
Systems Command (NAVSEA) consistently stresses the importance of 
cybersecurity in our interactions with our small defense manufacturers. 
We see the resources provided by MEP as valuable assistance, especially 
the NIST Handbook 162 ``NIST MEP Cybersecurity Self-Assessment Handbook 
for Assessing NIST SP 800-171 Security Requirements in Response to 
DFARS Cybersecurity Requirements.'' This handbook provides a step by 
step guide allowing small defense manufacturers to self-assess their 
compliance with the DFARS 252.204-7012 required NIST SP 800-171 
security controls, which is a critical first step. NAVSEA will be 
providing information on MEP resources as part its Small Business 
Industry Day scheduled for August 21 to raise awareness of these free 
resources.
    The Naval Air Systems Command's (NAVAIR's) Office of Small Business 
Programs (OSBP) consistently stresses the paramount importance of small 
business compliance with the DFARS 252.204-7012 clause, the NIST SP 
800-171 Security Standard, and the risks associated with non-
compliance. This is reiterated at our one-on-one meetings, pre-
solicitation conferences, and industry days, Small Business Round 
Tables.
    Secondly, NAVAIR is collaborating with the Small Business 
Development Centers and the Procurement Technical Assistance Centers to 
assist in reaching small businesses and advising them about the NIST 
Hollings MEP, which has cybersecurity resources for manufacturers, 
along with the NIST Small Business Center.
    The NAVAIR OSBP refers small businesses interested in doing 
business with the Navy to the ``Small Business Information Security: 
The Fundamentals,'' NISTIR 7621 Rev1 for additional information and 
guidance.
    Lieutenant General Levy. See Appendix C--Cyber Insecurities.
    Major General Crenshaw. While we cannot speak to the potential of a 
DOD/MEP relationship, small defense manufacturers that obtain a 
contract with the Government will improve their cybersecurity posture 
through compliance with the NIST SP 800-171 standards required by DFARS 
Clause 252.204-7012 ``Safeguarding Covered Defense Information and 
Cyber Incident Reporting.''
                               __________
              Questions Submitted by Senator Mazie Hirono
                     public shipyard modernization
    39. Senator Hirono. Vice Admiral Moore, the Navy's effort to fully 
plan and synchronize the modernization of our nation's public shipyards 
over 20 years was a significant task and I applaud the work you've 
done. I am concerned that if shipbuilding levels increase in the near 
term, the demand for the repair yards, specifically from the Virginia-
class, may come earlier than originally planned. Does the shipyard 
modernization plan have room for growth to match possible increased 
shipbuilding levels?
    Vice Admiral Moore. Yes. Based on the current submarine and 
aircraft carrier acquisition and service life extension plans, the 
investment strategy provided in the February 2018 Shipyard 
Infrastructure Optimization Plan Report to Congress is projected to 
support the near-term needs of a 355-ship fleet. However, as the 
additional nuclear-powered ships are added to the inventory over the 
next two decades, we will continue to evaluate public shipyard dry dock 
and facilities capabilities to ensure any additional infrastructure 
investments required to support the fleet are identified and 
programmed. This includes ensuring dry dock capacity allows for 
emergent work and periodic dry dock maintenance. These evaluations will 
be performed using existing resources, including the newly established 
shipyard infrastructure optimization program office, in accordance with 
the normal budget process. The annual updates to the Shipyard 
Infrastructure Optimization Plan will capture new mission requirements, 
submarine or aircraft carrier acquisition plan changes, new ship class 
requirements, new technology insertion opportunities, and other fact of 
life changes.

    40. Senator Hirono. Vice Admiral Moore, what investment in time or 
resources will be required to ensure that the shipyard modernization 
plan stays in sync with changes in shipbuilding levels?
    Vice Admiral Moore. Based on the current submarine and aircraft 
carrier acquisition and service life extension plans, the investment 
strategy provided in the February 2018 Shipyard Infrastructure 
Optimization Plan Report to Congress is projected to support the near-
term needs of a 355-ship fleet. However, as the additional nuclear-
powered ships are added to the inventory over the next two decades, we 
will continue to evaluate public shipyard dry dock and facilities 
capabilities to ensure any additional infrastructure investments 
required to support the fleet are identified and programmed.
                            workforce issues
    41. Senator Hirono. Lieutenant General Daly, Vice Admiral 
Grosklags, Vice Admiral Moore, Lieutenant General Levy, and Major 
General Crenshaw, the written testimony from all of the witnesses 
mentioned the challenge of recruiting and maintaining the skilled labor 
force, and that direct hiring authority has been a useful tool to meet 
workforce demand. What other authorities for hiring or retention would 
help you to maintain your workforce?
    Lieutenant General Daly. Army Materiel Command does not see a 
current need for additional hiring or retention authorities. Previous 
Defense Authorization bills have provided a number of authorities to 
assist us in meeting manpower and retention requirements. Going 
forward, we need time to implement the authorities and take the time to 
assess their effectiveness. In the future, we may need Congress' help 
in making these authorities permanent.
    Vice Admiral Grosklags and Vice Admiral Moore. The current hiring 
process for public shipyard apprentices takes an average of six to 
eight months and results in considerable attrition of high quality 
candidates. While the Navy will work to streamline processes that are 
under its control, the Navy requests congressional support for 
streamlining hiring processes outside of the Navy to allow for 
expedited recruitment, selection and onboarding of highly qualified 
candidates while meeting all administrative requirements. Examples for 
causes of delays outside of the Navy include the Advanced Fingerprint 
Report requirement (Federal Bureau of Investigation) and security 
clearance processing (Office of Personnel Management).
    The following authorities for hiring or retention would help the 
Naval Air Systems Command Fleet Readiness Centers (FRCs) better 
maintain its workforce:
    Expand the use of a retention incentive for workforce members who 
want to stay within Government service. Managers cannot currently use 
retention incentives to retain workforce members who take other 
government positions--they are only available for use if a member of 
the workforce is retiring or moving into private industry.
    Lieutenant General Levy. The Department appreciates the many 
personnel flexibilities and authorities that Congress has provided the 
DOD, including those granting direct hire for certain occupations 
supporting national security missions. DOD's existing direct hire 
authorities have allowed for additional flexibility and efficiency; 
however, the number of stand-alone authorities-each with varying scopes 
of coverage, waivers of law, usage restrictions, and expiration dates-
has increased variability and complexity, creating challenges within 
the DOD for simplified, efficient, and standardized use. The Department 
would prefer a comprehensive and streamlined direct hiring authority to 
meet all hiring needs. DOD hiring policies and processes must be as 
expeditious, clear, and concise as possible to enable DOD components to 
acquire new talent when needed.
    Major General Crenshaw. Specifically, we are very grateful to 
Congress for providing Direct-Hire Authorities, which are critical 
assets in the competitive environment of talent acquisition. These 
authorities are essential tools that allow us to level the playing 
field with industry in order to more quickly fill critical positions 
that require top talent and high demand skills. These hiring 
authorities will become even more important and effective going forward 
as we strive to develop the 21st Century industrial workforce needed by 
our Nation and our Marines.
    Authorities to approve recruitment, retention, and relocation 
incentives at the local level will help MARCORLOGCOM to maintain its 
workforce.

    42. Senator Hirono. Lieutenant General Daly, Vice Admiral 
Grosklags, Vice Admiral Moore, Lieutenant General Levy, and Major 
General Crenshaw, how can STEM education efforts better target the pool 
of workers you are trying to recruit?
    Lieutenant General Daly. The Army Materiel Command's STEM outreach 
is very strong. Our activities realize the importance of working with 
our youth, colleges and various associations (all proficiency levels) 
and create opportunities to engage and support, in meaningful, real-
world STEM experiences, competitions, and paid internships. The next 
generation of scientists, technicians, engineers and mathematicians 
need to be exposed to as many opportunities as possible to realize how 
much is available to them and the difference they can each make to 
support our National Defense and the Department's future modernization. 
Events such as Black Engineer of the Year Awards (BEYA), Hispanic 
Engineer National Achievement Award Conference (HENAAC) and Women of 
Color (WOC) Conference are just a few recent events AMC has 
participated, promoted interest, and increased awareness about the 
Army's educational, high-technology career and leadership opportunities 
as well as showcase how much the STEM candidates can contribute to the 
critical mission in support to the Warfighter.
    Vice Admiral Grosklags and Vice Admiral Moore. By participating in 
outreach programs and educational partnership agreements, the Navy can 
better target the pool of workers in for which they are trying to 
recruit. The long-term goal is to interest students in a future STEM 
career with the Navy.
    It is incredibly important that the Naval Shipyards (NSY) and Naval 
Aviation Fleet Readiness Centers (FRCs) have access to candidates with 
STEM education in order to achieve their--hiring goals. The NSYs and 
FRCs foster STEM education efforts by sponsoring events for children of 
all ages where they can participate in a number of engaging STEM-
related projects. At the post-secondary level, the NSYs' apprentice 
programs partner with local community colleges to develop prospective 
employees. These events and partnerships introduce young people to the 
NSYs' operations and generate interest in future employment.
    Lieutenant General Levy. As a nation, we must continue the full-
court press to attract, excite, and educate the next generation of STEM 
patriots. The increase in electronics and computer science in all of 
our weapons systems platforms, legacy and future, means that workers at 
every level, both civilian and military, will need these fundamental 
skills. Last year volunteers from the Air Force Sustainment Center 
donated over 7,100 hours to STEM outreach initiatives. We need 
continued Congressional funding through the Department of Defense for 
STEM outreach programs, such as STARBASE; in fiscal year 2017 the Air 
Force Sustainment Center provided approximately $700,000 to support 
competition teams, sponsor events, and provide classroom enhancements. 
Additionally, continued fiscal support and expansion of K-12 STEM 
outreach, scholarships, and internships like the DOD SMART scholarship 
program, will help expand the supply for STEM graduates that will 
enable the Air Force Sustainment Center to hire the technical workforce 
needed for the future.
    Major General Crenshaw. We are building partnerships with local 
high schools, colleges and technical schools, such as the Commodore 
Conyers College and Career Academy; Albany State University; and Albany 
Technical College to develop talent pools that we can draw upon to 
sustain a workforce that will require increasing levels of technical 
skills.
                        maintenance funding gaps
    43. Senator Hirono. Major General Crenshaw, your written testimony 
stated that Marine Corps Depot Maintenance was funding to 80 percent of 
the identified maintenance requirement in fiscal year 2018. What are we 
giving up by not funding 20 percent of the requirement and what is the 
projected long-term impact of delaying or deferring this maintenance?
    Major General Crenshaw. The 20 percent represents $115 million in 
deferred maintenance which includes 74 different weapon systems for a 
total of 11,785 assets. These weapon systems include a wide variety of 
automotive, combat vehicles, construction equipment, electronic and 
communications equipment, and ordnance weapons. Delaying maintenance 
has a negative impact on Enterprise readiness, which must be balanced 
with modernization, which equates to future readiness. To mitigate 
funding impacts to current readiness, we use an Enterprise Life Cycle 
Maintenance Process to inform senior USMC leadership on the 
prioritization of maintenance to develop an optimized plan that 
maximizes readiness with available resources. Systems that are 
deferred, have the opportunity to become future candidates in the 
subsequent annual prioritization and planning cycle.

    44. Senator Hirono. Major General Crenshaw, does the Marine Corps 
Fiscal Year 2019 budget fund depot maintenance to 100 percent of the 
identified requirement?
    Major General Crenshaw. No. The fiscal year 2019 Marine Corps depot 
maintenance budget funds 80 percent of the total depot maintenance 
requirements as mandated by the Office of the Secretary of Defense 
(OSD).

    45. Senator Hirono. Major General Crenshaw, I want to understand 
the trend in Marine Corps Depot Maintenance funding. What level was 
depot maintenance funded to on average over the past five years?
    Major General Crenshaw. The following provides the Marine Corps 
depot maintenance funding profile for fiscal year 2013 to fiscal year 
2017.

----------------------------------------------------------------------------------------------------------------
                                                FY13          FY14          FY15          FY16          FY17
----------------------------------------------------------------------------------------------------------------
Total Requirements........................        $623M         $802M         $724M         $428M         $467M
Total Funded..............................        $623M         $802M         $677M         $428M         $367M
% Funded..................................         100%          100%           93%          100%           79%
----------------------------------------------------------------------------------------------------------------

    As a result of resetting equipment returning from Operation 
Enduring Freedom and the subsequent use of OCO funding received, the 
Marine Corps was almost fully funded fiscal year 2013 to 2016. 
Beginning in fiscal year 2017 and beyond the Marine Corps will fund 
depot maintenance at the OSD mandated 80 percent of the total depot 
maintenance requirements.
                                 milcon
    46. Senator Hirono. Lieutenant General Daly, Vice Admiral 
Grosklags, Vice Admiral Moore, Lieutenant General Levy, and Major 
General Crenshaw, each of the services has requested MILCON funds to 
address maintenance facility modernization and optimization. What is 
the biggest deficiency in your area that can be addressed with MILCON 
funds and how would that funding ultimately result in increased 
readiness for the warfighter?
    Lieutenant General Daly. Over half of Army Materiel Command's 
facilities were built before or during WWII. The average age of our $40 
billion inventory of facilities (building and supporting 
infrastructure) is 53 years and our identified requirements needing 
recapitalization totals $1.7 billion. We have used Restoration and 
Modernization to address many recapitalization requirements but MILCON 
investment is essential for us to meet our goal to recapitalize the 
Organic Industrial Base (OIB) by 2030. We can attain that goal with 
steady and consistent MILCON funding of between $200 million and $300 
million annually. We have come close to meeting those targets in the 
current program but must continue to receive Congressional support of 
our projects if we are going to meet the requirements for State-of-the-
Art Depots and Arsenals. The OIB must be optimized to both maintain 
unit readiness across the force and the ability to surge in support of 
contingencies. Failure to recapitalize the OIB risks losing the Army's 
capabilities and capacities to deliver tanks, helicopters, wheeled and 
track vehicles, electronic systems, ammunition, and other essential 
warfighting materiel to our soldiers and to the non-Army components 
which we support (Air Force, Navy, Marines).
    Vice Admiral Grosklags and Vice Admiral Moore. The naval shipyard 
facilities are not optimally configured to support modern maintenance 
processes.
    The naval shipyards are comprised of infrastructure from the 19th 
and 20th centuries, primarily designed for ship construction using 
early 20th century industrial models. There have been minimal major 
recapitalization efforts since the early 20th century. In addition to 
the poor material condition of naval shipyard production facilities due 
to age, their configuration is not optimized to support modern nuclear 
ship depot maintenance. Moreover, dry dock and infrastructure 
investments are needed to support USS Gerald R. Ford-class, USS 
Virginia-class including Virginia Payload Module (VPM) variants, and 
the growing nuclear fleet. If not improved, an estimated 68 major 
maintenance periods between fiscal year 2020 and fiscal year 2040 will 
have to be moved, deferred and/or rescheduled primarily due to dry dock 
obsolescence.
    The February 2018 Shipyard Infrastructure Optimization Plan Report 
to Congress provides the 20-year investment strategy that will provide 
required dry dock capacities and modernize, reconfigure, and best 
locate facilities to maximize submarine and aircraft carrier depot 
maintenance throughput. This plan includes the following facilities and 
dry dock investments funded primarily by MILCON appropriations:

    <bullet>  $14 billion in facilities layout and optimization 
investments that are required to best execute current and future 
shipyard mission and recover 328,000 man-days per year back to 
productive work solely by reducing worker and material movement as well 
as fully realize capital equipment return on investment.

    <bullet>  $4 billion in dry dock investments to recover 67 of the 
projected 68 moved, deferred and/or rescheduled submarine and aircraft 
carrier maintenance availabilities, support new class introduction, 
maintain dry dock certifications, and provide seismic and flood 
protection improvements.

    These investments will maximize the Navy's return on investment and 
improvement to depot maintenance throughput, returning 67 aircraft 
carriers and submarines on time to the fleet and significantly 
increasing readiness of the Navy's nuclear fleet.
    Similarly, the current condition of naval Fleet Readiness Centers 
(FRC) is also not optimally configured to support modern maintenance 
processes. With almost $800 million in unfunded projects ranging from 
modern maintenance hangars to state-of-the-art paint and corrosion 
control facilities (12 projects, between fiscal year 2021 and fiscal 
year 2025), the biggest deficiency that can be addressed with MILCON 
funds is depot-level Air Vehicle Maintenance, Repair, Overhaul, and 
Upgrade (MRO&U). From an FRC perspective, the impact of funding these 
projects would have significant positive impact on the rate at which 
aircraft are returned to the flight line for operational use. Upgrading 
these facilities would increase capacity, quality and performance at 
the organic depots, and reduce or eliminate the requirement for depot 
induction deferments or extensions thus creating a larger pool of 
aircraft available to the warfighter to support training and 
operational missions. In addition, the artisans tasked with conducting 
the MRO&U events would be working in properly sized and configured 
workspaces that are fully compliant with modern safety, environmental, 
and quality requirements.
    Lieutenant General Levy. The greatest deficiency in our AF Depots 
are facilities for component repair (commodities, software, engines, 
etc.) and their associated support infrastructure (waste water 
treatment, electrical grids, natural gas lines, steam operations, 
etc.). These facilities are aged beyond useful life and stressed due to 
current operations. Additionally, equipping new facilities with future-
state technologies to improve energy resiliency, cyber/communication 
and safety would best support current and future workloads. Funding for 
new component, engine, and software repair and associated support 
infrastructure would yield readiness increases through higher materiel 
availability. First, new facilities would eliminate unscheduled 
disruptions and work stoppages, resulting in aircraft returning back to 
the warfighter on or ahead of schedule. Second, these facilities also 
support the AF supply chain, so updated, more efficient facilities 
would enable a decrease in wait times and flow days, putting critical 
commodities back into the pipeline to reach warfighters more quickly. 
Finally, more efficient facilities and infrastructure would cost less 
to operate/sustain and those savings could fund more operational 
readiness for the warfighter.
    Major General Crenshaw. For the Marine Corps, our depots generally 
require MILCON to support improved efficiency and capacity to maintain 
and perform depot work on vehicles and equipment. The MILCON that 
Congress has approved for the Marine Corps' depots in the past enables 
the depots to provide vehicles and equipment to the Operating Forces 
faster.
    The Marine Corps unfunded priorities list for fiscal year 2019 
includes a $31.9 million MILCON project at Marine Corps Logistics Base 
Albany to provide a dedicated welding and body repair shop facility. 
This facility would provide the capacity needed to support the 
increased demand for welding, fabrication, and light/heavy combat 
vehicle repairs and meet production commitments for essential 
warfighting equipment.
                               __________
                Questions Submitted by Senator Tim Kaine
                condition of shipyard capital equipment
    47. Senator Kaine. Vice Admiral Moore, what is the Navy's plan to 
reduce the average age of its capital equipment, and what specific 
types of shipyard equipment are you targeting to improve efficiency and 
effectiveness for shipyard operations?
    Vice Admiral Moore. The February 2018 Shipyard Infrastructure 
Optimization Plan Report to Congress (RTC) provides the investment 
strategy to modernize naval shipyard capital equipment to within 
private industry standards. This will result in efficiencies that 
improve submarine and aircraft carrier depot maintenance execution and 
throughput. Targeted Capital Investment Program requirements include 
Industrial Plant Equipment, Information Technology, portal cranes, 
MILCON collateral equipment, test and inspection equipment, and reactor 
support equipment. Navy is programming funding that reflects a 30-year, 
$150 million per year capital equipment modernization strategy, with 
fiscal year 2018 funding increased to $151 million from the $57 million 
funded in fiscal year 2017. Fully funding the President's Budget 
requirement is needed to realize efficiencies outlined in our 2018 
Shipyard Infrastructure Optimization Plan RTC.
    In addition to modernization, capital equipment investments are 
also needed to support new mission requirements, including Los Angeles-
class refueling evolutions at Portsmouth Naval Shipyard, concurrent 
Virginia-class availabilities at Portsmouth Naval Shipyard and Pearl 
Harbor Naval Shipyard and Intermediate Maintenance Facility, Virginia-
class introduction at Norfolk Naval Shipyard, and Ford-class 
introduction at Norfolk Naval Shipyard and Puget Sound Naval Shipyard 
and Intermediate Maintenance Facility.

    48. Senator Kaine. Vice Admiral Moore, to what extent would 
improving capital equipment affect the demand for skilled workers or 
personnel retention at the shipyards?
    Vice Admiral Moore. Modernizing and improving public shipyard 
capital equipment will not reduce the demand for skilled workers but 
instead provide these skilled workers the tools they need to best 
perform submarine and aircraft carrier depot maintenance at the 
increased tempo required to support increased fleet size. Modernizing 
shipyard capital equipment infrastructure is expected to improve 
personnel retention. Showing the workforce that the Navy is investing 
in them by recapitalizing their current industrial plants with modern, 
state of the art capital equipment that is comparable to what they'd 
use in private industry will increase job satisfaction, morale, and 
dedication to best executing mission.
                   additive manufacturing capabilties
    49. Senator Kaine. Lieutenant General Daly, Vice Admiral Grosklags, 
Vice Admiral Moore, Lieutenant General Levy, and Major General 
Crenshaw, the Department has been experimenting with a variety of 
materials and applications for additive manufacturing, given the 
potential to reduce long lead time for parts delivery, decrease costs, 
etc. What specific actions are you taking to advance the qualification 
and certification of additive manufacturing?
    Lieutenant General Daly. The Army has established an Additive and 
Advanced Manufacturing Center of Excellence (COE) at Rock Island 
Arsenal, IL--Joint Manufacturing and Technology Center (RIA-JMTC). The 
purpose of this COE will be to develop and mature Additive 
Manufacturing (AM) technologies, establish processes, and develop AM 
technical data packages specifically for near-term use in the Organic 
Industrial Base (OIB) as well as for deployed tactical and operational 
units. The Army is working AM certification and qualification through 
our engineering centers including collaboration with the other 
Services, other Government Agencies (including NASA), Industry and 
Academia. The Army has Additive Manufacturing capabilities at 18 sites 
including the OIB (depots, arsenals, and ammunition plants), Research, 
Development, and Engineering Centers, Corps of Engineers, and Medical 
Research.
    Vice Admiral Grosklags and Vice Admiral Moore. The Navy is actively 
leveraging Additive Manufacturing (AM) to develop innovative new 
designs, address part obsolescence, and shorten part acquisition 
timelines that impact readiness. The Navy is working with our sister 
Services, other Government organizations, Academia and Industry to 
develop plans that will enable Additive Manufacturing across the 
enterprise--harnessing rapid AM advances from the private sector while 
tapping the innovation potential of our sailors, Marines, scientists, 
engineers and industrial workforce. The Naval Systems Commands 
(including the Marine Corps) have developed a DoN Implementation Plan 
that will speed adoption of AM and support the safe and cost-effective 
use of additively manufactured parts within Naval systems and 
processes. The Implementation Plan maps out 5 focus areas, including 
Qualification and Certification. In addition to Qualification and 
Certification, development of an AM Digital Engineering environment and 
the ability to print in afloat and expeditionary environments are among 
other focus areas that will enable distributed AM design sharing and 
production, including in dynamic environments aboard Navy combatants 
and auxiliaries. To enable this plan, an executive committee, comprised 
of the Deputy Assistant Secretary of the Navy for RDT&E, the Deputy 
Chief of Naval Operations, Fleet Readiness and Logistics (OPNAV N4), 
the Deputy Commandant for Installations and Logistics (DC, I&L) and the 
commanders of all of the Naval Systems Commands, is guiding Naval AM 
maturation and roll-out. This EXCOMM has identified specific projects 
that align with the implementation plan and will accelerate Naval AM. 
Of these acceleration projects, qualification and certification is the 
#1 priority, and efforts are underway to develop the necessary 
technical requirements to qualify AM processes and certify AM 
components to be installed shipboard.
    NAVSEA will employ Technical Authority to develop these technical 
requirements and promote AM application across our enterprise--afloat 
for ships and embarked systems/personnel, in our shore-side industrial 
facilities, and at our research labs where material and component test 
& evaluation and new design methods are currently under development. My 
engineering organization is issuing guidance on approval of AM parts 
for shipboard use, and developing specifications and standards to 
communicate Naval AM qualification and certification requirements to 
Industry. I'm seeing an increased use of Additive Manufacturing in the 
Naval Shipyards as affordable, capable printers become available. The 
shipyard workforce is leveraging AM to design and create tools and 
mock-ups, then use them in training and the job site; and throughout 
the NAVSEA enterprise personnel use AM to rapidly prototype at low 
cost, encouraging a culture of affordable innovation.
    Lieutenant General Levy. See Appendix B----Bullet Background 
Paper--Organic Innovation Center Standup.
    Major General Crenshaw. The Marine Corps has embarked on an 
aggressive effort to implement additive manufacturing (AM) across the 
Marine Corps. This includes a detailed focus with multiple stakeholders 
to address qualification and certification of parts.
    On the lower end of AM capability, we are using desktop polymer 3D 
printers in the field to produce low-criticality, high-demand parts and 
have published interim guidance to empower local commander's authority 
to approve the use of parts within the established Risk Assessment 
Criteria. These results are iteratively demonstrating the minimum 
requirements of qualification/certification for ``good enough'' parts 
that keep our equipment and Marines in the fight.
    On the higher end of AM capability, we are pursuing several 
qualification/certification efforts across Marine Corps Logistics 
Command, Marine Corps Systems Command, and the Office of Naval 
Research. The primary initiative is the ONR led QUALITY MADE project, 
focused on parts qualification/ certification of specific metals and 
alloys. MARCORSYSCOM has established an initial certification process 
and is establishing an in-house AM engineering capability to provide 
Program Management Offices the ability to organically perform AM parts 
qualification/certification. In March, LOGCOM installed two metal AM 
machines, and are partnered with leading universities to develop AM 
parts candidates to help further refine the qualification/certification 
process in partnership with MARCORSYSCOM. We have already developed 
several candidate parts using this organic metal AM depot capability.
    We look forward to continuing to strongly advocate for increased 
efforts that advance AM qualification and certification.

                           APPENDIX A

                        BULLET BACKGROUND PAPER
                                   ON
                      AFSC COLLABORATION WITH DLA
                                purpose
    To provide information on steps AFSC is pursuing in collaboration 
with DLA to improve the efficiency and effectiveness of retail supply, 
storage, and distribution functions at the depots?
                               discussion
    <bullet>  DLA is a strategic partner to the Air Force Sustainment 
Center. Over the past five years, AFSC has taken a number of steps to 
make DLA more efficient and effective as a retail supplier to Depot 
Maintenance and Base Maintenance:
      <bullet>  DLA Planners are key members of the Depot Supply Chain 
Management (DSCM) Team, a joint AFSC supply, maintenance, and DLA 
focused on forecasting depot maintenance parts requirements and 
procuring those assets in advance of maintenance actions. DSCM plans 
90-180 days in advance of maintenance activities and takes steps to put 
parts at the point of use.
      <bullet>  Planning for Depot Maintenance Consumables (PDMC) is a 
AFSC-centric effort to forecast base and depot maintenance 
requirements, through demand data ecxchanges, direct to DLA Planners 
for items with known shifts in historic demand patterns. PDMC processes 
were developed jointly between AFSC and DLA to ensure clear, concise 
demand signal communication.
      <bullet>  Performance Management is a joint effort with AFSC and 
DLA. DLA participates actively in AFSC Production performance reviews 
and briefs parts status to AFSC Senior leaders on a weekly basis. DLA's 
participation in performance reviews is a critical component of 
instituting Art of the Possible and accountability of DLA to the depot 
maintenance machine.

    <bullet>  Supply Chain Integration
      <bullet>  Strategic Sourcing is a joint effort between AFSC and 
DLA. AFSC uses DLA Procurement Detatchments to buy spare parts. 
Further, AFSC is working with DLA to take advantage of Captains of 
Industry contracts including (but not limited to) Raytheon (8$408 
million), Rockwell (8$298 million) and BAE (8$209 million) to reduce 
redundant contract vehicles and take advantage of economies of scale.
      <bullet>  Additional commodity-based PBLs are being collaborated 
and awarded to improve readiness. Most recent (11Jun18) includes an 
award on the UTAS Wheel & Brake PBL increment 1 for the F-16. The 
contract includes a future cost reduction of 10 percent over previous 
unit price and reduced Production Lead Time (PLT) for carbon brakes by 
50 percent through the reutilization of carbon. The next increment will 
be on the C-130 platform.
      <bullet>  DLA has representatives embedded in the 635th Supply 
Chain Operations Wings to help resolve supply constraints effecting 
Operational Air Force bases. These reps are our DLA ``First 
Responders'' to help improve parts support to weapon systems.
      <bullet>  AFSC and DLA jointly work annual excess inventory 
reviews to reduce excess matieral no lonoger needed to support weapon 
systems.
      <bullet>  AFSC and DLA have focused on reducing the number of 
suspended assets in stock through the Suspended Asset Working Group.
      <bullet>  DLA has supported multiple AFSC and Air Force 
initiatives over the past years, to include HAF's Aircraft Availability 
Campaign and Full Spectrum Readiness.
      <bullet>  AFSC and DLA hold annual Planning Conferences to 
address and improve planning processes between the agencies, plus 
select specific programs and initiatives to focus improvement efforts.
      <bullet>  AFSC and DLA meet annually at Air Force & DLA Day to 
discuss common issues at a strategic level.
                                summary
    For information only.

                           APPENDIX B

                        BULLET BACKGROUND PAPER
                                   ON
                    AFSC ORGANIC INNOVATION CENTERS
                                purpose
    To provide information on AFSC's organic Innovation Centers.
                               discussion
    <bullet>  More than 70 percent of the funds required to develop, 
qualify, and operate an aircraft in service are spent in operation and 
maintenance (SAB-TR-11-01). The time spent in operation and maintenance 
is much longer today than it ever has been in the history of the USAF 
(SAB-TR-11-01). Reverse engineering & production efforts for aircraft 
parts requires on average 4.6 years for a redesigned part, 3.2 years to 
develop a part repair procedure, and 2.1 years to test and qualify a 
new vendor.

    <bullet>  Emerging technologies are promising to shorten the 
timeline from design to production and revolutionize long held 
operating constraints with respect to production lead time requirements 
and supply chain support. These include: additive manufacturing (3D 
Printing), additive repair, in-situ quality control and non-destructive 
assessment. Investment is needed to purchase equipment, develop 
processes and procedures, and validation through prototypes to 
accelerate the fielding of these game changing technologies.

    <bullet>  AFSC's vision of innovation focuses on exploration of 
these advanced manufacturing technologies for introduction into the 
sustainment infrastructure. Innovation Centers (IC) will provide a hub 
for manufacturing innovation by providing access to a variety of 
technologies, tools, training, and fostering collaboration with 
industry in a maker-space open to scientists and engineers across the 
sustainment enterprise.

      <bullet>  The ICs will provide a controlled environment to 
design, test, redesign without impacting depot production. This can be 
done relatively inexpensively with organic capabilities when compared 
to non-organic options.

    <bullet>  AFSC/EN is working jointly with AFLCMC/EZP to develop a 
repeatable & reliable production process and air worthiness 
certification methodology for additively manufactured parts.

    <bullet>  An organic capability will enable AFSC to address 
critical parts shortage issues and overcome diminishing source of 
supply issues currently affecting the sustainment enterprise.

      <bullet>  Almost 50 percent of AFMC's Scientists, Engineers, and 
Technicians reside at an AFSC location

      <bullet>  The rapid speed enabled by this technology is most 
effective when performed at the point of need by those with an intimate 
knowledge of the problem needing to be solved. Every flow day saved 
decreases the time an aircraft is in depot and back to the warfighter 
quicker.

      <bullet>  In fiscal year 2017, 309 MXSG (Hill AFB) additively 
manufactured and/or developed TDP for 147 different components, cut 
production flow time by 420 hours, and yielded $211,000 in savings. To 
date for fiscal year 2018, they have produced 90 different components, 
cut production by 640 hours, and yielded $198,700 in savings.

      <bullet>  In fiscal year 2017, 76 CMXG (Tinker AFB) additively 
manufactured and/or developed TDP for 120 different components, cut 
production flow time by 1850 days, and yielded $480,000 in cost 
avoidance. To date for fiscal year 2018, they have produced 56 
different components, cut production flow time by 780 days, & yielded 
$230,000 in cost avoidance.

      <bullet>  In fiscal year 2017, 402 EMXG (Robins AFB) developed 
TDP/Repair processes for 9 projects, resulting in the repair of 11 
items, yielding $1.5 million in savings. To date for fiscal year 2018, 
they have completed 10 projects, resulting in the repair of 34 end 
items, yielding $96,000 in savings.

    <bullet>  AFSC/EN and the Innovation Centers regularly collaborate 
with other industry and DoD partners to share best practices and 
lessons learned in a effort to bend the learning curve.

      <bullet>  Participates in monthly Additive Manufacturing for 
Maintenance and Sustainment telecom hosted by America Makes.

      <bullet>  Participates in monthly Air Force Additive 
Manufacturing User Group telecom hosted by UDRI and AFLCMC/EZP.

      <bullet>  Participates in OSD led Joint Technology Exchange Group 
(JTEG).

      <bullet>  Collaborates with AFRL on Maturation of Additive 
Manufacturing for Low-cost Sustainment (MAMLS) projects.

      <bullet>  Participates in monthly Additive Manufacuturing for 
Maintenance Operators (AMMO) Working Group.

      <bullet>  Collaborating directly with DLA to validate AM as a 
viable alternative manufacturing source.

      <bullet>  Regularly presents at AM forums, summits, and 
symposiums (i.e Military Additive Manufacturing Summit, National Center 
for Defense Manufacturing and Machining).

    <bullet>  The AFSC IC strategy proposes investments over multiple 
years to purchase additional equipment, software, services, and 
facility construction to fully achieve the benefits these technologies 
offer.

      <bullet>  Examples include: metal and polymer 3D printers, sand 
printers for castings, design software, robotics, cold spray equipment, 
multilayer circuit board printers, facility upgrades for handling 
reactive materials.

      <bullet>  Current approach is to apply for WCF funding across 10 
years. Additional funding sources are being sought that would speed up 
the timeline.
                                summary
    For information only.

                           APPENDIX C

                        BULLET BACKGROUND PAPER
                                   ON
              CYBER INSECURITIES ASSESSMENT IMPACT TO AFSC
                                purpose
    Defense Federal Acquisition Regulation Supplement (DFARS) 
252.204.7012 addresses ``Safeguarding Covered Defense Information and 
Cyber Incident Reporting.'' Defense contractors shall implement the 
requirements of the clause no later than 31 December 2017. AFSC is 
pursuing a multifaceted approach to ensure our small business partners 
are aware of and working diligently to comply with this requirement. 
Below is a synopsis of the work AFSC has done to date.
                               discussion
    DFARS 252.204.7012 requires contractors to protect unclassified 
information in accordance with National Institute of Science and 
Technology (NIST) Special Publication 800-171. Contractors must 
complete a Cybersecurity Compliance Readiness Assessment, to include a 
gap analysis, plan of actions and milestones, and implement a security 
plan. Defense contractors must meet 110 security control requirements 
and report incidents to the Pentagon. All contractors should have a 
plan to achieve cybersecurity compliance by EOY 2017.

    <bullet>  The burden of DFARS 252.204.7012 compliance falls on 
contractors. Specifically, prime contractors are held accountable for 
the performance of their suppliers. There is recognition that smaller 
contracting companies may struggle to implement strong cybersecurity 
with limited staff and resources.

    <bullet>  AFSC has contracts to buy, repair, and modify assets as 
well as engineering services contracts with hundreds of contractors/
suppliers. Cyber risk is reduced when DFARS 252.204-7012 requirements 
are included in contract documents for any company with a direct 
contract with the AF.

    AFSC has already taken action to prepare for the new rules and 
mitigate any impacts from these changes being enforced on AFSC's small 
business contractors.

    <bullet>  AFSC will continue to ensure solicitations and contracts 
include the DFARS prescribed cybersecurity requirements.

      <bullet>  To date, AFSC concludes DFARS 252.204-7012 has not had 
a negative effect on contractors doing business with the Government. 
Our analysis of the history of this clause revealed that this type of 
requirement began around 2011 with an initial implementation beginning 
around 2013. Over the span of six years the clause has been revised 
from a broad requirement to a more specific requirement. Ultimately, 
companies have had ample time to adapt to implementing the requirement 
in DFARS 252.204-7012.

      <bullet>  AFSC surveyed our geo-locations to determine if 
contractors have complained or expressed concern of this clause. The 
consensus is that there has been limited concern from all businesses 
which includes covered small businesses.

    <bullet>  AFSC has been proactive with its approach to helping 
small business prepare for the new cyber requirement. Some of the steps 
taken to mitigate obstacles include:

      <bullet>  The DOD Office of Small Business Programs and the DOD 
CIO engaged industry with a media blitz, most notably the DOD CIO 
Industry Day in June 2017.

      <bullet>  The Procurement Technical Assistance Centers (PTAC) 
took on the training of small businesses to increase awareness. The 
Utah PTAC held two sessions for industry.

      <bullet>  In collaboration with DLA and the PTAC, grant money has 
been available for Small Businesses to begin the process.

      <bullet>  The Small Business Administration has initiated 
Cybersecurity for Small Business training at its regional districts and 
online.

      <bullet>  The large OEMs have taken an aggressive posture in 
assuring that their supply chain is in compliance, which in some cases 
are the same DOD suppliers.
                                summary
    With overall Center awareness of this increased focus on 
cybersecurity, and appropriate mitigation strategies, AFSC can position 
itself along with our small business partners to succeed in a 
challenging cybersecurity environment.

                                 <all>
</pre></body></html>
